<html>
<title> - REVIEW OF THE FISCAL YEAR 2020 STATE DEPARTMENT BUDGET REQUEST</title>
<body><pre>[Senate Hearing 116-202]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-202

                  REVIEW OF THE FISCAL YEAR 2020 STATE 
                     DEPARTMENT BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 10, 2019

                               __________



       Printed for the use of the Committee on Foreign Relations


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                   Available via the World Wide Web:
                         http://www.govinfo.gov


                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-533 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------


                 COMMITTEE ON FOREIGN RELATIONS        

                JAMES E. RISCH, Idaho, Chairman        
MARCO RUBIO, Florida                 ROBERT MENENDEZ, New Jersey
RON JOHNSON, Wisconsin               BENJAMIN L. CARDIN, Maryland
CORY GARDNER, Colorado               JEANNE SHAHEEN, New Hampshire
MITT ROMNEY, Utah                    CHRISTOPHER A. COONS, Delaware
LINDSEY GRAHAM, South Carolina       TOM UDALL, New Mexico
JOHNNY ISAKSON, Georgia              CHRISTOPHER MURPHY, Connecticut
JOHN BARRASSO, Wyoming               TIM KAINE, Virginia
ROB PORTMAN, Ohio                    EDWARD J. MARKEY, Massachusetts
RAND PAUL, Kentucky                  JEFF MERKLEY, Oregon
TODD, YOUNG, Indiana                 CORY A. BOOKER, New Jersey
TED CRUZ, Texas
              Christopher M. Socha, Staff Director        
            Jessica Lewis, Democratic Staff Director        
                    John Dutton, Chief Clerk        



                              (ii)        

  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Risch, Hon. James E., U.S. Senator From Idaho....................     1

Menendez, Hon. Robert, U.S. Senator From New Jersey..............     2

Pompeo, Hon. Mike, Secretary, Department of State, Washington, DC     5
    Prepared statement...........................................     7

              Additional Material Submitted for the Record

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Robert Menendez................................................    58

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Benjamin L. Cardin.............................................    99

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Tim Kaine......................................................   108

Responses of Hon. Mike Pompeo to Questions Submitted by Senator 
  Edward J. Markey...............................................   114

The Foreign Service Journal Article Dated April 2019 Submitted by 
  Senator Robert Menendez........................................   123

The Foreign Service Journal Article Dated May 2019 Submitted by 
  Senator Robert Menendez........................................   124


The National Interest Article Submitted by Senator Tim Kaine.....   126

                             (iii)        

 
     REVIEW OF THE FISCAL YEAR 2020 STATE DEPARTMENT BUDGET REQUEST

                              ----------                              


                       WEDNESDAY, APRIL 10, 2019

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:23 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. James E. 
Risch, chairman of the committee, presiding.
    Present: Senators Risch [presiding], Rubio, Johnson, 
Gardner, Romney, Isakson, Barrasso, Portman, Paul, Young, Cruz, 
Menendez, Cardin, Shaheen, Udall, Murphy, Kaine, Markey, and 
Merkley.

           OPENING STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    The Chairman. The committee will come to order. Good 
morning, everyone. Thank you for being here. We obviously have 
a distinguished guest here today, who is going to help us 
through the dialogue. And our topic is the State Department's 
fiscal year 2020 budget request. And our witness is the right 
man to answer questions about that request, Secretary of State, 
Mike Pompeo.
    One thing many Americans may not realize is that the State 
Department is part of the bedrock of our national security. Its 
diplomats are our eyes and ears on the ground across the globe. 
These men and women are the tip of the sphere for advancing 
U.S. interests overseas, our first line of defense against 
malign influences, and a vital lead in negotiations to make 
sure that our relations with friends and foes abroad don't go 
off the rails.
    The State Department civil servants work every day to keep 
the U.S. economy strong, advocating for American exports that 
translate into jobs back home in states like mine, Idaho, where 
24,000 jobs are supported by exporting just agricultural 
products alone.
    The State Department also provides billions of dollars to 
strategic allies like Israel to protect their security 
interests and help preserve peace around the world. As the old 
adage goes, the State Department is so indispensable, if it did 
not exist, we would have to invent it.
    For all of these reasons and many more I believe we need a 
vibrant State Department that takes care of our national 
interests and its own people, who do a great job serving the 
American people. But we need a State Department for today, not 
for 2001, 1991, or 1975. The world has changed a lot over the 
past few decades, and we need our diplomacy to reflect that.
    For example, we need to make sure that our diplomats are 
getting the support they need to get outside the walls of our 
diplomatic posts to do their jobs. We all know that Chinese, 
Russian, and Iranian diplomats don't have trouble getting off 
their embassy compounds.
    In 2019, the stakes are too high to hamstring our national 
security in this way, which limits U.S. engagement in a number 
of places. We need our people out there working with our 
security partners, advancing human rights and the rule of law, 
and pushing our American business.
    These are things we simply cannot do well enough by sitting 
at a desk behind several layers of security in an embassy. On 
the State Department's budget, I recognize that like any 
federal agency there are many areas for improvement, be it 
reducing redundancies, or increasing efficiencies. I believe 
the Department should find these efficiencies first, and 
consider cuts second. I look forward to hearing Secretary 
Pompeo address these issues.
    First and foremost, though, the Department needs to be 
fully staffed. We are far too into a presidential 
administration for there to be so many unfilled positions. How 
can we critique the performance of administration if it is not 
even allowed to field its own team?
    I am optimistic that this week we will see confirmation of 
General Abizaid to be ambassador to Saudi Arabia, but there is 
much more work to be done, especially to fill a number of very 
important senior roles in the State Department here in 
Washington. And I know that the Secretary shares my view in 
that regard, as we have had several robust discussions 
regarding that.
    I want to thank Secretary Pompeo for appearing here today, 
and expect that this will be far from the last time we see him 
here this Congress. The easiest way to keep relations strong 
between the State Department and our committee is through open 
dialog. Just like diplomacy, my hope is that the more we are 
talking, the less we are disagreeing.
    And so on a personal note, let me say, Secretary Pompeo, I 
have said publicly, and I will say it again, you are the right 
man for the right job at this time. We sincerely appreciate 
that. Myself, like most other members of this committee, meet 
regularly with heads of state from the 200-plus countries, and 
high-ranking officials there, and uniformly you get high marks 
from those people, as far as flying the flag and dealing with 
them. So thank you for what you do. Thank you for appearing 
here today.
    Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary, back to the committee. We 
appreciate you being here.
    It is something of a cliche to say at hearings like this 
that we meet at a critical juncture, or a consequential time 
for America in the world. But never in my nearly three decades 
of service in Congress have I seen a confluence of complicated 
challenges. Russia, China, North Korea, Afghanistan, climate 
changing, rising authoritarianism, Saudi Arabia, migration 
crises in Central America, Africa, and Southeast Asia. None of 
these are easy, nor are they all of our making.
    But with all due respect, Mr. Secretary, thus far, the 
Trump administration has not demonstrated a deep understanding 
of or capacity required to meet these challenges. Confronting 
China is not the same thing as being competitive with China. 
Squandering alliances and alienating partners while cozying up 
to dictators is not prudent at precisely the time when we need 
likeminded democratic freedom-loving friends to confront a 
rising China, a revisionist Russia, or an emboldened Iran.
    Threatening to cut funding that supports the institutional 
capacity of our partners in Central America to deal with the 
root causes of migration, including grinding poverty and the 
violence of MS-13, is not an effective way to manage that 
challenge.
    Undermining unity at the World Trade Organization is a 
bizarre strategy at a time we should make it clear that China, 
not the United States, is the outlier in international economic 
architecture.
    Haranguing partners about the dangers of Huawei's 5G 
architecture, a concern that I share, is not a successful 
approach to develop a consortium of likeminded partners to 
develop a safe and cost-effective alternative.
    Failing to develop a diplomatic strategy to support peace 
in Mali, or the Sahel, more broadly, while Jihadists and ethnic 
militia attacks have cost more than 2,000 lives in the last 5 
months alone, leaves us vulnerable to global terrorism.
    And in Saudi Arabia, the administration's violation of the 
Global Magnitsky Law, failing to respond to my requests for a 
determination under the law as to the complicity of the crown 
prince, sends a global message to authoritarians that you can 
kill and violate human rights with impunity.
    So I am disappointed to be having what I feel like is a 
recurring bad dream. This administration submits a budget 
request that demonstrates either no understanding of the value 
of the U.S. diplomacy and foreign engagement, or has an active 
desire to see us retreat from the global stage, cede ground to 
our adversaries.
    I am pleased that Congress, in exercising our 
constitutional prerogative as a separate and co-equal branch of 
government, has appropriated funds that we need to secure our 
interests and protect our citizens abroad.
    I agree with your national security strategy assessment 
that Russia poses a threat to democratic partners across 
Europe. Yet, you propose cutting those funds to support 
democratic institution building.
    I applaud the administration's continuation of the Obama-
era policy ISIS strategy, working with critical partners, that 
has led to the expulsion of ISIS from physical territory. And I 
am pleased that at the urging of Congress and of allies, you 
seem to be willing to keep U.S. troops in place to help secure 
our interests. But as General Voltel warns, the fight is far 
from over.
    Yet, your budget does not contain the sustained diplomatic 
and development resources we need to truly combat this evil. 
The world faces a truly existential crisis with climate change, 
and our own Defense Department continues to warn about the 
serious global implications of famine, migration, and conflict 
it may bear. Yet, your budget seems to pretend that the problem 
does not even exist.
    Again, I agree with this administration's assessment that 
China presents new and evolving challenges across the Indo-
Pacific and the world, challenges we must confront with a 
robust diplomatic and economic agenda. Your budget proposes a 
cut of close to 20 percent from the fiscal year 2017 actual 
budget to meet our commitments in the Indo-Pacific.
    At your own department, in Foggy Bottom, this 
administration's disdain for civil servants and the value of 
experienced professionals is weakening the foundational 
component of U.S. foreign policy, our diplomatic, and 
development professionals.
    I ask unanimous consent to enter into the record two 
columns by Ambassador Stephenson as to the hollowing out of the 
State Department.
    The Chairman. They will be entered.

    [The information referred to above is located at the end of 
the hearing.]

    Senator Menendez. Finally, on the matter of oversight, I 
would like to flag for your attention a classified matter that 
the committee had a briefing on yesterday, the details of which 
I won't and can't discuss here. Where we raised with the 
Department an important issue that had not previously been 
shared with us. Would not, in fact, had been shared with us had 
we not raised it with you. And may have made the difference in 
how senators voted on a particular matter. As I am sure you 
appreciate, that is simply unacceptable.
    If the committee is to be able to function, if Congress is 
to play its constitutionally mandated role, the Department 
needs to do a better job of engaging with us, briefing us, and 
responding to our requests. Right now, the situation is not 
acceptable, and I would be happy to discuss this further with 
you in a classified setting, as I am sure many of my colleagues 
would.
    When you were confirmed as secretary, I had hoped that you 
would be empowered and committed to promoting core American 
values and interests on the global stage. But we have seen the 
administration undermine our values with Saudi Arabia. We have 
seen maximum pressure on North Korea whittled away one tweet at 
a time. We have seen the administration pursue illogical 
misogynistic policies to play domestic reproductive rights 
politics for political ambitions on the backs of the world's 
poorest women.
    So as I see it, the challenge for this committee is two-
fold. Insurance that Congress serves as a coequal branch on 
government, and check and power from the White House, and 
helping to inform the American people why that is important. 
Restoring the State Department and USAID budgets is a starting 
point, but we must be more effective in holding the 
administration accountable for its foreign policy shortcomings 
as well, and reminding the American people about the importance 
of core American values, like democracy, governance, and human 
rights as drivers of our foreign policy.
    It is these fundamental values, along with America's 
unparalleled strengths on the global stage, a military second 
to none, a vital economy, driven by innovation and 
technological ingenuity, a reservoir of goodwill with our 
allies and partners that provide us the opportunity to define a 
new role, and a new grand strategy for the 21st century.
    I said earlier that I was skeptical of the administration's 
ability to be equal to this moment in world history. But Mr. 
Secretary, I want you to prove me wrong. An opportunity remains 
to take hold of the moment before us, to face squarely the new 
challenges of this more competitive era, and to replenish our 
vision, reinvigorate our diplomacy, revive our partnerships, 
and to restore American leadership for a new era. And I look 
forward to the questions to pursue that for you.
    The Chairman. Thank you very much, Senator.
    And with that, we are going to hear from Secretary Pompeo. 
As a graduate of West Point, and with your Harvard law degree, 
you are certainly qualified for this job. But more importantly, 
as the ranking member referred to a classified briefing that we 
had yesterday, I think that that time you spent as head of the 
CIA really uniquely qualifies you for this job.
    We on this committee--I have the advantage of being on both 
committees. And there is only two of us, Senator Rubio and I, 
that have earned that position. And we had a stark reminder 
yesterday of the tremendous amount of information that is out 
there in the classified setting that we can't talk about at 
hearings like this. But Senator Menendez is correct that there 
are items that we need a closer bond on.
    This isn't your fault. It is the way that the system works 
here, where we have a separate foreign relations and 
intelligence committee, and the volume of what we deal with in 
Intel, as you know, is just staggering. And it affects what we 
do here. So anyway, probably as much as we can talk about here.
    But with that, Secretary Pompeo, the floor is yours.
    Secretary Pompeo. Thank you.
    The Chairman. A warm welcome.

 STATEMENT OF HON. MIKE POMPEO, SECRETARY, U.S. DEPARTMENT OF 
                     STATE, WASHINGTON, DC

    Secretary Pompeo. Mr. Chairman, thank you. Senator 
Menendez, ranking member, thank you, sir.
    In my testimony yesterday to the Appropriations Committee I 
took a few moments to describe the administration's greatest 
foreign policy challenges, what we have done to solve them, how 
we benefited the American people by doing so. And I want to 
spend a few minutes talking about that same set of issues here 
with you all this morning.
    When we took office, we inherited the most complex set of 
threats that the United States of America has faced since World 
War II. We faced a China that was turning towards 
authoritarianism, turning away from market liberalization, and 
turning the screws on its minority populations in a truly 
Orwellian fashion.
    We faced an Iranian regime that, flush with cash from the 
nuclear deal, set about seating terror from Yemen, to Syria, to 
Lebanon, and beyond. We faced a Russia that felt no compunction 
about invading Ukraine, seizing Crimea, meddling in our 
elections, and breaking arms control treaties.
    We faced a North Korea that continued to pursue its nuclear 
and missile proliferation threats to our nation. And we faced 
the terror, the threat that was more deadly and stretched 
across a far wider geography.
    What'd we do? First, the Trump administration recognized 
and faced reality. We know we can't make sound policy based on 
wishful thinking. Can't lead from behind. We leveled with the 
American people and our friends and partners about the threats 
that we face individually and collectively.
    This honesty produced growing bipartisan consensus on 
Capitol Hill about the need to confront Chinese aggression, and 
produced unanimous consensus inside of NATO that arms control 
agreements like the IMF treaty are worthless if only one party 
adheres to their terms. It produced international support for 
the brave people of Venezuela, basing policy on reality.
    We recognized Jerusalem as Israel's capital. We recognized 
Israel's sovereignty over the Golan Heights. It is why the 
State Department designated the Islamic Revolutionary Guard 
Corps as a terror organization on Monday. It is just a simple 
recognition of reality.
    Second, we just created diplomacy to build coalitions to 
confront our enemies. We know we can't nor should we do 
everything ourselves. We convinced our NATO allies to spend 
more on their own defense. We rallied the Defeat ISIS Coalition 
to dismantle the Caliphate in Iraq and Syria.
    We convened over 60 countries in Warsaw to discuss common 
threats and shared opportunities in the Middle East. And that 
included both Arab and Israeli leaders talking to each other. 
We're getting our Middle East strategic alliance off the 
ground. And we have built out an Indo-Pacific strategy to do a 
true pivot to Asia.
    We have supported our hemispheric partners in the OAS and 
the Lima Group as they work to support the Venezuelan people, 
and we forged the global coalition at the United Nations to 
impose the toughest ever sanctions on the Democratic People's 
Republic of Korea.
    So what'd we get? Third. What are the outcomes? This 
administration promised to dismantle the Caliphate, and we have 
done it. We promised to confront China for its unfair 
practices, and call them out on human rights violations. We 
have done that, too.
    We promised to exit the Iran Nuclear Deal to exert pressure 
on Tehran to change its murderous ways. Still more work to do. 
We are working every day to protect our citizens at home and 
abroad, advance American prosperity and values, and support our 
allies and partners overseas.
    Finally, one point. Each of you too in your opening remarks 
alluded to this. When I became Secretary of State, I promised I 
would put diplomacy at the forefront of defending U.S. National 
Security to give State its swagger back. I think we have made a 
lot of progress.
    Here is what we have done. It has been 11 months and a 
couple weeks now. I lifted the hiring freeze both on our team 
and employee family members. This was a no-brainer. Taking 
2,000 talented people and putting them back in the workforce.
    We reinstituted promotion rates for the Foreign Services. 
We will have more Foreign Service officers by the end of this 
calendar year than ever in the history of the United States of 
America. The notion that we have been hollowed out is simply 
not factually based.
    New Foreign Service officers, Foreign Service specialist 
classes are being admitted. Fifty-five senior leaders have been 
confirmed by the Senate. I appreciate that.
    I hold small group events, both when I am traveling at 
embassies. I do it in Washington and other places where State 
Department has--we call them ``Meet with Mike,'' where I hear 
directly from our team. And more importantly, I get to hear the 
things that we are doing well and the things that they wish we 
were doing still better. I have learned a great deal from these 
professionals.
    Back in the states, I have traveled a bit. I travel around 
the country talking about the importance of diplomacy in 
America, and frankly, doing some recruiting work as well to 
make sure we have America's finest joining our team.
    At my recommendation President Trump and the Senate 
recognized four individuals with the rank of career ambassador. 
David Hale, Phil Goldberg, Michelle Sison, Dan Smith, who leads 
our Foreign Service Institute. The rest of our team knows that 
they can look up to these true diplomatic professionals.
    I have a lot more to say, but I will end there. I look 
forward to discussing the administration's foreign policy, and 
the $40 billion budget request for the State Department and the 
USAID for fiscal year 2020.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Pompeo follows:]

                 Prepared Statement of Hon. Mike Pompeo

    Chairman Risch, Ranking Member Menendez, and distinguished members 
of the Committee: I appreciate the opportunity to discuss the 
administration's FY 2020 budget request for the State Department and 
the U.S. Agency for International Development.
    To support our National Security Strategy and achieve our foreign 
policy goals, the President has submitted an FY 2020 budget request of 
$40 billion for the State Department and USAID.
    The proposed request will allow us to protect our citizens at home 
and abroad, advance American prosperity and values, and support our 
allies and partners overseas.
    It will promote partner countries' economic and security self-
reliance as they begin to transition away from U.S. assistance 
programs, which the American people have generously underwritten for 
decades.
    We make this request mindful of the burden on American taxpayers, 
and our obligation to deliver exceptional results on their behalf.
    In an era of great power competition, the State Department and 
USAID's work is key to our security, the protection of our freedoms, 
and the promotion of American values.
    China is proactively applying its power and exerting its influence 
in the Indo-Pacific region and beyond. Under President Trump's 
leadership, the United States is responding decisively to China's 
aggressive actions. The United States' future security, prosperity, and 
leadership depends on maintaining a free, open, and secure Indo-
Pacific. To advance the Indo-Pacific strategy, the budget request 
nearly doubles U.S. foreign assistance resources targeting this crucial 
area compared to the FY 2019 request.
    Russia poses threats that have evolved beyond external or military 
aggression, and now include influence operations targeting America and 
the Western world. This budget prioritizes countering Russian malign 
influence in Europe, Eurasia, and Central Asia, and further strengthens 
the Department's own systems against malign actors.
    Our diplomatic efforts toward the final, fully-verified 
denuclearization of North Korea are the most successful that have ever 
been undertaken. We remain committed to that goal. This budget provides 
for our diplomatic outreach to continue, and to continue implementation 
and enforcement of sanctions until we achieve our objective.
    We know that the Islamic Republic of Iran's authoritarian regime 
will continue to use their nation's resources to proliferate conflict 
in Iraq, Yemen, Syria, and beyond. It will continue to bankroll 
terrorist groups like Hamas and Hezbollah.
    The United States will therefore work together with our allies and 
partners to counter Tehran's aggressive actions to undermine peace and 
security in the Middle East and beyond.
    As the people of Venezuela continue to fight for their freedom, the 
budget request includes funding to support democracy and prosperity in 
Venezuela. The budget also requests new authority to support a 
democratic transition in Venezuela, including transferring up to $500 
million to foreign assistance accounts.
    The budget also delivers on the President's commitment to optimize 
the effectiveness of our outdated and fragmented overseas humanitarian 
assistance. It ensures the United States will remain the world's 
largest single donor of humanitarian assistance. The proposal maximizes 
the impact of taxpayer dollars, helps more beneficiaries, and delivers 
the greatest outcomes by consolidating our humanitarian programming in 
a new bureau at USAID. This budget request also preserves the State 
Department's lead role on protection issues, as well as the U.S. 
refugee admissions program. Further, through available funding in 2019 
and 2020, the United States will have on average approximately $9 
billion available per year to support overseas humanitarian programs, 
maintaining the highest level of U.S. overseas humanitarian funding 
ever.
    President Trump has made the protection of religious freedom a key 
priority at home and abroad. The Fiscal Year 2020 budget supports our 
efforts to continue U.S. leadership in the promotion of global 
religious freedom and the protection of persecuted religious and ethnic 
minorities all around the world. This July, the State Department will 
host the second annual Ministerial to Advance Religious Freedom.
    American assistance is helping to reverse the devastation and 
suffering caused by ISIS and associated terrorist groups. But much work 
remains to be done. Working by, with, and through local partners and 
community leaders, our assistance programs clear explosive remnants of 
war to help keep families safe, restore access to critical health and 
education services, improve economic opportunities, and more.
    As we work to promote economic growth, the Fiscal Year 2020 Budget 
includes a request for $100 million for a new Fund at USAID for the 
White House-led Women's Global Development and Prosperity Initiative. 
Through the Fund, we will work to find and scale proposals that advance 
women's economic empowerment across the developing world, in support of 
the Initiative's goal of reaching 50 million women by 2025.
    There are few efforts as important to this administration and to 
the safety and security of the American people as border security. The 
State Department and USAID budget request will strengthen visa vetting, 
and improve our targeting of illicit pathways that transnational 
criminal organizations use to traffic people, drugs, money, and weapons 
into our nation.
    President Trump has made it clear that U.S. foreign assistance 
should serve America's interests, and should support countries that 
help us to advance our foreign policy goals. This budget therefore 
maintains critical support for key U.S. allies, including Israel, 
Jordan, Egypt, and Colombia, among others.
    The FY 2020 Request also includes $175 million for a Diplomatic 
Progress Fund. These funds will be used to respond to new opportunities 
arising from potential progress in diplomatic and peace efforts around 
the world.
    Finally, the diplomatic challenges we face today are compounded by 
rapid advancements in technology and an ever-changing media 
environment. We need our colleagues to be safe, prepared, and ready to 
take on any challenge at a moment's notice. The FY 2020 budget will 
fully fund State and USAID's current workforce levels, enabling us to 
take on emerging policy challenges. We are also modernizing our human 
resources, IT infrastructure, and organizational structures to stay on 
the cutting edge of 21st century innovation.
    We must continue to put American interests first and remain a 
beacon of freedom to the world. With the support of Congress, and 
through the strategic, efficient use of resources, this budget will do 
just that.
    Thank you.

    The Chairman. Thank you. We appreciate that. I am going to 
reserve questioning as we go down the pike, and so I will first 
yield to Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Mr. Secretary, the administration's recent decision to cut 
all U.S. aid to El Salvador, Guatemala, and Honduras appears to 
me to stand out as a self-inflicted wound to our national 
security and our national interests.
    Just 6 months ago Vice President Pence said that the United 
States, ``Has never been more committed to strengthening our 
partnership with the nations in the Northern Triangle.'' And to 
address the drug trafficking gains and criminal violence, 
forcing people to flee their countries, he said, ``We must 
confront them at their source within the Northern Triangle.''
    So let me ask you a few basic yes or no questions. Do you 
believe that U.S. foreign assistance advances our national 
security?
    Secretary Pompeo. Are you speaking about in the Northern 
Triangle countries and its effectiveness, or are you speaking 
broadly as for----
    Senator Menendez. Let us start broadly.
    Secretary Pompeo. Yes, sir. If done properly, done 
effectively, it certainly can.
    Senator Menendez. Do you believe that it is in the U.S. 
national interest to work with countries around the globe to 
combat drug trafficking and transnational criminal 
organizations?
    Secretary Pompeo. To do this effectively you need partners 
all around the world. Yes, Senator.
    Senator Menendez. Do you believe that U.S. national 
security is advanced by terminating funding for law enforcement 
cooperation with Central American countries?
    Secretary Pompeo. If I may explain the decision that we 
have made, and why the President made that decision. It begins 
with the fact that there is an enormous crisis at our southern 
border. The United States has spent hundreds of millions of 
dollars to try and build out solutions--foreign assistance 
dollars, to try and build out solutions in these three 
countries, El Salvador, Guatemala, and Honduras.
    You can see it is a fact of this crisis at the southern 
border that it has not been effective, and so we are 
endeavoring to change that, right? We deal in reality. It is 
not enough to take taxpayer money and spend it there. You need 
to get something for that. And that is what we are engaged in 
now.
    We are having conversations with the leadership in those 
countries. We want better lives for those people, but most 
importantly, we want to make sure that every dollar, taxpayer 
dollar we spend in the Northern Triangle is effectively used.
    Senator Menendez. Well, we certainly want every taxpayer 
dollar spent anywhere in the world to be effective. But to 
believe that longstanding challenges--I think the Vice 
President had it right only 6 months ago when he made the 
statements that he made. U.S. national security is not advanced 
by terminating funding for law enforcement cooperation with 
Central American countries. U.S. national interests are not 
advanced by terminating funding for programs that strengthen 
the rule of law.
    Why are people fleeing? They are fleeing because of violent 
crime. Their choice is stay or die, or flee, and have a chance 
at living, or stay and see my daughter raped, or stay and see 
my son forcibly put into a gang. We need to fight at the very 
essence of that. And the very essence of that is not at our 
border. It is in Central America.
    I don't understand how that, the USAID programs that 
stabilize Central American countries by promoting economic 
development, helping people find opportunities in their own 
countries. I think the administration had it right, and that 
Congress is urging when you were involved with Central America, 
and trying to get to the root causes, all this will do is 
create greater instability in the region, and will drive more 
people in fear and in hopelessness to the border, and we will 
exacerbate the situation.
    So I really urge you to recalibrate that, because it is 
just a fundamentally wrong policy.
    Let me switch to something we do agree on, Venezuela. And 
along with Senator Rubio and 10 members of this committee, we 
have introduced legislation last week reinforcing several 
elements of the administration's strategy, and dramatically 
expanding our humanitarian response with 400 million in new 
aid.
    But I have two questions in this regard. Number one, what 
is the department doing to internationalize our sanctions, and 
try to get the European, Canadians, and Latin American partners 
to join us. And why haven't we convened an international donor 
summit? And will you consider doing that?
    Secretary Pompeo. The second one, we will absolutely 
consider it. We will see who the right leader for that should 
be to actually convene that. It is absolutely a central part of 
the day that we are successful there in support of the 
Venezuelan people to achieve democracy in the way they so 
richly deserve. But there will be resources required, and I am 
confident we will find partners all around the world that would 
be part of that. And a donors' conference will be an element of 
effectuating that.
    Your first question was, we are working with some 50-plus 
nations now that have recognized the new government, the 
leadership under Juan Guaido, to sanction in the same way that 
we have. We are continuing to push. We have demarched countries 
all across the world. We are trying to bring more to the 
coalition of 54, and we are trying to get those 54 to impose 
sanctions that match the ones that the United States has 
imposed.
    Senator Menendez. And that is critical.
    Last question. January marked the 1-year anniversary of 
landmark agreements between the U.S. and Qatar regarding 
government subsidies to Qatar Airways, the state-owned airline.
    In addition to committing to financial transparency, in a 
side letter to the agreement, the Qatari government indicated 
that there was no intention to launch additional fifth freedom 
flights, flights launched from Qatar, but picking up passengers 
in Europe before flying to U.S. destinations.
    Yet, at the same time as the agreement was being negotiated 
Qatar Airways acquired a 49th percent state in Air Italy, a 
formerly struggling regional Italian carrier, rebranded it as 
an international carrier, with flights to five U.S. 
destinations from Milan. That runs directly counter to the 1-
year agreement.
    Are you aware of this, and if so, what efforts are under 
way to enforce the agreements that are in place?
    Secretary Pompeo. Senator, I am personally aware that I 
have personally engaged on this issue, and we are working to 
make sure that every party to those agreements complies with 
every element of those agreements.
    In fact, I will engage again tomorrow with several of the 
parties that are in this--the United States government sees 
what is going on, and we are working to put this agreement--we 
think it was a good agreement. We are trying to just make sure 
that it is enforced.
    Senator Menendez. I appreciate that. Thank you, Mr. 
Chairman.
    The Chairman. Thank you.
    And lest people think that there we are totally divided on 
things, those last two issues, as you know, were--this 
committee is, I think, uniformly in favor of the discrimination 
against our carriers that has taken place by the Middle East 
carriers.
    And secondly, the support of the Juan Guaido 
administration, the true president of Venezuela, is so 
important to all of us. And we sincerely appreciate the 
administration's efforts in that regard, and we will support it 
100 percent.
    With that, Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    Mr. Secretary, thank you for your service.
    Secretary Pompeo. Yes, sir.
    Senator Johnson. Last Monday I met with Brian Bulatao, the 
nominee for undersecretary of management. Now first of all, 
that is the second time I have met with him. Normally the way 
this process works, I meet with the nominee, we go through the 
confirmation process. The nominee gets confirmed, and we just 
start talking to those people in hearings like this.
    So the fact that such a qualified individual, West Point 
graduate, somebody's who has served in a lead management role 
in the private sector, most recently chief operating officer of 
the CIA, has been languishing as nominee for 9 months, I think 
is a disgrace, you know, particularly when you have Senator 
Menendez talking about the hollowing out of the State 
Department, which you have I think rightly disputed.
    Can you just speak to how crucial it is to get Mr. Bulatao 
confirmed as basically the chief operating officer, the 
undersecretary of management for the State Department, so you 
can carry out your vital mission?
    Secretary Pompeo. So full disclosure, I have known Brian 
for 35-plus years. Tells you how old I am. But more 
importantly, we have not had an undersecretary for management, 
essentially, the chief operating officer, at the State 
Department for 2 years now.
    The gentleman who is filling that role, Bill Todd, is a 
great officer, a great civil servant, but we need the confirmed 
leadership in that position to execute all of the security 
issues, all of the administrative issues. The enormous 
bureaucracy of 92,000 people to administer falls under the 
undersecretary for management. The absence of having someone 
confirmed to that position has made each of those tasks more 
difficult.
    Senator Johnson. Are you aware of any legitimate reason for 
holding this nomination up? Are they just pure partisan 
politics?
    Secretary Pompeo. I am not aware of anything that relates 
directly to Mr. Bulatao's qualifications.
    Senator Johnson. Okay. Well, again, I urge this committee, 
I urge the Senate to quickly confirm Mr. Bulatao.
    I also want to pick up on the whole situation with the 
Northern Triangle, our humanitarian crisis at the border. 2014, 
we had 120,000 unaccompanied children and people's family 
units. President Obama correctly called it a humanitarian 
crisis.
    The first 6 months of this year we are already over 
240,000, primarily people now coming in as family units. And I 
will dispute with Senator Menendez that there is no doubt that 
people are fleeing some violence. But there is also no doubt an 
awful lot of those individuals are coming here for economic 
opportunity, family reunification, which I am highly 
sympathetic with, but it is not a valid asylum claim.
    The truth is 85 percent of those asylum claims are denied. 
As you have pointed out, we spent hundreds of millions of 
dollars in development down there, but until we crush the drug 
cartels, I don't see the development dollars doing a whole lot 
of good. And it is certainly going to do nothing to solve this 
problem in the here and now of individuals coming here 
completely exploiting U.S. laws.
    The ball is in Congress's court. We have to act. We have to 
change these laws to first and foremost reduce, if not stop, 
that flow of illegal immigration, the majority of which really 
is economic migration and family reunification.
    In your former capacity, and your current capacity, can you 
just talk about, I have met with the Mexican ambassador twice, 
the new administration. I think they are genuinely interested 
in working with us to solve this problem. But they were talking 
about development dollars. And I understand that. That is a 
long-term solution. But we are whistling by the graveyard if we 
don't address and talk about an effective strategy for crushing 
the drug cartels.
    Can you just talk about how difficult that is, the 
challenge that presents to America?
    Secretary Pompeo. Senator Johnson, this has been a--it is a 
long-time challenge. We have had times where we have made more 
progress, and then it has gotten worse, or regressed. The 
complexity, the money, these are powerful organizations inside 
of Mexico, with huge incentives to continue to deliver these 
drugs, whether that is cocaine or opioids into our country. It 
is an incredibly lucrative undertaking. So every element of 
American power needs to be deployed to take them down.
    And then we need partners, partners like the Mexican 
government, partners like the country of Central America. We 
need China to do what President Xi committed he would do on 
fentanyl. It is going to take a combined effort, lots of 
streams, lots of work streams to pull it off. But the risk that 
it presents to America is enormous. It is an important foreign 
policy problem often masquerading as a law enforcement problem.
    We are deeply engaged. Foreign Minister Ebrard has been a 
good partner so far in his time in leadership in the Mexican 
government. I am convinced they want to help us. We need to 
help them do it.
    Senator Johnson. This is going to require a multinational 
effort. One thing we found out in hearing just this week, and 
last week as well, is the southern border is totally controlled 
on the southern side of the border by the drug and the human 
trafficking cartels. Nobody passes virtually without paying the 
fee.
    So this is a highly organized effort, exploiting our laws, 
and we are going to need through all diplomacy, and I think 
that is what this administration is trying to do, get the 
attention of Central American nations and Mexico, we need your 
help to solve this problem.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, very much, Senator Johnson. Next, 
we will have Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Mr. Secretary, thank you very much for your service, and 
thank you very much for being here.
    This is a hearing to review the budget for fiscal year 
2020, and budget speaks to priorities. So I want to start to 
give you a chance to respond to the visual concern that a 30 
percent cut in the State Department budget looks like we are 
cutting back diplomacy as a tool by 30 percent. But I want to 
get to your statement about promoting American values that you 
just mentioned.
    Democracy programs are reduced by almost 50 percent in this 
budget. In July, there was a conference in Copenhagen that 
pointed out that we have seen a decline in democratic states 
around the world. And we know that we are being attacked on 
democratic institutions by both Russia, and China, and other 
actors.
    So what are we doing to promote democracy with such a 
dramatic reduction in the tools that are available in the State 
Department if the fiscal year 2020 budget became real?
    Before you respond, I would also say one of the real 
opportunities to promote American values of democracy 
governance, human rights, and anti-corruption are on the 
bilateral, multi-lateral meetings that we have. And yet, there 
has been silence in regards to North Korea, Kim Jong-un's 
treatment of his own people, being the worst human rights 
record of any country in the world.
    And we still have not gotten a response to a full 
accounting of what happened in Saudi Arabia on the tragic death 
of Jamal Khashoggi.
    So can you just explain to me how you are promoting 
American values of democracy, good governance, human rights, 
anti-corruption, in light of the fact that the budget cuts 
this, and we have not seen the visibility during highly 
important moments with other countries, these issues being 
raised?
    Secretary Pompeo. Sir, I would just disagree with about 
everything you opened with in your----
    Senator Cardin. The budget, 30 percent cut?
    Secretary Pompeo. This administration has been incredibly 
active, but more importantly, incredibly effective at promoting 
democracy around the world. We are engaged. You mentioned a 
couple particular items. Happy to talk about those in great 
detail, if you would like, but our engagement, building up 
coalitions around the world, part of democracy promotion. You 
do not think about the work to defeat ISIS as an element of 
that.
    To create the political stability inside of Syria, so that 
we can get a political resolution there. The work that we are 
doing in Venezuela. The fact that we are fighting for the 
people in the Islamic Republic of Iran. And at forums all 
across the world, my team is in the field working to promote 
the very values that you just described.
    Senator Cardin. Well, the facts are the facts. The budget 
submissions are budget submissions.
    Let me go to the Northern Triangle for one moment in 
response to the last questions. Our involvement in the Northern 
Triangle is critically important for many reasons. These are 
countries that have significant problems with corruption. And 
the United States has participated with the international 
community to try to root out the corruption in the Northern 
Triangle.
    Are you committed to working with this committee? We are 
looking at additional legislation to give additional tools in 
regards to identifying corruption issues, so that in our 
bilateral and regional relationships, the issues of fighting 
corruption will be front and center in these debates.
    Do you agree with that approach?
    Secretary Pompeo. I do. Yes, Senator.
    Senator Cardin. I appreciate that. And we will have some 
legislation, as I talked to you earlier, that we would like to 
work with you on.
    I want to talk a little bit about North Korea, if I might. 
We have had two summits between the leader of North Korea and 
the United States. Have we reached an agreement of what the 
denuclearization of the Korean Peninsula would look like?
    Secretary Pompeo. I can't answer that question yes or no. 
We have had extensive conversations with the North Koreans 
about what the full final denuclearization, as verified by the 
international community, what ultimately would look like. It 
would look like the fully denuclearized North Korea. That is 
what it would look like.
    Senator Cardin. Has Kim Jong-un, the leader of North Korea, 
agreed on that assessment on the--what the denuclearization 
would be involved?
    Secretary Pompeo. Yes. He has made the commitment to me 
more than half-a-dozen times. He has made the commitment to the 
President of the United States, and it is in writing.
    Senator Cardin. Has he given you a declaration as to their 
current nuclear programs, and a way in which they would move 
from their current nuclear programs to total denuclearization?
    Secretary Pompeo. There is still a great deal of work to do 
to achieve the ultimate goal.
    Senator Cardin. And, of course, we have had hearings before 
this committee that indicate that that is really the first step 
on denuclearization, is understanding their program, and having 
a commitment to end it, and a roadmap that can lead to that 
commitment. That is usually the preliminaries.
    We now have had two summit meetings, and we don't yet have 
that in place.
    Secretary Pompeo. Senator, I wish we had gotten that from 
the Iranians.
    Senator Cardin. I do believe we have a----
    Secretary Pompeo. It was a total fraud, Senator, and 
everyone knew it. The declaration the Iranians made was 
completely fraught with errors, both intentional, and 
otherwise. We understand that you need a baseline to begin to 
denuclearize North Korea, and we are determined to get there.
    Senator Cardin. I appreciate your pivot to my question.
    Secretary Pompeo. Well, I answered your question. We have 
got work to do, Senator.
    Senator Cardin. I understand that. And I am trying to focus 
on North Korea. In Iran, there are boots on the--we have 
people, not us, the international community has inspectors that 
are looking at sites. Do we have international inspectors in 
North Korea?
    Secretary Pompeo. We do not.
    Senator Cardin. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Romney.
    Senator Romney. Thank you, Mr. Chairman.
    Mr. Secretary, it is an honor to see you.
    Secretary Pompeo. Thank you, sir.
    Senator Romney. I appreciate your service to our country. 
You are a man of extraordinary capacity, having worked in the 
private sector, having served in the CIA, as well as other 
parts of the public sector. And, of course, having gone to the 
best law school in the world. So I appreciate your capacity to 
consider the kind of challenges we have.
    It is no surprise to anyone that China has ambition to 
dominate the world, economically, militarily, geopolitically. 
And it would be a very, very different world, indeed, if they 
had the capacity and the ability to do that.
    I applaud the fact that the administration is taking action 
to push back against some of China's plans, specifically the 
imbalance of trade, the theft of intellectual property, and the 
forced transfer of technology, as companies are considering 
moving into the Chinese market.
    But I wonder whether we are really addressing and 
confronting in a holistic strategy the various initiatives that 
China is undertaking. And there are some that I don't know 
whether we have plans afoot to deal with them piece by piece, 
or whether we need something more expansive, but some kind of 
mind--is, of course, the fact that China has, if you will, an 
industrial policy, or a form of free enterprise, where they 
subsidize massively industries of the future, whether that is 
5G, or telecommunications systems, or artificial intelligence.
    So we welcome them into a world where we say we believe in 
free markets, and yet, they participate in an unfree way, and 
that presents a challenge.
    They also are reported to buy American and other Western 
companies, small companies that have good technology, steal 
that technology, and take it back to their more domestic 
purposes.
    They have a very extensive propaganda program in our 
country and throughout the West. The Confucius Institutes are 
clearly a part of that, and yet, we have high schools, 
elementary schools, and universities in our country that don't 
seem to understand that by accepting the Confucius Institute, 
that they are participating in Chinese propaganda in our own 
country.
    Of course, there is the extraordinary oppression of human 
beings that we are seeing with the Uyghur in their own country. 
And then there is their ambition in the South China Sea, which 
is obviously challenging in its own right.
    So my question is, do we have a robust strategy to counter 
the entire Chinese effort? And particularly on those items that 
I mentioned, are we considering those, or do we need to take a 
deeper dive into how to really confront what is, in my view, 
the great threat of this century, which is an authoritarian 
regime bent on dominating the world, which would be bad for 
free enterprise, for freedom, and for the prosperity of America 
and the world?
    Secretary Pompeo. Senator, it is an important question, 
maybe the most important question that I will get asked today.
    I think the world was slow to recognize the challenge that 
China has begun to present. I think we are now much further 
along the way than we were just 2 years ago. The first step is 
always to recognize the challenge you have in front of you, and 
then second, how to chart a course to confront each of those 
various challenges.
    You talked about a challenge from the Orwellian nature, of 
the absence of human rights, inside of China. It is not just 
Uyghurs. It is Cossacks. It's Christians. It's broader than 
that.
    If you have seen these stories of this app that is being 
used. It is the Little Red Book, Mao's Little Red Book brought 
to your iPhone, where they have people put in their phone 
numbers and their names, and they get points for answering 
questions about Xi's policies. It is really quite something.
    Their military is on the advance. You have seen in the 
technology space. The State Department has a role in each of 
those. Obviously, other agencies have a bigger part in some of 
them. But our effort has been brought, first, to let the world 
know of these challenges. So our team, across 180-plus 
embassies, is out talking to our partners, sharing with them 
the risks, identifying the information we have, so that they 
will begin to take this challenge seriously.
    With respect to predatorial lending and forced technology 
transfer, we are telling these countries about what will happen 
to them. It may feel good for a year, or 2 years, when you get 
that new project, but the legacy, the overhang will be 
enormously bad for the people of your country.
    And then there is a significant undertaking, more broad 
than the State Department inside the United States government, 
to make sure that these technology challenges, making sure that 
America remains in the front on AI, in front of the next 
wireless wave 5G. All the issues that will dominate commerce 
and the rule of law in the decades ahead, that the United 
States is positioned properly.
    We confronted an enormously difficult challenge. They take 
their big companies, and make them subservient to their 
government. We do not roll that way. We should not roll that 
way. But I believe ultimately we will prevail with rule law 
transparency as long as we are serious and focused on this set 
of issues.
    Senator Romney. Thank you. Thank you.
    The Chairman. Thank you, Senator Romney. I agree with 
almost everything you said, except I know there are at least 
three members who are graduates--or three people in this room 
who are graduates of the University of Idaho College of Law 
that would take exception regarding the law school.
    Senator Romney. Did not get into Harvard, did they?
    [Laughter]
    The Chairman. They did not apply. Thank you so much.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair. Thank you, Mr. 
Secretary.
    Secretary Pompeo. Yes, sir.
    Senator Kaine. Mr. Secretary, we had a hearing in the Armed 
Services Committee about 10 days ago with Secretary Perry, who 
is on an annual to talk about the DOE's programs that support 
the military, primarily nuclear reactors.
    And I asked him about news that had broken just within 
about a day of the hearing, about Part 810 authorizations that 
I think are in his bailiwick, where he would authorize transfer 
of nuclear knowhow. Not technology, but nuclear knowhow from 
American companies to foreign nations. He indicated during the 
hearing that he had signed seven such approvals, authorizations 
for transfers of technology to Saudi Arabia.
    My understanding is the Part 810 process requires that 
there be a State Department sign-off on that. Is that correct?
    Secretary Pompeo. I believe that is correct. We are aware 
of these Part 810 issues.
    Senator Kaine. He had kept these private in a way that was 
counter to earlier practice, where the authorizations, at least 
the fact of the authorizations had been made public. He 
described it as necessary to protect proprietary information. I 
asked him, ``Well, you could keep the proprietary information 
private. What about the fact of the authorizations?''
    Did the State Department have to sign off on the DOE 
keeping the fact of these authorizations private?
    Secretary Pompeo. Senator, I do not know the answer to 
that, but I will get you an answer on whether we signed off on 
the decision not to release that information, or more broadly, 
if were involved in that decision.
    Senator Kaine. That would be helpful. I will follow-up with 
that.
    And then finally, I also asked him about the date of the 
authorizations. The seven occurred from inauguration day 2017, 
but I asked if he knew anything about the dates. Do you know 
whether any of the authorizations occurred after October 2, 
2018?
    Secretary Pompeo. I do not. I do not know. I am sorry, 
Senator. Yeah.
    Senator Kaine. I will follow-up with that as well.
    Another question on Saudi Arabia. I am just referring to an 
article in the National Interest dated September 22, 2018, 
which references earlier reporting by Newsweek. The story that 
I'm looking at and that I would like to introduce for the 
record, if I might, Mr. Chair, is titled ``Saudi Arabia Already 
Has a Ballistic Missile Arsenal Courtesy of China, with a 
Little Help From the CIA.'' And it is a summary of Saudi 
purchases of ballistic missiles from China, beginning in the 
1980s.

    [The information referred to above is located at the end of 
the hearing.]

    There was a set of purchases in the '80s. And then there is 
also reporting about purchases that were done, I think, in the 
2007, 2008 timeframe that the CIA helped broker. The reporting 
of it by Newsweek was done in 2014. And then the assessment by 
the National Interest about the scope of the Saudi ballistic 
missile program, including purchase of missiles from China, 
this piece was written in September.
    There are a lot of issues with Saudi Arabia right now. We 
are grappling with Yemen. We are grappling with human rights 
concerns. We are grappling with these Part 810 authorizations. 
We are trying to get more information about that.
    What should this committee--or what concerns should this 
committee have about the development of ballistic missile 
programs in Saudi Arabia? The National Interest article 
suggests that the missiles are pointed at both Iran and Israel. 
That is in the National Interest piece that I have introduced.
    What concerns should we have about the development of a 
Saudi ballistic missile program, and particularly the acquiring 
of missile technology from nations like China?
    Secretary Pompeo. So two thoughts. We should absolutely be 
interested in that. We should know the fact that they are 
purchasing from China--I think there have been those who have 
urged the United States to take a different posture with 
respect to Saudi Arabia, not to sell them technology. I think 
you see the risks that are created. It would be better if the 
United States was involved in those transactions than if China 
was.
    I can't comment. I have seen that reporting publicly as 
well. I can't say much about it here. I am confident the 
intelligence community can give you a full briefing with 
respect to this. But missiles in the Middle East is an 
increasing threat.
    Frankly, missiles more broadly throughout the world 
continue to be an increasing risk. The technology has gotten 
cheaper. The information is now much more widespread, so 
capabilities are growing in lots of countries, some of which 
are friendly partner countries today, but may not be 5, 10, 20 
years from now. And some of which are adversaries even today.
    We think about nuclear proliferation. Threats of missile 
proliferation are very real as well, and something that this 
committee should absolutely be looking into.
    Senator Kaine. So nuclear proliferation in the Middle East, 
missile proliferation in the Middle East, these are things that 
this committee and other committees need to take very 
seriously.
    Secretary Pompeo. Yes, sir. Absolutely.
    Senator Kaine. I yield back the rest of my time. Thanks, 
Mr. Chair.
    The Chairman. Thank you, Senator Kaine. Senator Isakson.
    Senator Isakson. I want to commend the chairman and the 
ranking member on their statements about the Qatar situation 
with our airlines. And I would like to ask the Secretary, as I 
understand in the agreement, on Open Skies agreement, there is 
a provision where one of the parties, including us, would call 
for what is known as formal consultations if there are concerns 
over the good behavior of both parties on that.
    Would you get us into a situation where we could call for 
those consultations? Are we at the point where we need to have 
consultations with Kunar?
    Secretary Pompeo. Senator, I don't know if we are quite 
there yet. There are lots of consultations taking place. Not 
through the mechanism that you are describing. It may be that 
that is ultimately what will be required.
    You know the history of this challenge. We thought we had 
put together a truly good deal that was good for U.S. domestic 
businesses that honored the commitments that had been made 
previously. We thought we were in a very good place. We are 
looking very closely at this recent decision by Qatar to take 
on 49 percent of this airline.
    We understand the risk of the efforts to circumvent, and we 
are working to make sure that everyone is complying with the 
agreement that they entered into.
    Senator Isakson. Well, I appreciate that. It is 
interesting, because it is very important, and it is important 
to many, many Georgians. But the entire aviation industry, both 
manufacturing aviation, as well as providing flights in the 
United States. And I would appreciate you doing all you can----
    Secretary Pompeo. Yes, sir.
    Senator Isakson. --and what you are doing already.
    And I want to say thank you tremendously for meeting with 
some of the hostages who survived the Iran hostage crisis a 
number of years ago now. In fact, there are still a number of 
those people alive; although, some of them have passed, and 
some of them are in conditions that are not at all conducive to 
living a normal life, much less a happy life.
    As their time runs out, so does the opportunity for them to 
collect on the rewards that were made to them from the funds 
that were available. As a matter of fact, the first release 
they got, they got about 14 percent of what was owed to them in 
total. The last release that went from 14 percent to 4 percent, 
not because they reduced the amount of money from the fund that 
they took out, because 3,000 other people were added to the 
fund, and the special magistrate's choice to give that money 
out.
    And I am really worried about them ending up not getting 
what they should have gotten. These people went through 
probably as bad a torture, as bad a treatment as any American 
ever did. It was the formation of the Nightline TV show, with 
444 nights when all America saw what was happening to them. So 
I am really concerned about them, and I want to do everything 
we can to see to it that they get their money and they are 
spoken for.
    Have you talked with Attorney General Barr about their 
situation?
    Secretary Pompeo. I have not had a chance to do that yet. 
It is an important issue. Fifty-two hostages, 444 days. 
Frankly, held by some of the same people who are leading the 
Islamic Republic of Iran today, beaten by those very same human 
beings. I am aware of the situation with respect to them 
getting the money that they deserve, and I will have a 
conversation with Attorney General Barr. I have not had a 
chance to do that yet.
    Senator Isakson. I would really appreciate it if you would. 
I think about it every day. Colonel Scott, from Georgia, Stone 
Mountain, Georgia was one of those victims.
    He is a wonderful man. He is aging, as all of us are, and I 
would love to see the families get the money that was intended 
to go to them, to go to them.
    Lastly, I want to talk about New START for just a second. I 
supported the START treaty 4 or 5 years ago when we ratified 
and extended it. And I know it comes up in 2 years, I think, 
for renegotiation. I think there are preliminary talks are 
going on, am I not correct?
    Secretary Pompeo. That is correct. Yes, sir.
    Senator Isakson. Some of those nuclear treaties have been 
canceled in recent years, and there are some people who have 
misperceptions of different nuclear agreements, like IMF and 
other things like that. The thing I liked about the START 
Treaty, and the reason I spoke for it and worked with Secretary 
Kerry to get the votes to pass it was because it had a unique 
identifier system which we never had available to us before the 
Russians, so we could more accurately count their weapons. Not 
just calling them to be counted. We had a way of counting them.
    Second, we had the no-notice inspection provisions where we 
could have Russians would be in the United States, and would 
have access to our facilities, and we put Americans in Russia 
to have access to theirs. So having that kind of elevated 
accountability was good to me, was something that I thought was 
good for the country.
    What stage are we on New START? Are we going in the right 
direction, and do you think New START has served us well so 
far?
    Secretary Pompeo. So New START, different than the IMF 
Treaty, there is large compliance with the New START agreement 
on both sides. There are some arguments on the edge of each, 
but largely they have been compliant, both the Russians and the 
United States have been compliant. We are at the very beginning 
of conversations about renewing that. If we can get the deal 
right, if we can make sure that it fits 2021, and beyond, 
President Trump has made it very clear that if we can get a 
good solid arms control agreement, we ought to get one. And we 
are at the start of having those conversations.
    Senator Isakson. Thank you, Mr. Secretary. And thank you 
for the great work you are doing.
    Secretary Pompeo. Thank you, sir.
    The Chairman. Thank you, Senator. I agree with you, that 
New START is going to be very important to us, and we are 
living in a different world than when the original START Treaty 
was put together. And there is going to have to be 
accommodations for that for other powers in the world that are 
not a member of the treaty. So thank you.
    With that, Senator Merkley.
    Senator Merkley. Thank you.
    Mr. Secretary, you said that the renewal depends on fitting 
2021 and beyond. What are the two or three key things that you 
think need to be addressed to make the New START fit 2021 and 
beyond?
    Secretary Pompeo. Yeah. Good question, Senator. So 
technology has moved. The central idea is a strategic 
deterrence that underpin the New START deal we will need to 
make sure still fit. The various technologies that exist today, 
some may be more important to try it--try and it may be 
different. We have to make sure it fits, so true deterrence 
continues to extend.
    We have to make sure that the verification regime fits the 
technology today, the world, as it moved forward. And then 
finally, we need to make sure that we have got all of the 
parties that are relevant as a component of this as well.
    Those are all tough challenges. They are all difficult.
    Senator Merkley. By ``all of the parties,'' are you 
referring to other countries----
    Secretary Pompeo. Yes. Other countries besides the United 
States and Russia. And it may be that we cannot get there. It 
may be that just we end up working with the Russians on this, 
but if we are talking about a nuclear capacity, nuclear 
capability that presents risk to the United States, it is very 
different today in the world than it was when that----
    Senator Merkley. It sounds like you are referring to China.
    Secretary Pompeo. Yes, sir.
    Senator Merkley. Okay. Let me----
    Secretary Pompeo. With respect to missiles for other 
treaties, it is certainly China that has large numbers.
    Senator Merkley. Well, let me pivot to China then. The 
Uyghur Muslims are being enslaved in re-education camps, 
industrial production, been taken off the streets. Some 
villages basically have no men left yet.
    There is a Uyghur human rights policy act. I believe Marco 
Rubio is the lead on it, but it is bipartisan. Do you support 
Congress taking a strong stand, America taking a strong stand 
in regard to this persecution of the Uyghurs?
    Secretary Pompeo. I do.
    Senator Merkley. Thank you.
    So China has taken the proceeds from the imbalance in 
trade, and they have brought their infrastructure from bicycles 
to bullet trains in about 25 years. I was on the first bullet 
train out of Beijing. They now have 16,000--16,000 miles of 
levitated magnetic bullet trains running over 200 miles. We 
have zero miles.
    They are buying up foreign minerals around the world. They 
are doing prestige projects to expand their influence in 
country after country. They are engaged in debt diplomacy, so 
those projects can actually lead to huge leverage going 
forward, like the court they have taken control of in Sri 
Lanka.
    They are doing an inside deal in El Salvador, where they 
are attempting to buy a huge chunk of the southern coastline in 
El Salvador to extend their influence in Central America.
    They are on the move in a comprehensive belt and roads 
strategy, while we are sitting here, our infrastructure has 
been basically the same the last 25 years. I am very concerned 
that we are slipping behind. What are we going to do about it?
    Secretary Pompeo. Well, Senator, with respect to U.S. 
domestic infrastructure, it is a bit out of my lane as 
Secretary of State. In terms of pushing back against the 
Chinese, I laid out, I think it was in response to a question 
from Senator Romney on the various work streams that we are 
engaged in.
    I am happy to walk through them, whether it is the BUILD 
Act, the DFC, our diplomatic efforts with Assiyana at the very 
center of how we build out a coalition. And on the technology 
side, there is all of United States government effort to make 
sure that U.S. companies, and frankly, non-U.S. companies, non-
Chinese companies have an opportunity to continue to compete on 
a transparent basis, where we can ensure that we don't have 
Chinese values, Chinese systems controlling our information 
space 10, 15, 20 years from now.
    Senator Merkley. I think that a lot of members of the 
committee bi-partisanly have a lot of concerns that China has a 
conference whose strategy it is implementing. It is connected 
to international affairs because the proceeds that drive the 
Chinese policy come from their trade relationship with the 
United States.
    Let's turn to North Korea. I think of the challenge with 
their nuclear program is kind of like a baseball game. And a 
first base is a freeze on their missile tests and their warhead 
explosions, which is where we are right now.
    Second base is a full inventory of their nuclear assets. 
Third is an agreement on how to wipe those out, or eliminate 
them. And fourth is an extensive implemented verification 
regime.
    We are stuck on first base. How are we going to get off 
first base?
    Secretary Pompeo. We have the largest coalition, and the 
strongest sanctions, and sanctions enforcement in the history 
of North Korea. It is what has created this opportunity for 
diplomacy. We have not moved as far, but I think we always knew 
this would be a long discussion.
    We are not stuck on first base. I think that analogy is not 
accurate. There remains an awful lot of work to do. But we have 
moved to where as you have described. There are not missile 
tests today. There are not nuclear explosions going on in North 
Korea today. Our diplomatic team is engaged in painting the 
picture, trying to convince Kim Jong-un that there is a path 
forward that will make a brighter future for the North Korean 
people, and reduce the risk.
    We have Japan. We have South Korea. We engage with the 
Russians and the Chinese. It is a broad effort to lead a 
diplomatic undertaking to convince Kim Jong-un to deliver on 
what he promised President Trump he would do in Singapore in 
June of last year.
    Senator Merkley. Thank you. My time is up, but I will just 
summarize by saying the economic sanctions are weakening. The 
North Koreans are finding many more ways around them. They have 
proceeded to develop their missile program even while they have 
frozen their missile testing and their warheads. So we are not 
even completely safe on the first page. Thank you.
    The Chairman. Secretary Pompeo, did you want to respond to 
that last comment?
    Secretary Pompeo. Only that it is always important to 
remember initial conditions. When we came in January of 2017, 
there was nothing going on. We are in a far better place today 
than we were 2 years ago, both from a sanctions regime and the 
diplomatic. That is quite an accomplishment. They sometimes do 
not go together. Sanctions deter diplomacy. In this case, we 
have achieved both.
    The Chairman. Senator Paul.
    Senator Paul. Thank you for your testimony, Secretary 
Pompeo. Do you believe that the 2001 authorization to go to war 
with those who attacked us on 9/11 applies to Iran or Iran's 
Revolutionary Guard?
    Secretary Pompeo. I would prefer to just leave that to 
lawyers, Senator.
    Senator Paul. Well, I would think it would be a pretty 
important question, that you think you have the right to 
invade, or declare war, or engage in war with Iran. And it does 
not sound like something we are going to leave to the Supreme 
Court. It is going to be a decision by the administration.
    Secretary Pompeo. Right.
    Senator Paul. Does the administration believe--you have 
just recently classified, you know, the Iran--the entire 
Revolutionary Guard as terrorists. Do you think that that 
somehow includes them in the 2001, and is that any part of the 
decision-making process with including this designation?
    Secretary Pompeo. I will answer your second question. It 
was not part of the decision-making process. The designation 
was a simple recognition of reality. These are terrorists. They 
killed 600 Americans. Six-hundred Americans, dead. Families 
today, grieving. We recognize them as terrorists in the same 
way we do other terrorist groups around the world. When we see 
them, we try to call them out as best we can and as quickly as 
we can.
    Senator Paul. But you are unwilling to state unequivocally 
that the resolution in 2001 to have retribution and stop people 
who attacked us, that Iran had something to do with the attacks 
on 9/11? Or that the National Iraqi, you know, Revolutionary 
Guard had something to do with 9/11?
    Secretary Pompeo. You asked a factual question and a legal 
question there. The legal question I will leave to counsel. The 
factual question with respect to Iran's connections to Al Qaeda 
is very real. They have hosted Al Qaeda. They have permitted Al 
Qaeda to transit their country. There is no doubt there is a 
connection between the Islamic Republic of Iran and Al Qaeda, 
period, full stop.
    Senator Paul. And I think some would argue that the Iranian 
government is not real happy with Sunni extremists. They have 
Sunni extremists in their country, but it is not sort of like 
they are joining forces to fight the West. They actually would 
just as soon eradicate Sunni extremists, and have actually 
evicted quite a few, or imprisoned quite a few. So I do not 
think that that dog hunts very well.
    But I am troubled that the administration cannot 
unequivocally say that you have not been given power. I can 
tell you explicitly you have not been given power or authority 
by Congress to have war with Iran. And in any kind of semblance 
of a sane world you would have to come back and ask us before 
you go into Iran.
    So my hope is, I am not arguing whether Iran's 
Revolutionary Guard are terrorists. My argument is that you do 
not have the permission of Congress to go to war in Iran. If 
you want a war in Iran, you have to come to us. It is the way 
the Constitution was written, and it needs to be very clear and 
begging off, and saying, ``Well, the lawyers.'' No. No. This is 
our history. This is a very important question. It is a very 
explicit question. Only Congress can declare war. You do not 
have our permission to go to war in Iran. And that should be 
very explicit.
    Part of the reason we are having this debate is we have now 
been at war for 18 years in Afghanistan. I think even you have 
admitted there is no military solution to Afghanistan. It is a 
mess. It is nation building at its worst.
    The President, like myself, complains endlessly about the 
$50 billion we are wasting there every year. I also worry about 
the lives that we are wasting there. You are sending young men 
when there is no mission there.
    Can you give us any kind of summary, or hope, or update on 
the negotiations that are currently happening with the Taliban?
    Secretary Pompeo. I can give you a brief summary. And your 
point about the lives, we had three Americans killed just this 
week in Afghanistan, killed by the Taliban. At least they 
claimed it.
    President Trump has made clear he wants to end what he 
calls this endless war. And our team is working diligently to 
create the conditions to do that. Ambassador Khalilzad, I think 
he is in Doha today, or maybe in Kabul, working with the Afghan 
government, with other Afghans, non-Taliban, as well as with 
the Taliban, to create conditions so that we can deliver on 
what the President has said he wants done there, which is to 
reduce.
    You talked about American outlays, dollars, American 
taxpayer money. But also to reduce the risk for Americans. He 
has also told us to do that in a way that continues to reduce 
risk of an attack from that real estate. And we believe there 
is a path forward that we can achieve each of those two goals 
the President has laid out for us.
    Senator Paul. Thank you. I think we have the greatest 
military in the world. Nobody can measure us anywhere. We can 
do anything. But I will tell you what a Navy SEAL told me, been 
in 19 years, a couple years ago. He said, ``We can go anywhere. 
We can kill anyone. We can complete any mission you ask us, but 
the mistake is when you ask us to stay and plant the flag.''
    We are not so good at nation building. Our soldiers don't 
want to do it. It is a huge expense of money and lives. Let's 
learn how to declare victory, and I commend the President for 
trying to declare victory. And I hope you will support him in 
that.
    Secretary Pompeo. Thank you, sir.
    The Chairman. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman. Good 
seeing you again, second day in a row, Secretary Pompeo.
    Let me just associate myself quickly with the remarks that 
ranking member--regarding the importance of information flows 
between this committee and the State Department. I understand 
that there is lots of classified data that we will never see. 
That is what the Intelligence Committee is for. But there is 
some that rises to such level of importance that it affects 
decisions that we are making on this committee and in the 
Senate. And I just anchor my comments in those made by the----
    Secretary Pompeo. Yes, sir.
    Senator Murphy. --ranking member.
    Second, just a quick pushback on a piece of your opening 
statement. You did note that we are at record numbers of 
Foreign Service officers, and that suggests there is no 
hollowing out of the State Department happening.
    I would just remind the committee that has because we have 
rejected the requests from this administration to dramatically 
reduce the budget of the State Department. And had we enacted 
the requests of this administration, you would be on a glide 
path to record low numbers of personnel.
    And, again, I have never been of the mind that this is the 
budget that you would write, Mr. Secretary, but it is just a 
reminder that to the extent we still are holding the line, it 
is because we stayed together on this committee.
    Mr. Secretary, I wanted to come back to the question of 
Chinese technology, 5G and Huawei. I was in Dublin a couple 
months ago, and the embassy there noted that the Chinese 
Embassy was exploding with personnel. And that was not 
coincidental to the open tinder of the new high-speed network 
in Ireland, a country that is, frankly, very important to us, 
because we have a lot of American data there and a lot of 
American companies there.
    And it struck me that we are just vastly outmanned when it 
comes to this contest. We have, you know, generally in 
embassies one State Department officer who is handling 
technology, energy, and health care. And then we have military 
attaches, you know, that by and large are not technology 
experts in these places.
    And so you have talked in previous hearings about 
leveraging access to the U.S. national security apparatus. But 
what are the other ways in which we can get on the right side 
of this fight? I mean I worry that we are losing this fight 
badly to the Chinese right now, in part because they just have 
staffed up, and we have not.
    I also wonder whether there is an opportunity to leverage 
U.S. companies, particularly in a place like Ireland, who 
should be sensitive to American data that they hold being at 
some point maybe way down the line, an object of national 
security interests from the Chinese.
    So what are the additional tools that we could give you to 
try to contest this fight over the global buildout of 5G?
    Secretary Pompeo. Senator, important question. Let me take 
the second part of it first, or the second idea contained in 
there. We, the State Department, have to do a better job of 
making sure that American companies, frankly, non-Chinese 
companies. We will always fight for ours. But the technology 
systems being put in place in these countries have American 
values embedded within them, right? Privacy protections, 
concepts of property rights, all the central things that we 
would want from a technology system.
    So we have two functions. One is to make sure not only do 
those governments of countries, like Ireland, or someplace 
else, as well as the private entities contemplating major 
technology, understand the risks associated with the Chinese 
technology. And we have to help our companies show up to 
compete.
    On 5G today, we are behind. It is difficult to show up with 
a suite, and we will always have a direct cost disadvantage 
there. The Chinese will subsidize in ways that we just don't. 
So your point about leveraging the private sector I think is 
very real.
    In terms of what other tools do we need, I admit to the 
case that we have just a handful of officers in most embassies 
around the world working on economic issues. But we have a big 
department. Undersecretary for Economic Affairs, I hope we will 
get him confirmed before too long, so we will do better at 
this. He comes out of that very space, the nominee does. I 
think we are close.
    We have to show up with our full team. When there is a 
competition, when there is a tinder, we have to show up there, 
and make sure that the opportunity for an alternative choice is 
available.
    Senator Murphy. It is the fight of the next 10 to 50 years.
    Secretary Pompeo. Yes, sir.
    Senator Murphy. And we are fools if we don't staff up the 
State Department with a technological expertise that can win 
this battle.
    One final question. I am looking at a Washington Post 
article from January of this year entitled, ``Can Saudi Arabia 
Produce Ballistic Missiles? Satellite Imagery Raises 
Suspicions.'' Notwithstanding our bipartisan concern about 
Iran's ballistic missile program, is it still the policy of the 
United States to oppose the proliferation of ballistic missile 
technology in the Middle East?
    Secretary Pompeo. Yes. We are concerned about ballistic 
missiles in the Middle East and elsewhere, Senator.
    Senator Murphy. Thank you. Thank you very much, Mr. 
Chairman.
    The Chairman. Senator Young.
    Senator Young. Welcome, Mr. Secretary. It is good to have 
you here.
    Secretary Pompeo. Hello, sir.
    Senator Young. I want you to know that I, along with many 
other members of this committee, would like to see the Senate 
confirm more of the President's nominees to the Department of 
State as quickly as possible. And I just want to take a moment 
to flag two particular nominees, happen to be from my home 
state of Indiana. They are exceptional, and they need to move 
forward very quickly.
    Steven Akard is the nominee to be the director of the 
Office of Foreign Missions. It has been more than 12 months ago 
since the President first nominated Steven Akard. That needs to 
move forward.
    Many people don't fully understand the position he was 
nominated to serve in, but effectively, he is the top human 
resources officer for the Foreign Service. So this is a 
critical member of your team. And I commend you for being able 
to operate short-staffed.
    The second nominee I wanted to mention is Kip Tom. I have 
known Kip for a number of years. Highly qualified. He knows 
more about agriculture than I will ever aspire to know. But 
look, he has been nominated to serve as ambassador and U.S. 
representative to the U.N. agencies for food and agriculture. 
It has been over 8 months. And for farmers in Indiana and other 
states, I know it is critically important to have a voice at 
the United Nations speaking on behalf of our farmers and 
ranchers.
    So the good news is that both of these nominees were 
reported favorably from this committee. It is the full Senate's 
last week, but both of these nominees remain among more than 60 
outstanding nominations referred to this committee that are 
pending in the Senate. I just urge my colleagues and Senate 
leadership to confirm both of these highly qualified nominees 
as soon as possible.
    I would like to pivot to Venezuela, Mr. Secretary, and just 
begin by indicating, I know this crisis is deeply complex, and 
you are following it incredibly closely. It is growing more 
challenging by the day, it seems. I describe the situation, 
from my perspective, in a letter that I sent to you, and the 
president, and the vice president last week, but I wanted to 
bring it up to you directly.
    There are Americans who we know are suffering at the hands 
of the Maduro regime today. Todd Leininger, from Indiana, has 
been in prison since April of 2014, when he was convicted by a 
Venezuelan court in the midst of anti-government protests. Many 
questions remain over the due process that was afforded to 
Todd. But my concern now is that in November of 2018 a San 
Christabel court ordered Todd's release; yet, the Venezuelan 
authorities continue to detain Todd without explanation.
    I am in regular contact with Todd's mother. She has 
concerns for Todd's, not just welfare, but his very life. There 
are drinking water shortages, severe unsanitary conditions, and 
other medical concerns that I probably should not air publicly, 
but let's just say we are concerned about Todd's welfare.
    So Mr. Secretary, while the diplomatic process, I know, is 
being worked on. I want to know what specifically you are doing 
to bring Americans like Todd home.
    And then secondarily, I want to see what members of this 
committee can do to assist you and Special Envoy Abrahms, 
moving forward, so that we can help Todd and others be brought 
home safely and as quickly as possible.
    Secretary Pompeo. Thanks for the question. The folks on 
this committee, we spend a lot of time working to get Americans 
that are wrongfully detained all around the world. It is a 
focus, and a big group of them come visit, it would have been a 
week ago today. It was really remarkable to have these 
families, to hear from them. Some of them still have folks 
detained. Some have lost their loved ones.
    It re-impressed I think upon me and my whole team how 
central this is to what we are doing. To the extent that you 
all talk about this issue, raise this issue, voice the 
concerns, people around the world hear that. So I think that is 
important in its own right. And as we think about our policies 
with respect to, in this case, Venezuela, we should keep in 
mind that there are many concerns, one of which is the fact 
that they are wrongfully detaining U.S. persons.
    Second, with respect to particular cases, it is more 
difficult today. We have now withdrawn our diplomatic staff 
from Curacaos. So our ability to engage in consulate activities 
of all kinds is absolutely--I regret that we had to make that 
decision. I think it was the right one. But know that we are 
still having conversations with a broad range of Venezuelans, 
working diligently to try and make the case to get every 
American returned home.
    Senator Young. Mr. Secretary, lastly, do you feel like you 
have sufficient resources to deal with the crisis in Venezuela? 
I know the administration has requested $500 million to assist 
with the democratic transition. Would that also deal with the 
situation that I just spoke to, Todd's situation and other 
American detainees? And if not, tell us what else you need, 
please.
    Secretary Pompeo. Senator, I think we have the resources we 
need. I don't think we are lacking for either people or 
resources to execute that mission.
    Senator Young. Thank you.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Mr. Secretary, North Korea remains a significant threat.
    Secretary Pompeo. Yes, sir.
    Senator Markey. And we know that after the two summits 
there still has been no tangible progress towards 
denuclearization. We know that Kim Jong-un is expanding his 
nuclear weapons program, and that he continues to exploit 
overseas slave labor. He is conducting cyber-heists to enrich 
himself. And we simply can't get results from Kim Jong-un by 
relieving pressure upon him and his regime.
    You recently said that the Trump administration put more 
sanctions in place against North Korea than at any time in 
world's history. However, the U.N. panel on experts warned on 
March 5th of this year that there are severe deficiencies in 
the global pressure campaign. It states that there have been 
quote, ``A massive increase in illegal ship-to-ship transfers 
of petroleum products and coal,'' and quote, ``they render the 
latest United Nations' sanctions ineffective.''
    So the experts are saying that the gaps are growing. Yet, 
the Trump administration has added only 34 names to our 
sanctions list, down from 207 the year before. That is an 83 
percent drop, Mr. Secretary. And we know that U.N. sanctions--
resolutions are only as strong as member state enforcement. And 
the world follows America's lead.
    When President Trump, after the Treasury Department 
sanctioned two China-based companies, asked on Twitter for 
those listings to be undone, we confused the very allies and 
partners we need to help solve this problem peacefully, Mr. 
Secretary.
    So, from my perspective, Kim merrily rolls along with his 
development of his nuclear weapons program. Our sanctions 
regime is being criticized by the panel of experts, and 
ultimately, from my perspective, I see Kim Jong-un just trying 
to play out the string to the end of your administration, with 
absolutely no results that can be pointed to in reducing the 
nuclear threat from that country. Please respond.
    Secretary Pompeo. Yes. So I agree with some of what you 
said, but not much.
    You describe an 83 percent decrease in our increase in 
sanctions. And you may think the enforcement regime is 
ineffective, but you should move to the outskirts of Pyongyang, 
because those folks think it is very effective. I concede there 
is more that can be done. I will concede that China has 
imperfectly enforced those sanctions. I concede that there are 
still ship-to-ship transfers taking place. That is absolutely 
true.
    You should know that in every one of those dimensions the 
things that are happening inside the country----
    Senator Markey. Do you agree that there has been a massive 
increase in ship-to-ship illegal----
    Secretary Pompeo. I don't know about massive, but let me 
assure you there is less coal, less fuel, less resource there 
today than there was when President Obama was in office.
    Senator Markey. Well, it is not effective if programs are 
actually expanding. The ship-to-ship oil transfers are actually 
increasing. It is not effective.
    Secretary Pompeo. Senator, there is an enormous 
undertaking, not just United States undertaking, to take down 
the ship-to-ship transfers. You should know the rogue regimes 
are difficult. They will move. It is a big ocean out there. But 
you should know that your United States government is working 
diligently to enforce those sanctions, and working to get our 
partners in the region, South Koreans, the Japanese, the 
Australians, the Vietnamese, the Chinese, if I didn't mention 
that already, to help us to enforce those sanctions. I concede, 
we need to continue to keep the pressure on, Senator.
    Senator Markey. Again, when the expert panel says that it 
is ineffective, and the President undermines the very effort 
that we are trying to put in place. To say to the Chinese, say 
to the Russians you have to get tough. We are going to hold you 
accountable. And the President is tweeting out that we are not 
going to have those additional sanctions put in place. It just 
sends the wrong signal to North Korea, but to China, and to 
Russia, and to anyone else that we are trying to get to 
cooperate in a regime to tighten the pressure on Kim Jong-un.
    So I just have a big problem with understanding what the 
strategy is ultimately to get Kim to make the concessions on 
his nuclear weapons program if, in fact, the sanctions regime 
is being ultimately relaxed. It is ineffective, and the signal 
is being sent to the Chinese: we will not sanction you if you 
violate those sanctions. How can that be effective, Mr. 
Secretary?
    Secretary Pompeo. Senator, the North Korean economy will 
shrink this year.
    Senator Markey. Well, will it result in actual concessions 
to be made?
    Secretary Pompeo. This is a long process. We took over in a 
place where there were very limited sanctions. No effort to 
enforce, no diplomatic engagement to create a global coalition. 
We weren't even----
    Senator Markey. Yeah. That's two-and-a-half years ago. Two-
and-a-half years ago.
    Secretary Pompeo. --leading from behind. We refused to 
engage against this threat, and we have taken this seriously. 
We are going to continue to take it seriously. We have got him 
to stop missile testing. We have him to stop nuclear testing. 
We are going to keep at it.
    Senator Markey. Right. Well, look, the economy may be going 
down in North Korea. It is just not going down enough. The 
sanctions are not tough enough. We are not pressuring them 
enough. We are not sending the right signals to China and to 
Russia to cut it off even further.
    So yeah, it might be going down, but it is not going down 
in a level that is affecting Kim in terms of making concessions 
to us, or the President, at the summit, that reflects that we, 
in fact, have been successful.
    So the only answer to me is that we have to make it 
stronger. We just have to be realistic about this, or else in 
another year-and-a-half, the Trump administration will have 
been completed, and it will have been no reduction in the 
nuclear program of North Korea. So that is just my bottom line, 
looking at it, Mr. Secretary. Make them tougher. The sanctions 
have to be tougher.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator. Senator 
Portman.
    Senator Portman. Thank you.
    First of all, Secretary Pompeo, thank you for your service, 
being our diplomat around the world. And you mentioned the 
returning Americans home efforts that you have made, and 
meeting with families last week. And one of those families was 
the parents of Otto Warmbier. And I thank you for staying in 
touch with them. They appreciated it.
    I will be in Korea next week, talking among others to our 
ambassador, Admiral Harris, and South Korean officials about 
what is going on in North Korea, and continuing to hold up 
their human rights abuses, and expose for everyone what 
happened to Otto, and what is happening to others, including 
North Koreans. So thank you for staying on top of that issue. 
And, of course, tighter sanctions are something we should all 
want as we begin to see some progress as a result of the 
sanctions we have put in place.
    I want to talk about the Global Engagement Center quickly, 
and about Ukraine. On the Global Engagement Center, you recall 
Senator Murphy and I a few years ago started working on 
encouraging State not to just establish the center, but to 
properly fund it. I want to thank you, because this year you 
have made a request in your budget of $76.5 million, which is a 
38 percent increase from last year's request.
    I know you have a tight budget, and I know you are being 
asked to find cuts elsewhere. And this is encouraging to me, 
because I think it is undeniable that the propaganda and 
disinformation that is going on around the world, from 
different state actors, and I think we are going to learn a lot 
more, I think, about Russia even in the next few weeks here, in 
terms of what they are doing.
    In this session we cannot talk about some of the details, 
but the reality is it is such a huge threat. And I think your 
former role at the Central Intelligence Agency probably informs 
you better than other Secretaries of State.
    So I assume that having recognized that, this budget 
increase is reflecting your concern.
    Having said that, one thing we have not gotten done yet is 
this DOD transfer. We have authorized a $60 million transfer 
from DOD for this fiscal year, fiscal year 2019. It is 
authorized by law.
    Can you confirm that you all have requested that full 60 
million from DOD?
    Secretary Pompeo. Senator, we have requested that.
    Senator Portman. Thank you. Do you see this process going a 
little more smoothly this year? Last fiscal year I recall we 
got it at the 11th hour, maybe at the 11th-and-a-half hour, if 
that is possible. Any sense of where we are this year?
    Secretary Pompeo. Senator, we are working on it. It did 
take us a long time last year. I hope that it goes more quickly 
this year. We have now done it once, so I think there is a 
mechanism in place. I am hopeful it will move along more 
quickly.
    Interagency cooperation is one reason we put this in place, 
where you have to go to the Defense Department. They have to 
work with you. Do you feel as though the interagency process is 
working well? We want DOD's help in this effort.
    Secretary Pompeo. You mean with respect to the GEC?
    Senator Portman. With respect to GEC.
    Secretary Pompeo. I felt like we have made strides. Look, 
it took us a little while. We did not have someone there that 
we had chosen to lead that organization. We now have that 
person in place, and I think it has improved dramatically 
really over what is now the last 2 months.
    Senator Portman. With regard to Ukraine quickly, and thank 
you for the GEC help, we have finally, as you know, provided 
help to the Ukrainians to be able to defend themselves. And 
that was the change in this administration. We appreciate that 
lethal security assistance, so they can defend their own 
sovereign territory.
    In the National Defense Authorization bill 2 years ago, we 
authorized naval assistance for the first time. And 
particularly what's gone on since then on the Kerch Strait 
means that we need to do all we can to help deal with the naval 
side of this, that the Russians are being increasingly 
aggressive.
    Do you know what the status is of transferring these two 
excess island-class cutters to the Ukrainian navy? And are you 
encouraging of that?
    Secretary Pompeo. I am encouraging it. I do not know the 
status, Senator.
    Senator Portman. Okay. I would appreciate you guys getting 
back to me on that. It seems to me that that is one of our 
pressing capability gaps we have. Can you speak to other 
concerns you might have about what is going on in Ukraine vis-
a-vis Russia?
    Secretary Pompeo. So we are now years into this, and it is 
frozen, at best. Still challenges. Still fighting along the 
line of control nearly every day. You know, I think everyone is 
staring at the Ukrainian election now. A handful more days 
before the Ukrainians will select their next leader. And we 
will engage closely with whoever that leader is to ensure that 
we continue this and provide support for Ukrainian democracy.
    Senator Portman. Well, I appreciate that. And I do think we 
are at a critical time right now. We will see what happens in 
the election. I plan to go after the election and meet with the 
new government. But it is a frozen--I have been on the contact 
line. On the other hand, I think we have begun to change the 
dynamic by the support you have provided. We have to continue 
to do it.
    I have one other question. Maybe you can send something in 
response as a written response. But it has to do with the 
sanctions regime. I am hearing from some folks at State that 
they are having a tough time sanctioning certain Russian 
individuals because the Treasury Department indicates that our 
legislation here is too restrictive. In other words, the 
legislation, as it relates to specific things, like Ukraine, 
and what happened in Crimea, might not relate exactly to a 
particular individual who is otherwise involved in malign 
efforts that affect national security in the United States.
    Would it be helpful for you to have a broader sanctions 
regime that this body could send you in order to ensure that 
the individuals that you would like to sanction are able to be 
sanctioned?
    Secretary Pompeo. I think it is definitely worth taking a 
look at. Some of this on the Treasury side, not on--so the 
relief would need to be for--the broader scope would need to be 
for Treasury sanctions. But I would love to see that. And we 
should evaluate and make sure we do it in a thoughtful way, so 
that we actually pick up what we are looking for.
    Senator Portman. Okay. If you could provide us some current 
information on that. That would be helpful to----
    Secretary Pompeo. Happy to do that. Yes, sir.
    Senator Portman. --what you are looking for.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    I have talked to Senator Portman, just for your 
information--for your information, I have talked with Senator 
Crapo about this exact issue on the sanctions. He raises some 
important points, and I think we need to get together to talk 
about that with the Banking Committee, so it is a joint effort.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman. And thank you, Mr. 
Secretary Pompeo for being here, and thank you for your 
service.
    You mentioned in terms of other questions that it was still 
the policy of the United States to prevent missile 
proliferation in the Middle East. And I wanted to ask, based on 
what was said earlier in articles that had been put in the 
record about the Chinese selling missiles to Saudi Arabia.
    Have you spoken up and told Saudi Arabia we don't 
appreciate their aggressive acquisition of Chinese missiles?
    Secretary Pompeo. There are, I should not say every. There 
are very few conversations that I have with the leadership in 
the Kingdom of Saudi Arabia that I don't make clear that we 
prefer they purchase American systems, not Chinese systems 
across a broader way, whether it is telecommunications, or 
otherwise.
    Senator Udall. Yeah. And are we seeing what many of our 
foreign policy folks that have been in the region a long time, 
very worried about an arms race, is this indication of the 
Chinese penetration into Saudi Arabian missile sales? Is this 
an indication we are headed down the road to an arms race? And 
what are we doing about it, if it is our policy to prevent this 
kind of thing?
    Secretary Pompeo. I think it is a little more complicated 
than that. Look, the Middle East has had arms and arms issues 
for an awfully long time. This particular set of issues 
surrounding missiles, you see issues in the region with--we 
have not talked about Turkey and their S-400 purchase. So 
missile defense, anti-aircraft systems. This is certainly 
something that we all need to keep an eye on.
    I will tell you that most of the folks who are working to 
build out missile systems are doing so directly because the 
Islamic Republic of Iran was permitted to continue with missile 
program under the JCPOA. It did not slow them down. And so 
others are doing what they need to do to create a deterrence 
tool for themselves. It is just a fact.
    Senator Udall. Well, I very much hope that the 
administration will push back in terms of what is happening in 
missiles across the Middle East.
    Secretary Pompeo, our southern border increasingly looks 
like a war zone, like Germany with the Berlin Wall, or the DMZ 
on the Korean Peninsula. We have border patrol agents harassing 
and separating families, and caging children, members of the 
military supporting a made-up emergency. When the reality is 
that the U.S. border communities are just as safe and often 
safer than anywhere else in the United States.
    This is reminiscent of how we enemies treat one another. Is 
Mexico the enemy of the United States?
    Secretary Pompeo. There were 20,000 apprehensions last week 
of illegal entrants into our country. This is a real crisis. 
These are numbers that I think that when we took office, the 
numbers were--I will have the numbers wrong, but 20,000 last 
week. We are working closely with the Mexican government to 
create the conditions there which will stop this.
    I work very closely with Foreign Minister Ebrard. He has 
been a great partner, but they have not yet effectively been 
able to stop what is mostly transit through their country, from 
these folks coming into our country. And President Trump's 
determined to create sovereignty and protect our border.
    Senator Udall. Do you believe that the U.S. should close 
the southern border in response to the asylum seekers you just 
spoke about?
    Secretary Pompeo. You know, with the laws as we have them 
today, I worked on an agreement where we would allow those with 
proper asylum claims to wait for their asylum here. The numbers 
are overwhelming to wait in Mexico. We had a court 
fundamentally misread the law, and deny us the ability to do 
that. We need your help. We need Congress to change these 
rules.
    We know that some of the folks who come across have 
legitimate asylum claims, but the system is broken. And we need 
Congress to change the laws so that we can protect our southern 
borders. It is not just people who are coming here. It is 
drugs. It is weapons. I mean the stories, you know them, about 
human trafficking that is taking place, or what is happening to 
women as they move across Mexico is truly tragic. If we can 
secure our southern border, we will improve the lives of those 
people, I am convinced of it.
    Senator Udall. Do you believe our country is ``full,'' as 
the President has said, and that we should not accept any more 
asylum seekers or immigrants to the United States?
    Secretary Pompeo. This is the most generous nation in the 
history of civilization, is the case. As the President said----
    Senator Udall. Answer my question.
    Secretary Pompeo. The President has said repeatedly, he has 
talked about lawful immigration. The work that we are doing is 
along our southern border to prevent people from coming in here 
unlawfully, illegally. That is the mission set that he has set 
out. It is what I am working with the Northern Triangle 
countries and Mexico as a foreign policy matter to take care 
of.
    Senator Udall. Well, the reality is, and I think a lot of 
policy experts on the Northern Triangle are saying it is a very 
bad policy to cut off foreign aid to the three countries down 
there, where these folks are originating from. And that is one 
of our levers to keep them there, and to keep the countries 
more stable.
    But I am out of time, Mr. Chairman, so----
    The Chairman. You are.
    Senator Udall. --let me apologize.
    [Laughter.]
    Senator Udall. And thank you for the courtesies. And I will 
yield back.
    The Chairman. Thank you, Senator. Senator Gardner.
    Senator Gardner. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary for your service to our country, and your leadership. 
A couple of questions for you, and I will try to do this 
quickly.
    In your testimony you stated the United States' future 
security, prosperity, and leadership depends on maintaining a 
free, open, and secure Indo-Pacific. To advance the Indo-
Pacific strategy, the budget request nearly doubles U.S. 
foreign assistance resources targeting this crucial area 
compared to the fiscal year 2019 request.
    Do you commit to fully implement the Asia Reassurance 
Initiative Act, or ARIA, that we have discussed many times?
    Secretary Pompeo. We think ARIA makes great sense, and we 
will do our level best to fully comply, including getting you 
reports that are late.
    Senator Gardner. Thank you. And I was going to talk about 
the two reports. We have the report on Association of Southeast 
Asian Nations, human rights strategy, and the report on 
approach and strategies as it relates to denuclearization of 
the North Korean governance.
    Secretary Pompeo. We are close, Senator.
    Senator Gardner. Thank you, Mr. Secretary, for that.
    Could you quickly identify a few new programs you will 
build out to prioritize under ARIA, build out or prioritize 
under ARIA?
    Secretary Pompeo. Oh, goodness. May I let our team come 
brief----
    Senator Gardner. Yes.
    Secretary Pompeo. We have racked and stacked how we think 
about this. I would love to have the team come in and get your 
feedback as well on the way to--if we have the right metrics 
for our prioritization.
    Senator Gardner. You bet. Thanks, Mr. Secretary.
    And today, April 10th, marks the 40th anniversary of the 
enactment of the Taiwan Relations Act. Forty years ago, April 
10th, the Taiwan Relations Act was signed into law, which 
together the President--with President Reagan's 1982 Six 
Assurances, the Taiwan Travel Act, and ARIA have become the 
cornerstones of our relationship with Taiwan.
    Little over a week ago for the first time in 20 years there 
appears to have been an intentional crossing of the median line 
of the Taiwan Straits by Chinese jets. Do you plan to fully 
implement the TRA, the Taiwan Travel Act, and the Asia 
Reassurance Initiative Act to further strengthen our 
partnership with Taiwan?
    Secretary Pompeo. Yes.
    Senator Gardner. Will you commit to send high-level 
delegations to Taiwan in the near future to demonstrate U.S. 
commitment to Taiwan and the Taiwanese people?
    Secretary Pompeo. We have a lot of work going on at the 
AIT, at our center there. Yeah. We're going to keep at it. We 
see the increase in China's activity, both political 
information warfare. And then as you described, actually on the 
real estate. We see how China has continued to be more 
aggressive with Taiwan. We talk with the Chinese. Every 
conversation I have with the Chinese begins with this 
discussion. I think they understand America's policy is 
constant and enduring.
    Senator Gardner. And I believe both Japan and Taiwan 
scrambled jets to push back the Chinese incursion.
    Secretary Pompeo. I believe that is correct as well.
    Senator Gardner. On China, a quick aside, there is a new 
extradition agreement that Hong Kong has agreed to with China, 
or is in discussions with on China. The European Union today 
has warned journalists of this new extradition that they could 
face, extradition to China, and perhaps face jail time in China 
over this new extradition law.
    Has the State Department made any decisions or discussions 
relating to Hong Kong's new extradition discussions with China?
    Secretary Pompeo. I'm aware of this. We are reviewing it. I 
don't believe we made any decisions yet.
    Senator Gardner. Would a possible warning to U.S. 
journalists or civil society activists, would a possible 
warning come from the State Department as a result of that 
extradition law?
    Secretary Pompeo. I need to look at it. I know the team is 
reviewing what took place there, and I need to see what impact 
it has on American citizens traveling in the region, including 
the occupations you just described.
    Senator Gardner. Thank you.
    Your testimony, you stated that our diplomatic efforts 
towards the final fully verified denuclearization of North 
Korea are the most successful that have ever been undertaken. 
We remain committed to that goal. It especially provides for 
our diplomatic outreach to continue, and continue 
implementation and enforcement of sanctions until we achieve 
our objective.
    Do you commit to the full enforcement of existing sanctions 
against the North Korean regime under U.S. law, including all 
of those mandated by the North Korea Sanctions Policy 
Enhancement Act, and ARIA?
    Secretary Pompeo. Yeah. Yes, Senator.
    Senator Gardner. Do you agree that no sanctions against 
North Korea should be lifted until North Korea demonstrates a 
commitment to complete verifiable irreversible 
denuclearization?
    Secretary Pompeo. I want to leave a little space there. 
From time to time there are particular provisions that if we 
were making substantial progress that one might think that was 
the right thing to do to achieve, sometimes it is visas. So I 
want to leave a little room.
    But yes, your point is well taken. The enforcement regime, 
the core U.S. Security Council resolutions need to remain in 
place until the verification of denuclearization has been 
completed.
    Senator Gardner. And would you support further sanctions 
legislation by this Congress, the LEED Act that Senator Markey 
and I have introduced, or others?
    Secretary Pompeo. Conceptually, yes. I am not familiar with 
that legislation.
    Senator Gardner. When it comes to China, yesterday we had a 
hearing, Subcommittee on East Asia, where we heard from 
witnesses who were discussing the situation that Uyghurs face 
in Jinjiang, in China. Also discussed China's approach to 
Tibet, as well as hearing from a witness testifying about the 
genocide in Burma.
    Could you talk a little bit about how we are approaching 
these human rights violations, and what we will do specifically 
to address the Uyghur situation, and what we are further doing 
in Burma?
    Secretary Pompeo. I don't want to get out in front of 
decisions where we are working on with respect to other 
policies we may take, but we have been incredibly candid about 
what is taking place inside of China, not only to the Uyghurs, 
but to the Cossacks, and Christians. This is historic. The 
numbers are staggering. It is certainly into the hundreds of 
thousands of people.
    It began, this information management, this Orwellian state 
began in Tibet, has now been expanded. The same gentleman who 
ran the program previously now is running this program in 
Jinjiang. This is a very serious matter. Very serious human 
rights violation. The State Department, and, frankly, other 
elements of the United States government are working diligently 
to make clear that this is not acceptable behavior.
    Senator Gardner. Yesterday, his holiness, the Dalai Lama, 
was taken to a hospital for a health concern. I think 
everything is all right. Would the United States ever consider 
legitimizing a leader following the Dalai Lama that was 
anointed by China?
    Secretary Pompeo. Senator, it doesn't seem likely.
    Senator Gardner. All right. I hope the answer is no.
    Secretary Pompeo. Yeah. It's a complicated question. I am 
happy to talk to you about it. We understand the history. We 
understand what China is trying to do. And you should know 
there hasn't been an administration that has taken on China in 
the way that this one has determined to take on, on every 
dimension, military, diplomatic, the trade agreement, the 
economics, the intellectual property, theft. It is robust, 
human rights included.
    Senator Gardner. Thanks.
    Secretary Pompeo. We are serious about this, making sure 
that China behaves in a way that reflects American values.
    Senator Gardner: Thank you.
    The Chairman. Senator Rubio.
    Senator Rubio. Thank you for being here.
    The President recently expressed dissatisfaction with the 
amount of cocaine that is being produced in Columbia. And I 
thought it was an important to point, I don't know if he is 
aware of this, that the migratory situation coming from 
Venezuela into Columbia is an extraordinary drain on that 
nation's resources.
    We have ELN and other drug groups operating openly, and 
with impunity on the Venezuelan side of the border, with the 
support of all of the Venezuelan government officials. The 
migrants, by the way, are very vulnerable people, some of whom 
are now being actively recruited, in efforts to get them to 
join some of these gangs on the border.
    The drug flights that come out of Venezuela, carrying the 
cocaine, headed north, by the way, many of those planes land 
right in the Northern Triangle countries, where they are passed 
on.
    The drug trafficking organizations that are fueled by the 
drug proceeds, and, of course, are a key part of destabilizing 
Central America, leading to our migratory crisis.
    On top of that, in Venezuela, you have an active and 
growing Russian military presence, as we have seen in Open 
Source reporting. Yesterday, the Open Source reports about the 
resumption of direct flights from Iran by the airline that our 
nation has sanctioned for support to the IRGC.
    And adding to all of this fun and games is the fact that we 
know that they have purchased a series of MANPADS, Russian-made 
systems, which in a place where you have gangs acting with 
impunity in the street, links to drug trafficking 
organizations, linked to guerilla groups on the border. There 
is always the concern that these MANPADS could be stolen or 
transferred for profit. They are involved in every sort of 
illegal traffic imaginable.
    So I guess it leads to the question, could not the argument 
be made, or is it our position that the Maduro Regime, based on 
all of this that I have just outlined, represents a direct 
threat to the national interests and the national security of 
the United States?
    Secretary Pompeo. Senator, I don't think there is any doubt 
that that is the case, that the Maduro Regime presents a threat 
to the United States of America. You mentioned Iran. The 
Hezbollah has been in South America. This risk is very real.
    The drugs are something that has been around for a long 
time. That is not a new problem. And now the Russian footprint. 
Couple that with their connection to the Cubans and the Cuban 
inner circle that is around Maduro, and it is clearly the case 
that the former leadership of Venezuela, Maduro Regime, is a 
true threat to the United States of America.
    Senator Rubio. And I guess the broader point is that, of 
course, we care about human rights and democracy in our region, 
especially in our hemisphere, and we are going to be supportive 
of it, but beyond that there is a national security interest 
for the United States and what is happening there.
    Secretary Pompeo. Senator, we agree.
    Senator Rubio. And one more point on these gangs. They call 
them the Colectivos. You are aware of them. As we have seen, 
the normal argument out there is the military is sticking with 
Maduro. And there is truth to that. But really, what he is 
using now to control the country and repress our 50,000 members 
of over 500 gangs, literally street gangs that he has armed, 
and actually openly calls upon to take to the streets, and 
repress people.
    It would be my view, and I think the White House and State 
Department would share it, that these military officials, high-
ranking military officials, who in the past in Venezuela, have 
openly discussed how these groups are unconstitutional, and 
operating outside the law.
    It would be incumbent upon them to step forward and 
confront these groups at a minimum. They may not do a good coup 
d'etat, they may not take out Maduro, but they must confront 
these armed groups in Venezuela, who are basically running the 
streets.
    Secretary Pompeo. Senator, we agree. And to the extent we 
have had the capacity to talk to them directly, we have shared 
that they need to do that. It is a bit embarrassing to be a 
Venezuelan senior leader. You have got the Cubans protecting 
Maduro, and you have the Colectivos keeping down people inside 
of the country.
    We hope they will make decisions that are very, very 
different from that. We have also spoken about this publicly. 
It is a real threat. These little roving gangs are doing 
enormous harm inside of the country. There is not only their 
water shortages and food shortages, but there are now--the 
Venezuelan people are being observed by these Colectivos, and 
their behavior is not consistent with what Maduro would wish. 
They are under the thumb of these roving gangs.
    Senator Rubio. Yeah. Just one side note on that. These 
gangs, they will be repressing people in the street, and 
attacking them, and spot somebody walking down the street, and 
snatch a purse, and then go back to repressing. They are 
criminals.
    One last question. I support the designation of the IRGC. I 
think that was the right decision. Has the administration made 
it clear through every channel that if, in fact, now, as a 
result of this, U.S. troops in Iraq are targeted, not just 
designated terrorist groups, but targeted, whether it is by 
Shia militias, the IRGC, or a combination thereof? No matter 
who targets us in Iraq from that, the Shia militias or the 
Iranians that we will hold Iran directly responsible for any 
harm that comes to our personnel in the region, even if they do 
it through a third-party surrogate?
    Secretary Pompeo. Senator, we have made clear that Iran 
cannot escape responsibility for any harm that comes to United 
States' interests anywhere in the world by doing it through a 
proxy force. They understand President Trump's policy.
    Senator Rubio. Thank you.
    The Chairman. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman. Mr. Secretary, 
welcome. Thank you for your service.
    I want to talk a little bit about Iran.
    Secretary Pompeo. Yes, sir.
    Senator Cruz. And let me start out by thanking you and the 
administration for designating Iran's Islamic Revolutionary 
Guard Corps as a foreign terrorist organization. As you know, 
that is a step I have long advocated. I have introduced 
legislation to move it forward.
    And I wanted to ask you to explain to this committee and 
the American people why designating the IGRC as a terrorist 
organization is, number one, justified on the merits, and 
number two, what the consequences of that designation are, 
specifically for financial institutions, or corporations doing 
business with IRGC-affiliated entities.
    Secretary Pompeo. Senator, that is the very name. People 
say the IRGC, and sometimes they get the ``I'' and the ``R'' 
wrong. This is the Islamic Revolutionary Guard Corps. I think 
that is important. They named themselves appropriately.
    This terrorist organization has killed over 600 Americans. 
The number is probably far higher than that. They continue to 
engage in terror around the world, include assassination 
campaigns in Europe and the West. This was kind of an easy 
decision, reflecting reality. So I am happy that we were able 
to announce that decision yesterday.
    Second, with respect to its impact. The IRGC has another 
component, which is what I will call the kleptocracy component. 
It runs a significant piece of the Iranian economy. The numbers 
vary, but I have seen numbers as high as 20 or 25 percent of 
the Iranian economy has resources that transfer to the IRGC 
itself.
    If you are the general counsel of an Asian bank or a 
European bank, your world changed when that designation came 
out yesterday. If you are thinking about doing business or 
providing material support in any way to any company that might 
be connected to the IRGC, this sanction will cause you not to 
do that. From our goal, what that will do is it will deny them 
the resources to continue their terror campaign around the 
world.
    Senator Cruz. Thank you for that answer.
    You and I worked together, as there was an interagency 
debate within the administration about whether the President 
should pull out of the Iranian nuclear deal. I think the 
President made unquestionably the right decision.
    As you know, there were significant voices within the State 
Department that resisted that step, and that I believe continue 
to resist that step. And I want to talk to you about two 
different aspects of implementing that decision to pull out of 
the Iran deal. Namely, the nuclear waivers and the oil waivers.
    On the nuclear waivers, as you know, we have waivers that 
allow Iran to continue with supposedly non-military nuclear 
research. If you look to the extraordinary results that the 
Israeli raids seized from Iran, that debunked what we were told 
by the Obama administration and the International Atomic Energy 
Agency, and made clear that entire parts of Iran's civilian 
nuclear program were built in order to create nuclear weapons, 
and that it was little more than a sham.
    I want to ask your view on should we continue to grant 
nuclear waivers. As I understand, they are up for renewal next 
month. Should we continue to grant nuclear waivers, given the 
rather significant evidence that doing so could further Iran 
acquiring nuclear weapons?
    Secretary Pompeo. Senator, I think this administration, I 
think it is hard to challenge the fact that we have been tough 
with respect to sanctions on Iran, with respect to particular 
waiver decisions, both these and the crude oil ones. I don't 
have any announcements to make today. We need to make sure that 
they wind through the process appropriately.
    Your point about different opinions inside the State 
Department, we have 90,000 employees. We probably have that 
many opinions. Make no mistake about it, we will stare closely 
at this.
    On the nonproliferation waivers, I would love to talk to 
you in a classified setting about it. It is complicated. But 
suffice it to say, President Trump, I can assure the American 
people, I can assure the world, President Trump will continue 
to ratchet up the pressure on Islamic Republic of Iran, such 
that their behavior will change.
    Senator Cruz. Well, there will be a critical decision point 
next month also concerning the oil waivers. And it has been 
publicly reported that there is currently an interagency 
dispute between the State Department and the Energy Department 
about whether to grant those waivers again.
    Right now, Iran is producing roughly 1.2 million barrels of 
oil a day. That is generating billions of dollars that is 
funding the Ayatollah, and I believe endangering our security.
    What are your views on whether allowing Iran to continue to 
produce 1.2 million barrels of oil a day, and sell it on the 
world market, is that in our national interest?
    Secretary Pompeo. I think the State Department may--I think 
we have been clear about our objective in getting Iran to zero 
just as quickly as we possibly can. And we will continue to do 
that.
    Senator Cruz. Well, let me urge you and urge the department 
unequivocally not to grant the nuclear waivers and not to grant 
the oil wavers. I think maximum pressure should mean maximum 
pressure. You have been a strong voice for that, and let me 
encourage you to continue that strong position defending our 
national security.
    Secretary Pompeo. Thank you, Senator.
    The Chairman. Senator Barrasso.
    Senator Barrasso. Thank you very much. And I just wanted to 
add--thank you very much for being here, Mr. Secretary.
    Secretary Pompeo. Yes, sir.
    Senator Barrasso. I just wanted to add my voice to that of 
Senator Cruz's. Twenty-one of us sent a letter to President 
Trump last month on Iran oil sanctions. As you were just 
saying, 80 percent of Iran's revenues come from oil exports. 
The more we can do to shut that down as quickly as possible, I 
think the more important it is, especially with the new waivers 
perhaps happening as early as next month. So thank you for that 
attention to that issue.
    I wanted to switch to Turkey and the S-400, and the issues 
that are going on there. Now you and I had a chance to talk 
about this a couple of weeks ago. I am very concerned about 
Turkey's plan to obtain the S-400, the surface-to-air missile 
defense systems from Russia. They want to do that in July.
    I would recommend to you an editorial in the New York Times 
today, ``A U.S. Fighter Jet or a Russian Missile System, Not 
Both,'' by Senator Risch, Senator Menendez, the ranking members 
of this committee, as well as by Senators Inhofe and Reed, who 
are the ranking member and chair of the Armed Services 
Committee.
    I think Turkey's purchase of the S-400 reduces the 
interoperability of that system with our allies. It poses a 
serious threat to the security of our F-35 fighter jets, and 
the entire NATO system. A number of us were visiting a number 
of NATO countries over the last couple of weeks. Great concern 
over that. I know the Secretary-General, who celebrated the 
70th anniversary of NATO with us in the joint session of 
Congress, has similar concerns.
    On April 2nd of this year, the Department of Defense 
announced it would halt all F-35 equipment transfers to Turkey, 
unless it abandons plans to acquire the S-400.
    So I would just like for you to give us an overview of the 
risks to the U.S. and NATO security as a result of Turkey 
trying to integrate the S-400 system and our F-35 fighters in 
the air defense.
    Secretary Pompeo. So I will leave the details to the 
experts, but as I have been briefed by the Department of 
Defense team, it is not possible to both fly the F-35 in space 
where the S-400 is significantly operable. That is not a very 
technical description, but the two cannot coexist. We have made 
that clear through foreign ministry channels. We have it clear 
to General Carr through the Department of Defense channels.
    This very challenge, this technical challenge it presents, 
we now have provided an opportunity for the Turks to buy an 
American system that will provide them with the air defense 
capability that they want for their country. That offer is on 
the table. The details are being worked through, and we have 
made clear to the Turks as plainly as we can, you know, they 
built a significant component of the F-35 as well. Not only are 
they purchasers and customers, but they are----
    Senator Barrasso. Producers.
    Secretary Pompeo. --part of the supply chain for the F-35. 
We have it clear that none of that can exist if the S-400 is 
purchased by them.
    Senator Barrasso. Are there consequences that you have in 
mind that Turkey should face if they do go ahead with that 
purchase?
    Secretary Pompeo. Well, I mean I think as a statutory 
matter, the lawyers will have to sort through the details, but 
the S-400 is a significant weapons system, and we have shared 
with them, we have asked them to go take a look at CATSA, what 
that might well mean for them.
    It is just, I think Acting Secretary Shanahan said it best 
yesterday. We can't continue to have the F-35 operable in space 
where the S-400 is also sitting.
    Senator Barrasso. One of the other topics you and I had a 
chance to discuss was Nord Stream II. I mean it came up when we 
were at the Munich Defense Conference. It continues to come up 
for discussion. To me it is Putin's pipeline. It is a trap, a 
Russian trap that the Germans are seemingly willing to enter 
into.
    And your thoughts on, are there things that Germany has 
done over the last year to even--to ensure that Nord Stream II 
would even not proceed without guarantees that Russian oil will 
be able to continue to be exported through Ukraine. Because 
questions were raised earlier about Ukraine and the stability 
of that country. And I think Senator Portman is heading there 
right after the election. Some of us were there right before 
the first round of the elections.
    Secretary Pompeo. So President Trump has made clear, Nord 
Stream II underwrites the Russians when we are in the NATO 
group. Most of the countries of NATO see that same risk, and so 
share America's concern there.
    The Germans appear intent on continuing to build that 
pipeline. And we are working with them to see if there is a 
path forward that we can, at the very least, ensure that there 
is energy that transits through Ukraine.
    There may be an outcome there. We have done just about all 
we can to discourage the Europeans, primarily the Germans, from 
building Nord Stream II, and done that without success today.
    Senator Barrasso. And final question in terms of incredible 
U.S. military success against ISIS. Are there things that you 
can share with us, now that the Caliphate has been defeated, 
that the administration is shifting in terms of its strategy to 
deal with insurgents, and to rid the region of any kind of 
additional violent extremism that could do damage, with the 
intention of doing damage to the United States?
    Secretary Pompeo. So both in Syria and Iraq we have State 
Department, often with the military teams, on the ground 
working to see if there are ways that we can get the global 
community to underwrite stabilization and reconstruction 
efforts in Iraq, so that there is less likelihood that we will 
get the next variant of Sunni terror in Anbar and then the west 
of Iraq.
    The Iraqi government is in full support of this. The Iraqi 
security forces, our military works closely with the buildout 
security institutions, so that the next variant of Sunni 
extremism, Sunni terrorism in the region doesn't march on 
Baghdad or Erbil again.
    Senator Barrasso. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Menendez.
    Senator Menendez. Mr. Secretary, this administration has 
still failed to provide the legally required determination on 
the role of the crown prince and the murder of Jamal Khashoggi. 
And despite superfluous briefings and additional determinations 
from the Treasury Department this week, you are still not in 
compliance with the law. Nor has the administration provided a 
justification for its lack of respect for the law.
    So my question is, have you discussed with the President or 
the White House whether to make a determination about the crown 
prince's responsibility for Mr. Khashoggi's death?
    Secretary Pompeo. Senator, I am not going to talk about 
conversations I had with the President. I am confident that we 
are in compliance with the law. We simply disagree about the--
--
    Senator Menendez. Let me read the law to you. Let me read 
the law to you. And the author is sitting next to me.
    ``Not later than 120 days after receiving a request that 
meets the requirements of paragraph two,'' which is when the 
chair and the ranking member of the relevant committee, this 
committee, previous chairman and I made such a request, ``the 
president shall,'' shall, shall, not may, not could, he shall, 
``determine if that person has engaged in such an activity,'' 
which is an activity in violation of the global Magnitsky Human 
Rights Act, ``and submit a classified or unclassified report to 
the chairperson and ranking member of the committee that 
submitted the request with respect to that determination, and 
includes a statement of whether or not the president intends to 
impose sanctions with respect to the person.'' Shall.
    I mean I know you have graduated from a great law school. 
Shall is shall. I did not graduate from Harvard, but I 
graduated from Rutgers' law school. Shall is shall. It means 
you must. And yet you refuse to get--even if your determination 
is that he hasn't, but you refuse to give us a determination.
    And the message that that sends globally--for example, we 
have President el-Sisi here, if he believes that you can do 
anything with impunity just because you have some strategic 
interest with the United States, or any other actor in the 
world, then you have a dangerous precedent.
    How is it that the CIA, according to public records, can 
conclude that the Saudi crown prince ordered the killing of Mr. 
Khashoggi, and yet the administration has taken no action 
regarding a Magnitsky determination? Not sanctions on other 
people. A Magnitsky determination as required by the law, and 
requested by the chairman and the ranking member of this 
committee.
    Secretary Pompeo. Senator, I would never refer to even a 
public report of something that the CIA had determined. I just 
would not do it. I don't think it's in America's best interest 
for elected officials to be seconding what some reporter thinks 
they have gotten from classified information.
    Second, with respect to the global Magnitsky----
    Senator Menendez. Well, I think you should tell Senator 
Graham that, too.
    Secretary Pompeo. Yeah. I would tell anyone, Senator.
    Senator Menendez. Bottom line is there are public reports 
that----
    Secretary Pompeo. I would tell anyone that.
    Senator Menendez. --speak to this, and there are public--
there are a whole host of public reports that speak to things 
that unfortunately the government doesn't tell us, even as 
members of the Senate, as we found out yesterday.
    Secretary Pompeo. Senator, you know the--I don't want to 
get into a debate. There are jurisdictional issues between the 
Intelligence Committee and this committee that you are deeply 
aware of.
    Senator Menendez. Can you give me the legal--has the office 
of the legal counsel, legal advisor, provided you with an 
opinion that says you don't have to do this?
    Secretary Pompeo. I am confident that we are doing 
everything that we are required to do----
    Senator Menendez. That is not what I asked you. Did the 
office of the legal advisor provide you an opinion that says 
you don't have to do this?
    Secretary Pompeo. Senator, we are compliance with the law.
    Senator Menendez. You did not answer my question.
    Secretary Pompeo. Yeah. I have given you the answer I am 
prepared to provide this morning.
    Senator Menendez. Well, let me give you an answer to 
something else that since my colleague, Senator Johnson, 
invoked my name in disdain. I was not going to talk about this, 
but since he opened the door, let me speak to it.
    Mr. Bulatao and other nominees. I hope that Senator Johnson 
is concerned about political firings and retribution at the 
State Department as he is about some of these nominees. After 
removing the prior undersecretary for management, Pat Kennedy, 
a career foreign service officer, who knew the department well, 
the Trump administration failed to nominate a replacement for 
142 days.
    Then the President nominated a candidate with zero 
experience managing a larger organization, whose nomination 
languished for a year, because republicans and democrats in 
Congress did not believe he was fit to move forward through the 
process before the administration acknowledged that, and then 
took him out of the job nomination.
    Five-hundred-and-nine days after Pat Kennedy was fired, the 
White House finally submitted a second nominee to the 
committee. Now this nominee is ready to go forward if the 
department gives us the critical information that we have been 
asking, that has already been provided to an inspector general 
and a special counsel on information that is critical for this 
committee's oversight of the department. But it has failed to 
do so a year later.
    Now I know many of my colleagues, including you, Mr. 
Secretary, when you were a House member, I could read you the 
quotes, spoke eloquently of the responsibility of oversight. 
Yet, you deny you are stonewalling this committee from getting 
that information.
    And finally, talk about characterizing nominees as 
excellent or outstanding candidates, we have nominees with 
temporary restraining orders, who failed to disclose lawsuits 
to this committee, who have Me Too issues, who even lack some 
basic knowledge about their posts.
    Amazingly enough, we have some nominees who have either 
written or retweeted vile things about current and former 
senators on this committee, and their families, which speaks to 
their judgment as someone who is going to represent the United 
States and the world.
    Do you think it is appropriate for our nominee to retweet a 
post stating George Soros, the leader of their movement, worked 
for Hitler, helping kill his own people, the Jews? Or do you 
think it is appropriate for that same nominee to retweet a post 
alleging that Heidi Cruz, the wife of Senator Cruz, is an 
architect of the North American Union, whose goal is to destroy 
the sovereignty of the United States, and to retweet personal 
attacks accusing Senator Cruz of being a whole host of other 
things I won't get into?
    Or do you think it is appropriate for that same nominee to 
retweet a picture of Senator Romney with the words ``dumb ass'' 
on it, which goes on to say that, ``Senator Romney, Satan has a 
hold on you. Surely, you'll go to hell.''
    Is this the type of nominee--and I could go through a whole 
host of others. So we are going to stop talking about nominees. 
We are working very hard to try to move forward.
    I left to speak about General Abizaid on the floor, and I 
look forward to voting for him. Working with the chairman. We 
put 24 nominees out before--but some of these nominees are 
incredible. I think even you recognized it when we had a 
conversation. Yet, they got re-nominated.
    So we have some real vetting issues. So I hope we can get 
to a better place, because I want you to be staffed. But by the 
same token, I am just not going to rubberstamp nominees who 
have some of these problems. And that is why we are having the 
issue. And if I can get the information that this committee 
deserves on oversight, Senator Johnson could have Mr. Bulatao.
    The Chairman. Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Mr. Secretary, let's talk a bit about Russia and Latin 
America. Last year, in the Senate Armed Services Committee, I 
passed bipartisan legislation adopted as part of the NDAA that 
required the Defense Intelligence Agency to report on Russia 
security cooperation with Venezuela, Cuba, and Nicaragua.
    The report that the administration submitted is extensive 
and it is worrying. It shows that Russia is building a security 
infrastructure in our backyard with Cuba, with Venezuela, and 
with Nicaragua.
    Cuba supports Russia naval operations in exchange for 
credit and military equipment. In 2018 alone Russia and Cuba 
signed a $50 million loan agreement for the purchase of Russian 
military hardware and replacement parts.
    In Nicaragua, President Ortega is committed to 
strengthening security and defense agreements with Russia. And 
over the past years, hundreds of Russian troops participated in 
training with the Nicaraguan army.
    The strongest security partnership, however, that Russia 
has within Latin America is that of Venezuela. Russia is the 
regime's largest arm supplier, with upwards of $11 billion in 
arms sales over the past two decades. Just last year Russia 
deployed two 160 Blackjack nuclear-capable bombers to the 
Venezuelan military, along with 10 attack helicopters the 
previous year.
    Mr. Secretary, what is your assessment of Russia's 
strategic objective in its major investments in Latin America?
    Secretary Pompeo. Senator, I think that your factual 
recitations are almost spot-on, correct, in terms of the 
analysis that I have seen as well. So this threat is real.
    Look, they are here in Latin America because they want both 
proximity. So some of what they do in Cuba, some of what they 
do in Venezuela gives them access to American Southeast, and 
allows them to operate their ships, their vessels, the 
aircraft, and the two bombers that you described. So it gives 
them logistical hubs.
    It also gives them space from which to conduct cyber-
operations. That is, they have access to networks that they 
can't access from other places in the world.
    So there is a very real reason for their physical presence 
in these places. That is why it is so important that the 
Venezuelan people are successful in overthrowing Maduro, 
getting their democracy back, and a government that will 
understand it is in their best interest to have the rule of 
law, and not operate with Cuban and Russian thugs inside of 
their country.
    Senator Cruz. So Maduro's regime in Venezuela is being in 
very significant ways propped up by both Russia and Cuba. And, 
indeed, Cuban thugs play an integral part of keeping Maduro in 
power, even though his regime is illegitimate.
    In my view, the pivotal piece for whether we have a 
legitimately elected government in Venezuela, is going to be 
whether the roughly 3,000 generals in the Venezuelan military 
choose to remain with an illegitimate dictator that is Maduro, 
or instead stand with the legitimate and constitutional leader, 
Juan Guaido.
    From the U.S. perspective, I think we should see a 
combination of sticks and carrots for those military leaders. 
In other words, each of those generals should know if they 
stand with Maduro against the Venezuelan people. They face 
sanctions directly. Their families face sanctions directly. 
That would be a decision to be on the wrong side of history 
that will haunt them for decades, for their entire lifetime.
    On the other hand, if they make the decision to stand with 
the people of Venezuela, and with constitutional government, 
that will be a decision that will benefit them.
    What are your views on both the carrots and sticks that we 
can be using, we should be using, and what more can we do?
    Secretary Pompeo. Senator, I agree with you. And we have 
done each of those. You should know that Special Representative 
Abrams and the Charge Jimmy Story both have lots of traffic 
from the Venezuelan generals looking to see what the bid offer 
spread is. So there are many conversations taking place.
    It is quite interesting from our side to see. We don't 
think they are telling their buddies that they are having 
conversations with Americans about the fact that they are 
trying to figure out if they can get a passport and a free home 
someplace.
    So we are confident that this combination of making clear 
to them--look, it depends on exactly where they are sitting in 
the command, the actions they are taking. But there is a set of 
leaders there that have been part of the Maduro regime, but if 
they come up to the light, if they come to the right side of 
Venezuelan history, we are happy not to take any action against 
them. We are happy to support them continuing to exist inside 
of Venezuela successfully. But those who don't, those who 
don't, we will hold them accountable when the day of reckoning 
comes, and when Maduro leaves, and the Venezuelans get the 
democracy they deserve.
    Senator Cruz. Good. Final question.
    Shifting to the other part of the world, China, if you look 
at Huawei, and it is troubling to see our allies and partners, 
including governments within the Five Eyes intelligence 
community, consider partnering with Huawei for 5G 
infrastructure. That raises serious national security concerns 
for us and our allies.
    How are your efforts going to make that case to our allies, 
and what response are you getting?
    Secretary Pompeo. So we are making real progress. I would 
hope we would get better responses more quickly, but we have 
continued to make clear the risks, two risks. They have their 
own risks, risk to their systems, and risk to the privacy of 
their own people.
    But the second risk is, and certainly, if you are a Five 
Eyes partner, but even if you are outside of Five Eye, inside 
of Europe, we still share a great deal of intelligence with 
you, or co-located, or work alongside you. We have made it very 
clear to them, you jeopardize that.
    We may have to not be able to be there with a DOD system. 
We may have to not be there with a State Department system, 
because we need to protect our information. So we have it clear 
moving down that path presents at least two very significant 
risks, and we have urged them to make a decision that stays 
away from this technology. There are other alternatives that 
will deliver them better security and better relationships.
    Senator Cruz. Thank you.
    The Chairman. Thank you, Senator Cruz. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    Mr. Secretary, this morning I had in my office a special 
immigrant visa recipient from Afghanistan. He had been a 
translator. He was tortured. He was missing a number of fingers 
on both hands. Almost killed by the Taliban. And he raised a 
question with me that I couldn't answer.
    He said, ``Why do we believe we can negotiate with the 
Taliban today since we have not been able to do that in past 
years? And why is the government not at the table for these 
negotiations?'' During the time that the negotiations have been 
ongoing, seven Americans have been killed by the Taliban.
    So can you answer his question for me, and tell me how we 
are responding to the Taliban's violence against Americans that 
has happened during the negotiations? Are they paying any 
price? Have we asked them for any accountability for what has 
happened?
    Secretary Pompeo. Yes, ma'am, I think I can answer his 
question. His statement that we are not talking to the Afghans 
is not true. We have extensive daily conversation----
    Senator Shaheen. I am sorry. I mischaracterized that. I 
should have said that the Afghans are not at the table for 
those negotiations.
    Secretary Pompeo. To the extent there are negotiations 
taking place, they are as part of the table as anybody else. We 
are talking with the government of National Unity, speaking 
with the Taliban. We are working to get the two of them in the 
room together. We think we are closer than we have been at any 
time in the last decade in achieving that.
    This will ultimately be a resolution that the Afghan people 
will have to achieve.
    With respect to why we are talking with the Taliban is they 
control a significant amount of resources. And to get the 
reconciliation we need, to take down the violence level, the 
Taliban is going to have a say in that.
    Senator Shaheen. I am sorry to interrupt. Again, I did not 
mean to indicate why are we talking to the Taliban. Why do we 
believe the Taliban will be honest with us any more today than 
they have been over the last years?
    Secretary Pompeo. Oh, yes, ma'am. That is a fair question. 
Trust, but verify. It will be about actions on the ground. We 
understand there is not only a deep level of distrust with the 
Taliban. There is a deep level of distrust with many of the 
actors in the Afghan area. It is a nation that has a sad 
history with respect to truth telling and corruption.
    So the Americans, we have our eyes wide open. This will 
need to be an agreement. If we can receive one that gets 
reconciliation, that takes down the violence levels, but it 
will be the actions ultimately. The negotiations, we will get a 
framework, but it will be the actions we see on the ground that 
will ultimately come to deliver the confidence that we can 
begin to do what President Trump has directed us to do, is to 
take down the enormous resource commitment and risk to American 
soldiers that we face every day.
    Senator Shaheen. And what are we doing to ensure that 
Afghan women are at the table during these negotiations? As you 
know, we passed the Women's----
    Secretary Pompeo. Yeah.
    Senator Shaheen. --Peace and Security Act. The President 
signed it into law. That says women should be at the table in 
conflict-ending negotiations.
    Secretary Pompeo. I think Ambassador Khalilzad said this 
pretty well the other day, when he was asked a similar 
question. We have made some real progress with respect to how 
women are treated in parts of Afghanistan today.
    Senator Shaheen. Without a doubt.
    Secretary Pompeo. It has been uneven, to be sure. We want 
to do everything we can to make sure that as Afghanistan moves 
forward we don't retrograde, we don't go backwards on that. 
That is why they should be part of the discussion. I think 
Ambassador Khalilzad said that pretty clearly.
    Senator Shaheen. Well, I had a chance to ask the ambassador 
that myself several weeks ago. And I was not reassured by his 
response that we have made a firm commitment to ensure that 
they are part of any negotiations. So I hope you will commit to 
today, that that is part of what our effort is in Afghanistan 
as we are looking at ending this war.
    Secretary Pompeo. Well, remember, the Afghans will 
ultimately decide, right? I mean we----
    Senator Shaheen. And no, I appreciate that. But we also 
have, as we are doing in the negotiations, we are putting 
pressure on the Afghan government. What I am asking is that we 
put pressure on the Afghan government and the Taliban to ensure 
that women are part of the negotiations.
    Secretary Pompeo. Senator, there are lots of issues that we 
are working our way through.
    Senator Shaheen. I understand that, but this is half of the 
population of the country.
    Secretary Pompeo. Yes, ma'am. And I hope they will make 
their voices heard. I hope they will turn to their leadership, 
that they will demand of the folks in their--if they are in 
Kandahar, if they are in----
    Senator Shaheen. Right. They are trying to do that.
    Secretary Pompeo. --Kunduz, I hope the women of Afghanistan 
will demand that of their leaders. We have always done our part 
there. American's can never be criticized for not doing enough 
for the Afghan people. I take great umbrage to suggest we are 
doing----
    Senator Shaheen. I was not criticizing----
    Secretary Pompeo. --anything different.
    Senator Shaheen. --based on that.
    Secretary Pompeo. So I am urging the Afghan people to 
take----
    Senator Shaheen. And I have done that, too.
    Secretary Pompeo. To take a role.
    Senator Shaheen. And their response to me has been, ``We 
hope that you will also put that kind of pressure on the 
government.''
    Secretary Pompeo. Yes, ma'am.
    Senator Shaheen. And that is what I am asking. It doesn't 
sound to me like you are willing to commit to that, though.
    Secretary Pompeo. Ma'am, we are working on every front to 
make sure that we continue to move forward on every element. We 
want every woman's voice to be heard. I hope they will all do 
that.
    Senator Shaheen. And I hope you will--and our government 
will put pressure on the Taliban and the Afghan government in 
the same way. So we can agree to leave it at that.
    I would like to just add one more comment that is a 
separate matter. I have a constituent who was medically 
evacuated from China. And through him, our office has been 
engaged in effort to better understand what happened to some of 
the Chinese officials who have been medically evacuated.
    I understand that there is a report about what happened 
there. Would you be willing to--would you agree to come before 
this committee to share with us the information that is in that 
report?
    Secretary Pompeo. I am happy to share everything we have 
done for every State Department official who we believe has 
been harmed by the kinds of incidents that you are describing, 
first in Cuba, and then one in China as well, that have been 
confirmed to date.
    Senator Shaheen. And that is in part of the report?
    Secretary Pompeo. I am not certain of the exact report. 
There has been lots of work to do. There have been many 
reports. I am certainly happy to share with you what all of the 
United States government, including the State Department, has 
done for these officers who have been harmed, and some who 
believe they have been harmed, and are still being medically 
evaluated.
    Senator Shaheen. Thank you.
    The Chairman. Will we have to do that in a classified 
setting?
    Secretary Pompeo. No, sir, not for most of it.
    The Chairman. Okay.
    Secretary Pompeo. There may be some. There may be some that 
has to be classified, in terms of the vectors or the 
methodology of what we are doing to figure out how these health 
incidents took place, but the work that the State Department 
has done to take care of its people we could certainly talk 
about.
    The Chairman. We have all had a real interest in that for a 
lot of different reasons. So thank you, Senator Shaheen, for 
raising that.
    Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman. Again, thanks Mr. 
Secretary, for the testimony.
    I want to ask you about your testimony yesterday. You were 
before the Senate Appropriations Committee, Subcommittee, 
talking about State Department budget. And you had an exchange 
with Senator Van Hollen about Israel and the potential 
annexation of the West Bank.
    I think he asked you questions about if Israel annexes all 
our part of the West Bank, what would the U.S. do? And I am not 
going to ask you that because that is a little bit of a 
hypothetical, and it may even be some of that that might be 
above your pay grade. But I want to ask you the question about 
what U.S. policy is.
    So tell me what U.S. policy is right now. Would we support 
an annexation of the West Bank? Do we oppose it? Or are we 
indifferent to whether that happens?
    Secretary Pompeo. Senator, I will give you the same answer 
that I gave yesterday. The United States has had a longstanding 
policy. We have talked about it. The President has talked about 
it.
    We are now working with many parties to share what our 
vision for us to how to resolve this problem. Senator, you 
would concede that for decades now there have been all these 
wonderful experts that have tried to resolve this crisis in the 
Middle East, the conflict between Israel and the Palestinian 
people, and they have each failed.
    So the old set of ideas are not worth retreading. They have 
simply not succeeded. We are hopeful that our vision, our ideas 
about what this might look like, how we might proceed to do 
that will create the conditions where the Israelis and the 
Palestinians can resolve this. I am not going to get out in 
front of what is in there.
    Senator Kaine. Right.
    Secretary Pompeo. And this bears upon the very question you 
are asking. I don't want to get out in front of it, but----
    Senator Kaine. Do you think two-state solution is an old 
idea whose time has gone?
    Secretary Pompeo. It has certainly been an idea that has 
been around a long time, Senator.
    Senator Kaine. Yeah. But I mean you talked about old ideas 
that we have to set aside. Is the U.S. policy to set aside the 
idea of the two-state solution that was at the origin of the 
United States' recognition of the State of Israel?
    Secretary Pompeo. I would argue that millions of manhours 
have been spent to try and build out a two-state solution. It 
hasn't worked to date. It may work this afternoon, but it 
hasn't worked yet.
    Senator Kaine. Is that still a goal of the United States, 
or is that no longer a goal?
    Secretary Pompeo. You can probably ask me 15 other 
different ways, Senator. I am going to allow this process that 
we have, we are engaged with the parties to work its way 
through.
    Senator Kaine. Well, how about if I state it this way?
    Secretary Pompeo. Yeah.
    Senator Kaine. It has been a policy of the United States. I 
agree with that. I think it should be the policy. Do you agree 
with me or disagree with me?
    Secretary Pompeo. I think ultimately the individuals in the 
region will sort this out. We want good things for the 
Palestinian people.
    Senator Kaine. The President said at the beginning of his 
term, he actually said kind of candidly, one state, two state, 
whatever, whatever is agreeable to both Israelis and 
Palestinians. So let's look at that.
    Would a solution, in order for the U.S. to accept it, have 
to be acceptable to Israelis and Palestinians?
    Secretary Pompeo. You imply that somehow the U.S. has veto 
rights on a solution that the Israelis and the Palestinians 
achieve.
    Senator Kaine. So are we indifferent to the decision that's 
made?
    Secretary Pompeo. We are going to work with--we want a 
better life for the people of the West Bank----
    Senator Kaine. I don't think we have a veto right, but I am 
just asking you, do we have a policy? Would you suggest, as 
using the President's formulation that if Israeli--and you even 
said, Israelis and Palestinians will have to work it out.
    Secretary Pompeo. Yeah.
    Senator Kaine. For us to find that acceptable, would both 
Israelis and Palestinians have to find it acceptable?
    Secretary Pompeo. I mean yes, I think for there to be a 
peaceful resolution here, the Palestinian people are--we have 
seen what happens. We have seen Intifadas. We have seen 
protests. We have seen what is happening in Gaza. And I think 
the Israelis accept the fact that what the ultimate resolution 
of this will be something that the Palestinian people are going 
to have to acknowledge makes sense.
    Senator Kaine. Then I won't follow-up on the hypothetical 
about whether this administration still accepts the notion of a 
two-state solution. I am kind of shocked that that cannot be 
stated clearly. But if your answer is the United States' 
position is we will accept a resolution, but for that 
resolution to be acceptable, it has to be accepted by Israelis 
and Palestinians, I can accept that.
    Let me ask you this question. I have got two Virginians, 
one a Virginia resident, and one a U.S. citizen, Aziz al-Yousef 
and her son, Sala Arheider, who have been imprisoned. I think 
Aziz al-Yousef is now out of prison in Saudi Arabia. Largely 
over their activism around women's rights, women's ability 
drive, the guardianship issue in Saudi Arabia, and efforts to 
lift that. Tell me the status of any dialogue that you are in 
with your Saudi counterparts about either these individuals or 
others who are imprisoned because of activism for women's 
rights.
    Secretary Pompeo. So I personally, and my team, have spoken 
with the Saudis about every single American who we know to be 
wrongfully detailed. And we have urged them to make a better 
decision, saying that those folks need to be released, they 
need to come back. There are too many. It's inconsistent with 
the relationship between our two countries. We do not think it 
is in the Saudi's best interest to do this either, but we have 
made clear our expectations.
    Senator Kaine. And you think Sala Arheider and Aziz al-
Yousef are wrongfully detained?
    Secretary Pompeo. If I may not comment on particular cases, 
I would prefer to do that.
    Senator Kaine. I assert that they are wrongfully detained.
    Secretary Pompeo. Yeah.
    Senator Kaine. But I can understand your point. Thank you, 
Mr. Chair.
    The Chairman. Thank you, Senator Kaine. Senator Rubio.
    Senator Rubio. Just to follow-up on the Israel point, in 
Israel, I don't think I can recall a time in recent memory 
where such a state that nine miles at its narrowest point has 
faced the array of threats it now faces. It looks north and 
sees Iranian Hezbollah elements operating openly, just north of 
its border, in Syria. It looks northwest into Lebanon and sees 
Hezbollah more capable, with munitions that are now precision 
guided.
    It looks at what is happening in Gaza repeatedly, not just 
with Hamas, but with other sub-elements, who are the ones 
behind these recent attacks that we have seen over there. It 
sees Iran continue to advance in its missile capabilities.
    And on top of all that, it is my observation that sure, it 
would be great if we had this solution to this problem with the 
Palestinians and the Israelis, but the problem from Israel's 
point of view, when you take all of that into context, is every 
time it has ever--any territory on its border throughout its 
history has been used to target and to attack Israel.
    And secondly, who would they negotiate with? It is not even 
clear who has the authority or the ability to deliver on a deal 
at this point. And, in fact, some of the deals that are being 
discussed now are not nearly as generous as deals that have 
been rejected in the past.
    So I guess my first question would be, isn't it fair that 
anything that we do with regards to talking about Israel and 
talking about solutions to the Palestinian issue take into its 
context all of these other threats that are currently weighing 
on it, recognizing that some argue that by dealing with that 
these other issues go away.
    Secretary Pompeo. Yeah.
    Senator Rubio. But it is fair to take that all that into 
consideration.
    Secretary Pompeo. It is not only fair, it is necessary. 
Israel has a right to defend itself. It has a right to create a 
situation on its borders that provide security for it and its 
people. And I am very confident the United States will continue 
to support that.
    Senator Rubio. If tomorrow the issue with the Palestinians 
were resolved, and it would be great if it were, would it in 
any way, in your view, lead Iran to be less hostile towards 
Israel?
    Secretary Pompeo. Unimaginable.
    Senator Rubio. Would it lead Hezbollah or those elements to 
be less hostile to Israel?
    Secretary Pompeo. No chance.
    Senator Rubio. And I believe it is still the case that some 
of these groups that Israel is being asked to cut a deal with 
have as their stated objective the destruction of Israel as a 
Jewish state.
    Secretary Pompeo. That is true.
    Senator Rubio. I would imagine it is, in that vein, that 
the administration has requested 3.3 billion in security 
assistance to Israel. And I just want, if I may ask you to 
further comment, because one of the interesting things about it 
is, and I say this, and I hope that I'm wrong, but I don't 
believe that I am, that a future Israel-Hezbollah war, even 
though neither side seems to want one, certainly at this point, 
they may wind up in one anyway. In essence, as Israel is forced 
to defend itself by targeting certain elements, it could 
trigger a response from Syria, for example, that Israel would 
have to respond to, to rapidly escalate.
    The situation in Gaza could quickly escalate at any moment, 
particularly if attacks resume inside, for example, suicide 
attacks in Jerusalem. They will respond to these things very 
strongly. Any of these responses could rapidly trigger 
escalation that could lead to a war.
    So the truth of the matter is that there is a hair-trigger 
threat that at any moment an open and very severe conflict can 
open up with any of these threats that they now face. I imagine 
that was the thinking behind the administration's commitment on 
this year's budgeting for security assistance.
    Secretary Pompeo. That is absolutely true. We believe that 
is money well-spent for American security, in addition to 
Israel's security. You describe the threats that are very real. 
Almost every one of them is connected to Iran. The risk that 
Iran will decide to put missile systems inside of Lebanon, the 
Israelis will feel compelled, because the threat is so 
enormous, they will not have the reaction time. The risk of 
escalation for these kinds of activities that Iran has on 
occasions is very, very real.
    Senator Rubio. One last question on the Houthis in Yemen. I 
have remained concerned that they would acquire from Iran, and 
I imagine Iran would be the only one that would supply them 
anti-ship missiles that would allow them to directly threaten 
not just Saudi shipping, but inadvertently U.S. shipping, or 
perhaps directly, as a result.
    I know there has been a lot of debate here about Yemen, and 
the U.S.'s role in that. But I think lost in that debate has 
often been the threat that the Houthis in Yemen pose, 
particularly as they have increasingly become, it seems, 
surrogates and agents on behalf of the Iranian regime.
    Secretary Pompeo. The risk is not only the ships at sea, 
but missile systems inside of Yemen that are Iranian missile 
systems that land in big cities in the Kingdom of Saudi Arabia, 
and if they are extended just a little bit into the Emirates, 
the Gulf States, Americans transit there all the time.
    You all transit there on trips. These risks to U.S. 
interests are very, very real. They are not just providing the 
equipment and hardware either. They are providing the training, 
so that the Houthis can actually use and implement more 
effectively these weapon systems, UAVs as well. The technology 
rate that is being transferred from Iran to the Houthis 
presents a real risk, certainly to Southeast Saudi Arabia, but 
to the broader Gulf States and America as well.
    The Chairman. Thank you, Senator Rubio. For members, a vote 
was just called. And with that, Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Just follow-up quickly in regards to the Israel-Palestinian 
process. The Israel elections are now over. We know that Hemyat 
Youfuren--the new government, but the speculation is that will 
occur rather rapidly. There was also a comment in one of this 
morning's paper that the United States may be putting forward a 
peace proposal in regards to the Palestinians and the Israelis.
    Can you just, particularly in response to Senator Kaine's 
point about the United States not having veto right, can we 
anticipate that the United States will be initiating a peace 
offer in the near future, or parameter in the near future?
    Secretary Pompeo. So we have been working on a set of ideas 
that we hope to present before too long that will, I hope, have 
sufficient force of intellect and power that Israelis and 
Palestinians will see that there is value there. There will be 
things that neither of them like, but things that the Gulf 
States make sense. All those who have an interest in resolving 
this conflict will think make sense.
    I am sure there will be critiques of it as well, but we 
hope that it provides the Intellectual Foundation upon which 
these discussions can advance in a way that they have not been 
able to for the past several years.
    Senator Cardin. Well, it seems like over the last umpteen 
years it has never been the right time to move forward with 
peace, and peace must forward. So I just would encourage the 
United States to not give up on peace between the Palestinians 
and the Israelis. It is critical, not only for Israel and the 
Palestinians, but for that region, and for the future of that 
region.
    I want to get back to the human rights agenda. And I really 
am trying to find ways we work together on advancing the human 
rights and American values. And the Global Magnitsky is one of 
those efforts that was strong bipartisan, just about unanimous 
effort here in United States Congress, to give an additional 
tool for the U.S. to lead against human rights violators by 
making it clear we don't want you in our country, and we don't 
want you to use the banking system.
    And we have found many of our allies around the world have 
patterned laws very similar to Global Magnitsky, and others are 
considering it. So we already had an exchange that relates to 
the Kingdom of Saudi Arabia. But the Uygur issue with China is 
another area that we have triggered interest when using 
Magnitsky sanctions against the Chinese on a clear violation of 
international standards.
    And I guess my point is this, the Magnitsky law was focused 
initially on Russia. It is now global. And we want to use it as 
a global tool to show that America is concerned about human 
rights globally.
    Can you just advise us as to whether this is being actively 
considered in China in regards to the Uygur issues and other 
areas?
    Secretary Pompeo. Senator, we are considering using this 
global authority in many places, including Asia, including 
China.
    Senator Cardin. Well, I appreciate that.
    Secretary Pompeo. We are trying to find the fact pattern, 
the right place, and that is what we have done every place in 
my now almost year as secretary of state, and Treasury as well.
    Senator Cardin. And the purpose of Magnitsky Law was to 
have Congress working with the administration. It is not 
supposed to be in--and you have used it. The administration has 
used it in many cases that have been very much in consultation 
with us. I would just urge us to get a closer relationship in 
regards to how you implement the Global Magnitsky.
    Let me tell you one other area, and I believe Senator Udall 
may have questioned on this, and that is arms sales. We are not 
naive to think we are not going to have arms sales with 
countries that don't share our total belief in governance. We 
understand that. But we expect arms sales to advance U.S. 
values, democratic values.
    Can you just assure us that as you look at arms sales that 
we use that as a way not only for the military issues and 
defense, but also to advance American values in the country we 
are doing business with, to let them know it's absolutely 
essential that these arms be used consistent with American 
values.
    Secretary Pompeo. So we certainly do that, indeed, when 
recommendations come up, as we discuss arms sales, discuss them 
with both elements of the United States government as well as 
the legislative branch. That is always a component of how we 
think about it.
    Indeed, there are arms sales that we have not proposed 
because we looked at it and said it doesn't make sense, 
certainly at this time, given what is going on in that country 
with respect to human rights, or extrajudicial killings. We 
certainly take a close look at those as a component of whether 
we think a particular arms transfer makes sense.
    Senator Cardin. And I would suggest again, here is an area 
where Congress, this committee particularly, wants to work with 
you, to make it clear that it is not how the administration 
feels, or Congress feels, it is how we feel, advancing U.S. 
values in our bilateral relations, including arms sales.
    Last point, if I am late. In regards to Burma, and I know 
that question was asked by Senator Gardner, the Holocaust 
Museum has determined there is compelling evidence that it was 
ethnic cleansing. I would just ask if you could share with us 
how we are responding to the genocide, crimes against humanity, 
war crimes, issues that have taken place.
    We could never let an episode like this go without the 
United States weighing in very directly and very openly as to 
how this cannot be tolerated, and that those responsible need 
to be held accountable.
    Secretary Pompeo. So I think this administration has 
clearly done that in Burma. We are continuing to do it. I had a 
conversation just yesterday on this very issue. We are looking 
at are there other sanctions, are there other tools that we 
have where we can go after other military leaders that engage 
in inappropriate behavior inside of the country.
    I met with the leadership of Bangladesh earlier this week, 
or end of last week, talking about the difficult conditions 
that these refugees are in, how we can help as the season for 
monsoons once again is upon us. It is going to be a long 
process to get them returned. And so we all have to be mindful 
of making sure that there is the resources there. We have not 
forgotten what has taken place in Burma.
    Senator Cardin. Thank you. Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Markey.
    Senator Markey. Thank you. Thank you, Mr. Chairman.
    Mr. Secretary, you made earlier reference to Chen Quanguo, 
who----
    Secretary Pompeo. Yes, sir.
    Senator Markey. --who was the oppressor of the Tibetan 
people. And now he has moved over to a new job, which is 
oppress the Uygur. And same guy, same attitude towards 
minorities inside of China.
    Your administration has yet to sanction Chen Quanguo. Are 
you intending on doing that?
    Secretary Pompeo. We are constantly evaluating appropriate 
sanctions. You are right. He got a promotion.
    Senator Markey. He got a promotion. Yeah. It is a promotion 
in repression responsibility, however.
    Secretary Pompeo. We take this threat incredibly seriously. 
We have called this out in ways that the previous 
administration refused to do. I am proud of the work we have 
done on human rights around the world, and including what we 
are doing in China.
    Senator Markey. Yeah. But you have yet to sanction this 
guy, who is in charge of the repression. So are you going to 
charge him? Are you going to sanction him particularly so that 
the whole world knows that we are holding this man responsible 
for the harm which he is doing to human rights of the Uygur?
    Secretary Pompeo. I have made a pretty consistent practice 
not to announce sanctions in Senate hearings.
    Senator Markey. All right. Well, let me move over to Burma, 
where your administration has yet to sanction the commander in 
chief of the Burmese military, who is also responsible in that 
country for the repression of the Rohingya, which is an ongoing 
crime against humanity.
    So are you going to sanction the commander in chief of the 
Burmese military for his activity in harming the Rohingya?
    Secretary Pompeo. Senator, our diplomatic team is 
confronted with very complex issues in Burma. We are trying to 
do our best to figure out which tools to use in which places, 
how to shape the situation. Our goal, obviously, I think you 
would agree with me, our goal isn't to sanction people, but to 
change behavior, and then to hold those responsible for the 
acts that took place accountable. And our team, both in theater 
and here in Washington, that works on these issues is 
constantly evaluating the right tool mix.
    Senator Markey. Yeah. I know what you are saying, Mr. 
Secretary, that it is complicated, but at the same time I think 
it is very clear, I think it is very clear that there is a 
genocide, there is a crime against humanity, which is being 
committed. And the United States has the responsibility to be 
the moral leader of the world.
    In here, we actually know the military leader, the 
commander in chief who is responsible for this crime. And we 
expect you to do something about, Mr. Secretary. We expect you 
to sanction him in the same way we expect you to sanction the 
leader in China who has been designated to oppress the Uyghur 
in their country.
    Let me move over, if I could, for a second, following up on 
Senator Kaine's questioning. And that is with regard to the 
Saudi nuclear program, and the recent revelation that it does 
have a nuclear power plant, but it is not under International 
Atomic Energy Agency safeguards, which is a lot different than 
the program inside of Iran.
    And what I am concerned about, and Senator Kaine has 
already made reference to this, is the non-public 810 
authorizations for companies to pursue nuclear cooperation with 
Saudi Arabia. And I have repeatedly asked whether 810 
authorizations have been granted, and to see them. I have 
received silence--with a dash of obfuscation from your 
administration.
    And I recall that you, yourself, over in the House, you 
passionately spoke about secret side deals, and how much you 
were opposed to them when you were a host member. So will you 
commit to sharing the applications and the authorizations you 
have granted for companies to pursue nuclear cooperation with 
Saudi Arabia?
    Secretary Pompeo. Senator, I remain passionate about the 
important oversight that both the Senate and the House engage 
in. I think it is incredibly important to keep the Executive 
Branch acting consistent with the laws that this Congress or 
previous ones have passed.
    Let me take your request under consideration. I can't make 
that consideration. There are other agencies that have a voice 
in this as well. But I am happy to get an answer to you about 
whether we can provide it, and if so, when.
    Senator Markey. I think it is important for you to be 
transparent, and towards that goal, I am going to introduce 
legislation with Senator Rubio, and Senator Kaine, and Senator 
Young later on today to mandate those disclosures. There is a 
bipartisan concern on this committee that we do not have enough 
information about these potential nuclear deals between the 
United States and Saudi Arabia, in an already volatile area of 
the world.
    Again, the Sunni-Shia tension is already at a fever pitch. 
Adding this nuclear dimension to it will only make it worse. So 
I think it is important for us to be in on the ground floor, or 
whatever planning you have for the transfer of nuclear material 
to Saudi Arabia. And transparency is key.
    We are the oversight committee, and we have to make sure 
that we are working to make sure these countries live together 
and understand each other, and not try to put together programs 
that will wind up annihilating each other. So I thank you for 
any information which you can give us, because the Middle East 
is about to get a lot hotter, and I am not talking about 
climate change, if Saudi is allowed to continue down the 
pathway with ballistic missiles, with nuclear materials that 
will only exacerbate and not reduce the tension in the region.
    Thank you, Mr. Chairman.
    The Chairman. With that, thank you, Secretary Pompeo. We 
appreciate your patience. And I know you agree with us that 
these spirited discussions are really important for 
development----
    Secretary Pompeo. Thank you.
    The Chairman. --and carrying on of diplomacy by the United 
States. We are all Americans. We all have the same goals. How 
we get there, sometimes we disagree on, but it is important 
that we continue these lines of communication, keep them open 
both in open session and privately. And you have been very kind 
to me in that regard personally, and I sincerely appreciate 
that.
    In any event, for the information of the members, the 
record will remain open until close of business on Friday. And 
we would ask the witness to respond as promptly as possible, 
and your responses will be made a part of the record.

    [The information referred to above can be accessed by the 
following link: http://www.afsa.org/foreign-service-journal]

    The Chairman. With the thanks of the committee, Mr. 
Secretary, this hearing is adjourned.
    [Whereupon, at 12:04 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


              Responses of Hon. Mike Pompeo to Questions 
                  Submitted by Senator Robert Menendez

    Question. Mr. Secretary, as far as I can tell we've had two 
presidential-level summits with North Korea, but North Korea's nuclear 
and missile programs continue to grow unconstrained and we haven't seen 
any of the initial steps, such as a full and complete declaration of 
its nuclear and missile programs, that you identified a year ago as 
necessary to begin the denuclearization process. In earlier testimony 
before this Committee I asked you a series of questions about necessary 
elements for any deal with North Korea. Given your earlier statements 
intimating that you'd be able to solve the North Korea denuclearization 
within a year, your Department's characterization of the Singapore 
statement as a ``historic'' achievement, and your own timeline for 
denuclearization within a year or by the end of the first term of the 
Trump administration. I'd like to revisit those questions today and ask 
you--yes or no--whether you have achieved written agreement with North 
Korea on any of your own stated goals:

    a) Providing a definition for denuclearization, meaning the 
dismantlement or removal of all nuclear weapons, facilities, 
technology, and material from North Korea?

    b) That North Korea will end the production and enrichment of 
uranium and plutonium for military programs?

    c) That North Korea will permanently dismantle and disable its 
nuclear weapons infrastructure, including test sites, all nuclear 
weapons research and development facilities, particularly with respect 
to advanced centrifuges, and nuclear weapons enrichment and 
reprocessing facilities?

    d) That North Korea will put forward a full, complete and 
verifiable declaration of all its nuclear activities?

    e) That will put in place robust restrictions to assure that 
nuclear material, technology and expertise are not exported?

    f) That North Korea will dismantle all ballistic missiles and agree 
to a prohibition on all ballistic missile development?

    g) That puts in place sufficient safeguards to assure that no 
ballistic missiles and associated technology are proliferated or 
exported?

    h) That include a commitment by North Korea to robust compliance 
inspections including a verification regime for its nuclear and 
ballistic missile programs, including complete access to all nuclear 
related sites and facilities with real time verification including 
``anywhere, anytime'' inspections and snap-back sanctions if North 
Korea is not in full compliance?

    i) That there be no sunsets?

    j) And that creates a roadmap for progress on sanctions relief 
dependent on dismantlement and removal of North Korea's nuclear weapons 
and ballistic missile programs?

    Answer. In Singapore, Chairman Kim accepted our goal of achieving 
the final, fully verified denuclearization of the DPRK. He committed 
the DPRK to work towards this goal in the Singapore Summit Joint 
Statement. Chairman Kim has reiterated that promise to the President 
and to me. We have had extensive conversations with the DPRK about the 
contours of final, fully verified denuclearization. There is still a 
great deal of work to do to achieve that ultimate goal. The Department 
is committed to keeping you and other members of Congress updated on 
the administration's efforts.

    Question. In response to a question from Senator Markey you stated 
that compared to 2016 there was less coal, fuel, and ``resources'' in 
North Korea as a result of the recent rounds of sanctions. Yet 
according to the Congressional Research Service fuel prices in North 
Korea have fallen from 1.71 euros in 2017 to 1.21 euros for gasoline in 
November 218, and from 1.76 euros in 2017 to 1.6 euros for diesel in 
November, 2018, indicating either rising supply or at the least no 
increased shortage. Likewise, CRS reports little to no fluctuation in 
rice process in 2017 and 2018, and that based on price and other data, 
there appears to be more coal available in North Korea domestically 
than previously, which is being used to produce increased electricity 
generation. Moreover, there are no apparent indicators of macroeconomic 
stress, despite some fall-off in GDP since Congress, with bipartisan 
support, initiated a tougher sanctions regime on North Korea under the 
Obama administration. Can you provide us a factual basis and analysis 
for your statements regarding coal, fuel and resources in North Korea?

    Answer. North Korea's access to refined petroleum today is more 
restricted than it was at the beginning of this administration, and its 
coal exports have decreased. The State Department can provide 
additional details to the Committee in a classified briefing. The 
United States, together with our allies and partners, is taking action 
to implement U.N. Security Council resolutions restricting North 
Korea's imports of refined petroleum and exports of coal and combatting 
North Korea's sanctions-evasion activity. We have deployed aircraft and 
surface vessels to detect and seek to disrupt these activities. We have 
increased monitoring and surveillance activities, with a particular 
focus on detecting and seeking to disrupt ship-to-ship transfers of 
refined petroleum to DPRK tankers.

    Question. You also stated that you were unsure how to best 
characterize the massive increase in ship-to-ship transfers over the 
past several years. Can you provide the Committee with a classified or 
unclassified estimate of the tonnage of fuel in ship-to-ship transfers 
in 2016, 2017, 2018, and thus far in 2019?

    Answer. As stated in a March 21 North Korea maritime advisory 
issued by the Departments of State and Treasury and the Coast Guard, we 
estimate that tankers made at least 263 port calls in the DPRK in 2018, 
all of which involved deliveries of refined petroleum products, likely 
procured through illicit, U.N.-prohibited, ship-to-ship transfers with 
DPRK-flagged vessels. If each of these tankers was full when it made 
its delivery, the DPRK imported 3.78 million barrels of fuel, almost 
seven and a half times the allowable amount under UNSCR 2397, in 2018. 
The Department of State can provide additional information to the 
Committee in a classified briefing.

    Question. In your opening statement before the Foreign Relations 
Committee you commented that as you approach sound foreign policy 
making, ``First, the Trump administration recognized and faced reality. 
We know we can't make sound policy based on wishful thinking.'' Given 
the need to recognize and face reality as the basis for sound policy, 
can you explain why your Department has failed to make a designation 
regarding crimes against humanity and genocide conducted against the 
Rohingya during August 2017 military clearance operations in Burma?

    Answer. I remain deeply concerned about the Burmese military's 
appalling human rights abuses against Rohingya and the need for justice 
and accountability. The Department remains focused on accountability 
for those responsible, seeking justice for victims, and promoting 
reforms that will prevent the recurrence of atrocities and other human 
rights violations and abuses. In November 2017, the Department 
concluded that horrific atrocities in Burma's northern Rakhine State 
constituted ethnic cleansing against Rohingya.

    Question. In your opening statement before the Foreign Relations 
Committee you commented that as you approach sound foreign policy 
making, ``First, the Trump administration recognized and faced reality. 
We know we can't make sound policy based on wishful thinking.'' Would 
you characterize what transpired as genocide? Will your Department make 
a designation?

    Answer. I remain deeply concerned about the Burmese military's 
extensive human rights violations and abuses against Rohingya and the 
need for justice and accountability. In November 2017, the Department 
concluded that horrific atrocities in Burma's northern Rakhine State 
constituted ethnic cleansing against Rohingya.

    Question. A decision on New START extension has been pending for a 
long time and Russia has made it clear that extension won't be 
automatic, but will require negotiation. Can you clarify the state of 
negotiations with Russia specifically on the question of New START 
extension, and where/when these discussions have occurred? Do you 
support completing the Export Control Reform Initiative?

    Answer. The administration has not started negotiations with Russia 
on New START extension because the administration is reviewing 
internally whether to seek an extension of the New START Treaty with 
Russia.

    Question. A decision on New START extension has been pending for a 
long time and Russia has made it clear that extension won't be 
automatic, but will require negotiation. Is New START extension being 
examined in the totality of other issues affecting U.S.-Russia 
strategic stability? What are those other issues?

    Answer. The administration's review of whether to seek an extension 
of New START is evaluating whether extension is in the U.S. national 
interest, and how the Treaty's expiration would impact U.S. national 
security in the evolving security environment, including Russia's 
ongoing development of new strategic offensive arms and serial 
noncompliance with its arms control obligations, as well as China's 
continuing nuclear modernization.

    Question. A decision on New START extension has been pending for a 
long time and Russia has made it clear that extension won't be 
automatic, but will require negotiation. Has New START extension and 
these other issues been discussed in a strategic stability dialogue? Is 
the State Department going to re-engage Strategic Stability Talks? If 
not, why not?

    Answer. At their 2018 meeting in Helsinki, President Trump and 
President Putin directed their respective national security advisors to 
continue discussions on issues relevant to easing tensions in the U.S.-
Russia relationship and to explore cooperation in areas of mutual 
interest. After meeting his Russian counterpart, Nikolai Patrushev, in 
August, Ambassador Bolton stated the two sides discussed many issues, 
including some related to strategic stability. They met again last 
October. State Department officials regularly meet with Russian 
officials bilaterally and multilaterally to discuss matters relating to 
strategic stability.

    Question. Secretary Pompeo, you raised the possibility of China in 
the context of a discussion about New START extension, noting that 
China has ``large numbers.'' I take it to mean you are referring to 
China's nuclear weapons stockpile and not their strategic nuclear 
forces. How would you compare the size of China's strategic nuclear 
forces vs. those of the United States and Russia?

    Answer. China's lack of transparency regarding the scope and scale 
of its nuclear modernization program raises questions regarding its 
future intent and current posture. Today, China invests considerable 
resources to maintain and modernize a limited, but survivable, nuclear 
force. Its arsenal consists of approximately 75-100 ICBMs, as well as a 
large number of theater-range systems to hold regional targets at risk. 
China is engaged in an ongoing expansion of its nuclear capabilities, 
presaging a more dangerous future in which it has a considerably larger 
number of sophisticated delivery systems able to reach the United 
States, and our allies and partners, than in the past.

    Question. Secretary Pompeo, you raised the possibility of China in 
the context of a discussion about New START extension, noting that 
China has ``large numbers.'' I take it to mean you are referring to 
China's nuclear weapons stockpile and not their strategic nuclear 
forces. What is the trajectory of China's strategic nuclear forces? Do 
you believe the modest increases in the numbers of ICBMs, SLBMs, and 
heavy bombers (systems accountable under New START) of Chinese forces 
expected before 2026 will affect the U.S.-Russia strategic balance?

    Answer. China's lack of transparency regarding the scope and scale 
of its nuclear modernization program raises questions regarding its 
future intent and current posture. This modernization is resulting in a 
diverse nuclear force, with a new generation of delivery systems coming 
online as China works to establish a nuclear triad. China's arsenal 
consists of approximately 75-100 ICBMs, as well as theater-range 
systems to hold regional targets at risk. The ongoing expansion in 
China's nuclear capabilities presages a dangerous future in which it 
has a considerably larger number of sophisticated delivery systems able 
to reach the United States, and our allies and partners, than in the 
past.

    Question. Secretary Pompeo, you raised the possibility of China in 
the context of a discussion about New START extension, noting that 
China has ``large numbers.'' I take it to mean you are referring to 
China's nuclear weapons stockpile and not their strategic nuclear 
forces. What would be the process for adding China as the New START 
treaty?

    Answer. The New START Treaty is a bilateral treaty between the 
United States and Russia. The Department has not yet assessed what 
procedural steps would be required in order to bring China into the 
Treaty.

    Question. Secretary Pompeo, you raised the possibility of China in 
the context of a discussion about New START extension, noting that 
China has ``large numbers.'' I take it to mean you are referring to 
China's nuclear weapons stockpile and not their strategic nuclear 
forces. How do you envision engaging China on arms control more 
broadly?

    Answer. The United States seeks a meaningful dialogue with China on 
our respective nuclear policies, doctrine, and capabilities. 
Uncertainty regarding China's nuclear modernization, its increasingly 
assertive behavior, and an unwillingness to engage in meaningful 
dialogue on issues of nuclear weapons policy, strategic capabilities, 
arms control, and risk reduction raise the risks of misperception and 
miscalculation. China has rebuffed multiple U.S. attempts to broach 
discussions on these issues in our pursuit of a peaceful security 
environment and stable relations.

    Question. Secretary Pompeo, you described making sure that New 
START ``fits 2021 and beyond'' in the context of the administration 
thinking about New START extension. This appear to include whether 
certain modifications need to be made to New START so that it meets 
future challenges. Can you describe specifically what issues are under 
consideration?

    Answer. The administration's review of whether to seek an extension 
of New START is evaluating whether extension is in the U.S. national 
interest and how the Treaty's expiration would impact U.S. national 
security in the evolving security environment, including Russia's 
ongoing development of new strategic offensive arms and serial 
noncompliance with its arms control obligations, as well as China's 
continuing nuclear modernization.

    Question. Secretary Pompeo, you described making sure that New 
START ``fits 2021 and beyond'' in the context of the administration 
thinking about New START extension. This appear to include whether 
certain modifications need to be made to New START so that it meets 
future challenges. Is the administration considering adding additional 
weapons systems, such as non-strategic nuclear weapons (NSNW), other 
strategic-range systems such as the one Putin revealed in March 2018, 
and/or other technologies?

    Answer. Russia's ongoing modernization of its strategic and 
nonstrategic nuclear forces is part of the evolving security 
environment that the administration is evaluating as part of its review 
of whether to seek an extension of New START. We assess that at least 
two of the new systems described by President Putin in March 2018, 
Sarmat and Avangard, would be subject to the New START Treaty at the 
appropriate time in their development. Regarding new kinds of strategic 
offensive arms, the New START Treaty states in Article V that, ``When a 
Party believes that a new kind of strategic offensive arm is emerging, 
that Party shall have the right to raise the question of such a 
strategic offensive arm for consideration in the Bilateral Consultative 
Commission.'' The United States has engaged Russia on these issues in 
appropriate channels.

    Question. Secretary Pompeo, you described making sure that New 
START ``fits 2021 and beyond'' in the context of the administration 
thinking about New START extension. This appear to include whether 
certain modifications need to be made to New START so that it meets 
future challenges. Is it possible to modify New START to capture 
additional weapons without returning the Treaty to the U.S. Senate for 
advice and consent?

    Answer. The Department is continuing its review of the New START 
Treaty and has not yet assessed how the Treaty would need to be 
modified in order to constrain additional kinds of weapons that are not 
currently subject to the Treaty.

    Question. Secretary Pompeo, you described making sure that New 
START ``fits 2021 and beyond'' in the context of the administration 
thinking about New START extension. This appear to include whether 
certain modifications need to be made to New START so that it meets 
future challenges. If the United States seeks to modify New START, what 
do you foresee Russia asking for in return? Would Russia seek to 
include limitations on U.S. national missile defense and the European 
missile defense systems?

    Answer. If the United States sought to modify the New START Treaty 
to constrain additional kinds of weapons that are not currently subject 
to the Treaty, it is unclear what modifications Russia would ask for in 
return.

    Question. Secretary Pompeo, you described making sure that New 
START ``fits 2021 and beyond'' in the context of the administration 
thinking about New START extension. This appear to include whether 
certain modifications need to be made to New START so that it meets 
future challenges. Is the Department planning a reorganization or 
realignment of the Arms Control Bureau? Does the Department plan to 
move, reorganize, or realign any FTEs within the Arms Control, 
Verification and Compliance Bureau to any other office or Bureau?

    Answer. The Bureau of Arms Control, Verification and Compliance 
(AVC) has proposed changes to the reporting line structure among the 
portfolios of its Deputy Assistant Secretaries, which the Department is 
reviewing. Separately, I am considering the realignment of a small 
number of positions from the Bureau of Arms Control, Verification and 
Compliance (AVC) as part of creating a Bureau for Cybersecurity and 
Emerging Technologies (CSET). My staff has informally discussed the 
CSET proposal with some of the Department's oversight committees, 
including the Senate Foreign Relations Committee. When I make a final 
decision about CSET, I will ensure that all necessary consultations and 
notifications are done prior to its implementation.

    Question. Russian violated international law when it used chemical 
weapons in Salisbury, United Kingdom. However, the State Department has 
not implemented the second round of sanctions against the Russian 
Federation which are mandated by the Chemical and Biological Weapons 
Warfare Elimination Act of 1991 (CBW). These sanctions are now 5 months 
overdue.

    Why has the State Department failed to implemented additional 
sanctions against Russia, as required by the Chemical and Biological 
Weapons Warfare Elimination Act of 1991?

    Answer. We do not preview sanctions actions. However, we are 
working diligently with the interagency to prepare for imposing the 
second round of sanctions.

    Question. The State Department has determined that Russian violated 
international law when it used chemical weapons in Salisbury, United 
Kingdom. However, the State Department has not implemented the second 
round of sanctions against the Russian Federation which are mandated by 
the Chemical and Biological Weapons Warfare Elimination Act of 1991 
(CBW). These sanctions are now 5 months overdue. Is the United States 
coordinating with our allies and partners the imposition of additional 
sanctions on Russia for its chemical weapons use?

    Answer. We do not preview sanctions actions. We regularly work with 
allies and partners to adopt similar sanctions to broaden the impact of 
our own sanctions.

    Question. Last January, then-Secretary Tillerson convened an 
independent Accountability Review Board ``to review the circumstances 
surrounding unexplained medical conditions affecting Embassy Havana 
diplomatic community members.'' On June 7, 2018, the Accountability 
Review Board submitted a report of its findings and recommendations to 
you. Why hasn't the Department shared the complete ARB report with 
affected individuals who have an active security clearance?

    Answer. The Department understands the interest of the victims of 
the attacks in reviewing the summary of the Accountability Review Board 
(ARB) report. The Department remains committed to responding to their 
concerns and providing them with updated information. The 
investigations into sensitive aspects of the issue are ongoing. The 
summary addresses aspects of the ongoing investigation. The Department 
cannot provide a classified briefing on the report to the affected 
individuals while an investigation is ongoing. The Department has 
communicated this to the affected individuals.

    Question. Last January, then-Secretary Tillerson convened an 
independent Accountability Review Board ``to review the circumstances 
surrounding unexplained medical conditions affecting Embassy Havana 
diplomatic community members.'' On June 7, 2018, the Accountability 
Review Board submitted a report of its findings and recommendations to 
you. Will the Department undertake a separate ARB for affected 
individuals displaying similar symptoms while working at the U.S. 
Consulate General in Guangzhou, China?

    Answer. The health, safety, and well-being of U.S. government 
employees and their family members are my greatest concern. The 
Department responded swiftly to a report of health symptoms by an 
employee in China that resembled the reported symptoms by our personnel 
in Havana. The Department continues to conduct medical screenings of 
any Mission China employees and family members upon request. After 
thorough consideration, I decided not to convene an independent 
Accountability Review Board (ARB) to review the incident in China, 
because it did not meet the statutory criteria for an ARB.

    Question. The administration's lack of leadership in providing 
stabilization funds will ultimately lead to more instability in Syria, 
putting our troops there at greater risk and ultimately complicating 
any chance of bringing them home after securing hard-earned gains. A 
State Department spokesperson recently said that the U.S. is 
``committed to the enduring defeat of ISIS and al Qaeda, a political 
solution to the Syrian conflict in line with United Nations Security 
Council Resolution (UNSCR) 2254, and the removal of all Iranian-led 
forces in Syria.'' How does zeroing out stabilization funding for Syria 
help to achieve any of these important goals?

    Answer. Per ongoing efforts to achieve the enduring defeat of ISIS 
and al-Qaida, we have received donor pledges from members of the Global 
Coalition to Defeat ISIS totaling $325 million, which will help 
continue vital stabilization activities in Syria through U.S. 
stabilization mechanisms.

    Question. I understand that some of the projects the United States 
started through our START teams started by the U.S. in Syria will now 
be funded by around $180 million in contributions to the U.S. Treasury 
by partner countries, including Germany, Saudi Arabia, and the United 
Arab Emirates. If this money was not appropriated by Congress, what are 
the administration's obligations to notify Congress on how and when it 
is spent?

    Answer: Our Global Coalition partners are funding the 
implementation of these programs by the United States under section 607 
of the Foreign Assistance Act. We will continue to engage with and 
brief Congress on all of our Syria programming.

    Question. The administration's lack of leadership in providing 
stabilization funds will ultimately lead to more instability in Syria, 
putting our troops there at greater risk and ultimately complicating 
any chance of bringing them home after securing hard-earned gains. A 
State Department spokesperson recently said that the U.S. is 
``committed to the enduring defeat of ISIS and al Qaeda, a political 
solution to the Syrian conflict in line with United Nations Security 
Council Resolution (UNSCR) 2254, and the removal of all Iranian-led 
forces in Syria.'' I have previously expressed concern that we are 
literally ceding ground to Turkey, Russia, and Iran in Syria. How does 
being absent advance our interests in the region?

    Answer. The United States will keep a residual force in Syria as 
part of the continued Defeat-ISIS Coalition mission, helping to root 
out ISIS remnants and preventing the group from regaining momentum. Our 
policy objectives remain: (1) the enduring defeat of ISIS, (2) a 
lasting political solution in accordance with U.N. Security Council 
Resolution 2254, and (3) removing all Iranian-commanded forces from 
Syria. We will continue to support international efforts to establish 
local security and governance, a restored economy, and justice and 
accountability in liberated areas, and to provide humanitarian 
assistance to people in Syria and throughout the region.

    Question. Congress approved funding for bilateral assistance for 
both renewable energy and adaptation programs in the FY19 omnibus 
appropriations bill. The first sentence on page 70 of the Joint 
Explanatory Statement of Division F (Department of State, Foreign 
Operations, and Related Programs Appropriations Act), reads: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate report.'' State and 
USAID have long and well-established channels and programs towards 
which to obligate these funds. Do you commit to spending these funds in 
accordance with Congress's clear intention in this spending 
legislation, and devoting resources toward renewable energy and 
adaptation programming?

    Answer. The Department of State and USAID are in the process of 
developing FY 2019 funding allocations. No decision has been made at 
this time on specific FY 2019 funding allocations. The Department of 
State and USAID will consult with and notify Congress of any deviations 
from the allocations in the Environment Programs table and other tables 
in the Joint Explanatory Statement as appropriate, consistent with 
requirements in the FY 2019 Appropriations Act.

    Question. Congress approved funding for bilateral assistance for 
both renewable energy and adaptation programs in the FY19 omnibus 
appropriations bill. The first sentence on page 70 of the Joint 
Explanatory Statement of Division F (Department of State, Foreign 
Operations, and Related Programs Appropriations Act), reads: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate report.'' State and 
USAID have long and well-established channels and programs towards 
which to obligate these funds. Is it your policy to treat joint 
explanatory statements and legislative reports associated with enacted 
legislation for the purposes of making transparent to the public the 
description of legislative intent and offering instruction to the 
executive on congressional intent of legislation to be ``applicable 
law?''

    Answer. The State Department and USAID take into account 
Congressional directives when developing funding allocations, including 
information included in the Joint Explanatory Statement that 
accompanies the annual State, Foreign Operations, and Appropriations 
Act (SFOAA). The Department of State and USAID will consult with and 
notify Congress of deviations from the allocations in the Environment 
Programs table and other tables in the Joint Explanatory Statement as 
appropriate, consistent with requirements in the FY 2019 Appropriations 
Act.

    Question. Congress approved funding for bilateral assistance for 
both renewable energy and adaptation programs in the FY19 omnibus 
appropriations bill. The first sentence on page 70 of the Joint 
Explanatory Statement of Division F (Department of State, Foreign 
Operations, and Related Programs Appropriations Act), reads: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate report.'' State and 
USAID have long and well-established channels and programs towards 
which to obligate these funds. Under what circumstances would you, or 
do you, not follow or adhere to the Congress's intent with legislation 
as described in legislations' accompanying joint explanatory statements 
and committee or conference reports?

    Answer. The State Department and USAID take into account 
Congressional directives when developing funding allocations, including 
information included in the Joint Explanatory Statement that 
accompanies the annual State, Foreign Operations, and Appropriations 
Act (SFOAA). The Department of State and USAID will consult with and 
notify Congress of deviations from the allocations in the Environment 
Programs table and other tables in the Joint Explanatory Statement as 
appropriate, consistent with requirements in the FY 2019 Appropriations 
Act.

    Question. Congress approved funding for bilateral assistance for 
both renewable energy and adaptation programs in the FY19 omnibus 
appropriations bill. The first sentence on page 70 of the Joint 
Explanatory Statement of Division F (Department of State, Foreign 
Operations, and Related Programs Appropriations Act), reads: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate report.'' State and 
USAID have long and well-established channels and programs towards 
which to obligate these funds. If you do not consider such reports and 
explanatory statements associated with enacted legislation to provide 
adequate legal intent or instructions on how to execute laws, do you 
feel it is necessary for Congress to be more explicit with instructions 
for you in actual legislation to ensure you follow Congress's intent?

    Answer. The State Department and USAID take into account 
Congressional directives when developing funding allocations, including 
information included in the Joint Explanatory Statement that 
accompanies the annual State, Foreign Operations, and Appropriations 
Act (SFOAA). The Department of State and USAID will consult with and 
notify Congress of deviations from the allocations in the Environment 
Programs table and other tables in the Joint Explanatory Statement as 
appropriate, consistent with requirements in the FY 2019 Appropriations 
Act.

    Question. Will the State Department submit an FY19 rescission 
package to Congress?

    Answer. I will ensure that the State Department has every dollar it 
needs to achieve its mission around the world. The Department remains 
committed to ensuring effectiveness of U.S. taxpayer dollars, driving 
efficiencies, and working on behalf of the American people to advance 
national security objectives and foreign policy goals. At this time, 
the Department is unaware of any plans to submit an FY 2019 rescission 
package to Congress.

    Question. Will you commit to this Committee that you will not 
submit to Congress an FY19 rescission package?

    Answer. I will ensure that the State Department has every dollar it 
needs to achieve its mission around the world. The Department remains 
committed to ensuring effectiveness of U.S. taxpayer dollars, driving 
efficiencies, and working on behalf of the American people to advance 
national security objectives and foreign policy goals.
    At this time, the Department is unaware of plans to submit an FY 
2019 rescission package to Congress. However, should Congress act upon 
any future rescission proposal submitted by the administration, I will 
work to ensure that any State and USAID reductions are implemented 
consistent with applicable law.

    Question. It is my understanding that F Bureau continues to delay 
approval of FY18 spending and appropriations plans for a variety of 
USAID programs, thus delaying obligation of FY18 funds. A specific 
example are USAID's Labor Program within the Democracy, Conflict and 
Humanitarian Assistance Bureau. How many USAID FY18 Spend Plans and 
Operations Plans remain unapproved at F Bureau?

    Answer. The vast majority of the FY 2018 Operational Plans and 
Spend Plans are completed and approved. The Department of State and 
USAID will continue to work diligently to ensure that funds 
appropriated by Congress are programmed and obligated as quickly as 
possible for programs that advance U.S. foreign policy objectives while 
assuring compliance with applicable legal and other requirements.

    Question. It is my understanding that F Bureau continues to delay 
approval of FY18 spending and appropriations plans for a variety of 
USAID programs, thus delaying obligation of FY18 funds. A specific 
example are USAID's Labor Program within the Democracy, Conflict and 
Humanitarian Assistance Bureau. Are any of these delays related to 
policy or political disagreements to congressionally-mandated programs?

    Answer. The vast majority of the FY 2018 Operational Plans and 
Spend Plans are completed and approved. The Department of State and 
USAID will continue to work diligently to ensure that funds 
appropriated by Congress are programmed and obligated as quickly as 
possible for programs that advance U.S. foreign policy objectives while 
assuring compliance with applicable legal and other requirements.

    Question. It is my understanding that F Bureau continues to delay 
approval of FY18 spending and appropriations plans for a variety of 
USAID programs, thus delaying obligation of FY18 funds. A specific 
example are USAID's Labor Program within the Democracy, Conflict and 
Humanitarian Assistance Bureau. Has the State Department's Foreign 
Assistance Bureau delayed the obligation of any FY18 funds at the 
request of the Office of Management and Budget?

    Answer. The Office of U.S. Foreign Assistance Resources (F) is 
working quickly and diligently to ensure that FY 2018 funding 
appropriated by Congress is notified and obligated for programs that 
advance U.S. foreign policy objectives consistent with applicable legal 
and other requirements. The vast majority of FY 2018 funds have been 
approved by F and are currently in the process of being notified to 
Congress and obligated. The Department will continue to critically 
review existing foreign assistance programs to ensure that U.S. efforts 
are sufficiently focused and effective, and to carry out the 
President's direction.

    Question. It is my understanding that F Bureau continues to delay 
approval of FY18 spending and appropriations plans for a variety of 
USAID programs, thus delaying obligation of FY18 funds. A specific 
example are USAID's Labor Program within the Democracy, Conflict and 
Humanitarian Assistance Bureau. Will you provide a timeline outlining 
the State Department's Foreign Assistance Bureau's steps to apportion 
and approve operation plans for FY16, FY17, and FY18 funds.

    Answer. The vast majority of the FY 2018 Operational Plans are 
completed and approved. The Department of State and USAID will continue 
to work diligently to ensure that funds appropriated by Congress are 
programmed and obligated as quickly as possible for programs that 
advance U.S. foreign policy objectives while assuring compliance with 
applicable legal and other requirements.

    Question. Explain how, based on the various delays in obligating 
FY17 and FY18 funding, the administration is not violating the 
Impoundment Control Act of 1974.

    Answer. FY 2018 funding appropriated by Congress is in the process 
of being obligated consistent with applicable law, including the 
Impoundment Control Act.

    Question. In response to questioning before the House Foreign 
Affairs Committee on March 27 about a March 18 off-the-record telephone 
press briefing on international religious freedom with members of faith 
based media, you said your decision to not release a transcript of this 
briefing or the list of participants was consistent with what other 
Secretaries of State have done in the past. Please provide specific 
examples of prior off the record press briefings with members of the 
faith-based media.

    Answer. The Department remains steadfastly committed to the 
principles of transparency and press freedom. I have conducted numerous 
interviews in the past year with a variety of outlets and reporters, 
including those that regularly cover the Department as well as other 
media that typically do not have the opportunity to interview a 
Secretary of State.
    The March 18 event was an interview with a select group of invited 
print journalists, not a press briefing. We have not arranged off-the-
record press briefings with members of the faith-based media.

    Question. In response to questioning before the House Foreign 
Affairs Committee on March 27 about a March 18 off-the-record telephone 
press briefing on international religious freedom with members of faith 
based media, you said your decision to not release a transcript of this 
briefing or the list of participants was consistent with what other 
Secretaries of State have done in the past. Please provide specific 
examples of prior off the record press briefings with members of the 
faith-based media in which Secretaries decided against releasing 
transcripts or participant lists.

    Answer. The Department remains steadfastly committed to the 
principles of transparency and press freedom. Since I became Secretary 
of State, I have actively engaged with the media and supported ways to 
increase opportunities for them to engage with me and other senior 
officials. The March 18 event was not a press briefing. It was an 
interview with a select group of invited print journalists. Although 
the Department posts transcripts of press briefings, it does not 
publish participant lists or transcripts of interviews with print 
journalists. This facilitates their ability to use material from such 
interviews at their discretion.

    Question. In response to questioning before the House Foreign 
Affairs Committee on March 27 about a March 18 off-the-record telephone 
press briefing on international religious freedom with members of faith 
based media, you said your decision to not release a transcript of this 
briefing or the list of participants was consistent with what other 
Secretaries of State have done in the past. How do you select which 
members of the media are granted access to off the record telephone 
press briefings?

    Answer. Since I became Secretary of State, I have actively engaged 
with the media and supported ways to increase opportunities for them to 
engage with me and other senior officials. I have conducted more than 
125 interviews in the past year with a variety of outlets and 
reporters, including those that regularly cover the Department as well 
as other media that typically do not have the opportunity to interview 
a Secretary of State. The March 18 event was not a press briefing. It 
was an interview with a select group of invited print journalists.

    Question. In response to questioning before the House Foreign 
Affairs Committee on March 27 about a March 18 off-the-record telephone 
press briefing on international religious freedom with members of faith 
based media, you said your decision to not release a transcript of this 
briefing or the list of participants was consistent with what other 
Secretaries of State have done in the past. What was the criteria used 
to select participants for the March 18 briefing?

    Answer. We do our best to support the work of the journalists who 
cover the State Department. Since I became Secretary of State, I have 
actively engaged with the media and supported ways to increase 
opportunities for them to engage with me and other senior officials. 
The March 18 event was not a press briefing. It was an interview with a 
select group of invited print journalists. We grant journalists 
interviews based on a variety of reasons, including their areas of 
interests and coverage. I have conducted more than 125 interviews in 
the past year with a variety of outlets and reporters, including those 
that regularly cover the Department as well as other media that 
typically do not have the opportunity to interview a Secretary of 
State.

    Question. In late October 2017 and in March 2019, Jared Kushner 
visited Saudi Arabia. The Daily Beast reported that U.S. Embassy Riyadh 
was not involved in Mr. Kushner's March trip or read in on the meetings 
he held with members of the Saudi royal court. Do you contest the 
veracity of any of these accounts? If so, how?

    Answer. The U.S. Embassy in Riyadh played a coordinating and 
logistical support role for these visits, as it does for all senior 
U.S. government visitors on official visits to the Kingdom. The 
Department has been briefed on these meetings.

    Question. In late October 2017 and in March 2019, Jared Kushner 
visited Saudi Arabia. The Daily Beast reported that U.S. Embassy Riyadh 
was not involved in Mr. Kushner's March trip or read in on the meetings 
he held with members of the Saudi royal court. Was the State Department 
involved in any way in planning this trip? How?

    Answer. The U.S. Embassy in Riyadh played a coordinating and 
logistical support role for these visits, as it does for all senior 
U.S. government visitors on official visit to the Kingdom.

    Question. In late October 2017 and in March 2019, Jared Kushner 
visited Saudi Arabia. The Daily Beast reported that U.S. Embassy Riyadh 
was not involved in Mr. Kushner's March trip or read in on the meetings 
he held with members of the Saudi royal court. Did anyone from the 
State Department attend meetings with Mr. Kushner?

    Answer. Senior Policy Advisor Brian Hook participated in Mr. 
Kushner's meetings during his most recent trip to Riyadh.

    Question. In late October 2017 and in March 2019, Jared Kushner 
visited Saudi Arabia. The Daily Beast reported that U.S. Embassy Riyadh 
was not involved in Mr. Kushner's March trip or read in on the meetings 
he held with members of the Saudi royal court. Did Mr. Kushner attend 
any meetings alone? Did Mr. Kushner attend any meetings with Crown 
Prince Mohammed bin Salman? If so, did he attend such meetings alone?

    Answer. I respectfully refer you to the White House on additional 
specifics regarding Mr. Kushner's engagements.

    Question. In late October 2017 and in March 2019, Jared Kushner 
visited Saudi Arabia. The Daily Beast reported that U.S. Embassy Riyadh 
was not involved in Mr. Kushner's March trip or read in on the meetings 
he held with members of the Saudi royal court. Did the State Department 
receive a readout of Kushner's meetings with senior Saudi officials, 
including the Crown Prince?

    Answer. Yes.

    Question. In late October 2017 and in March 2019, Jared Kushner 
visited Saudi Arabia. The Daily Beast reported that U.S. Embassy Riyadh 
was not involved in Mr. Kushner's March trip or read in on the meetings 
he held with members of the Saudi royal court. Are you personally aware 
of the topics that Kushner discussed with the Crown Prince?

    Answer. Yes, the Department has been briefed on this meeting.

    Question. Since Jamal Khashoggi's brutal murder last October, you 
have met with or spoken to senior Saudi officials at least six times. 
In each of your calls or meetings, did you raise Mr. Khashoggi's death 
and specifically call on the Saudi government to cooperate with the 
Turkish investigation into his death and hold those accountable 
responsible? Have you raised Khashoggi's murder with senior Saudi 
officials in every communication since Oct 2, 2018?

    Answer. I share your conviction that those responsible for this 
horrific act must be held accountable. I consistently raise 
accountability for Mr. Khashoggi's killers with all levels of the Saudi 
Arabian government, as do senior Department officials in Washington and 
Riyadh. We have routinely highlighted that a transparent and impartial 
Saudi judicial process is necessary, and have urged Saudi authorities 
to cooperate with all international inquiries into the killing.

    Question. Since Jamal Khashoggi's brutal murder last October, you 
have met with or spoken to senior Saudi officials at least six times. 
Have you expressed any concerns to Saudi officials about the trials of 
11 people charged in the murder of Mr. Khashoggi? Please describe the 
nature of those concerns and what specifically you have communicated to 
Saudi officials about these trials.

    Answer. Senior Department leadership and I have consistently raised 
the need for a credible, fair, and transparent judicial process in the 
horrific murder of Mr. Khashoggi, and we continue to promote 
accountability for his killers. We also continue to communicate to 
Saudi leadership that extrajudicial killing by any government official 
is unacceptable. We remain highly concerned about the status of Saud 
Al-Qahtani, and the administration has taken several steps in that 
respect, including financial sanctions. We will continue to deploy 
those tools as necessary. The U.S. Embassy will continue to monitor the 
ongoing trials in Riyadh, and we will continue to raise our concerns at 
all appropriate levels and opportunities.

    Question. On February 14, 2019, I sent a letter asking for 
information regarding the brutal murder of Jamal Khashoggi, and 
specifically asking for the Department's legal determination that it is 
not required to submit a report to the Chairman and Ranking Member of 
the Senate Foreign Relations Committee pursuant to section 1263(d) of 
the Global Magnitsky Human Rights Accountability Act. What is the legal 
justification for not making the determination required under the 
Global Magnitsky Act? When will the Department provide that legal 
determination?

    Answer. The administration has used the Global Magnitsky sanctions 
program to promote accountability in this case. We imposed financial 
sanctions under the Global Magnitsky sanctions program on 17 Saudi 
government officials. Section 1263(d) of the Global Magnitsky Human 
Rights Accountability Act addresses certain Congressional committee 
requests for determinations and reports by the President on whether a 
foreign person has engaged in an activity described in Section 1263(a) 
of the Act. The authorities under Section 1263(d) have not been 
delegated by the President to the Secretary of State and thus the 
Department is not in a position to make such a determination or report.

    Question. On February 14, 2019, I sent a letter asking for 
information regarding the brutal murder of Jamal Khashoggi, and 
specifically asking for the Department's legal determination that it is 
not required to submit a report to the Chairman and Ranking Member of 
the Senate Foreign Relations Committee pursuant to section 1263(d) of 
the Global Magnitsky Human Rights Accountability Act. Is it your 
understanding that the President is not going to make a determination 
regarding the Crown Prince's responsibility? What is the basis for your 
understanding?

    Answer. The Department shares your conviction that those 
responsible for this horrific act must be held accountable. The United 
States was the first country to take action to promote accountability, 
when on October 23, 2018, we revoked visas and entered visa lookouts 
for those suspected of involvement in the murder. On November 15, 2018, 
we imposed financial sanctions on implicated Saudi officials under the 
executive order implementing the Global Magnitsky Human Rights 
Accountability Act. On April 8, 2019, the Secretary of State further 
designated Saudi government officials under Section 7031(c) of the 
Department of State, Foreign Operations, and Related Programs 
Appropriations Act of 2019.

    Question. According to a report compiled by my staff, it appears 
that the Department's public justification for cancelling the Secretary 
of State's International Women of Courage Award to Finnish journalist 
Jessikka Aro is not true. The Department claims it made a ``regrettable 
error'' and that Aro had never been a finalist. But State Department 
documents and communications show that Ms. Aro was a finalist and the 
reward was rescinded at the last minute and given to someone else. 
According to public reporting, sources within the Department assert the 
award was rescinded after the Department discovered social media posts 
Ms. Aro made that were critical of President Trump's attacks on the 
media and the rule of law. Were social media postings that Ms. Aro made 
which were critical of President Trump's statements a reason for the 
Department rescinding her status as a finalist for the award? If not, 
for what reason(s) did the Department rescind Ms. Aro's status as a 
finalist for the award?

    Answer. A number of errors were made in the nomination and approval 
process of Ms. Jessikka Aro. Ms. Aro should not have been notified that 
she was an awardee in the absence of a comprehensive review, which is a 
prerequisite for the nomination process.

    Question. According to a report compiled by my staff, it appears 
that the Department's public justification for cancelling the Secretary 
of State's International Women of Courage Award to Finnish journalist 
Jessikka Aro is not true. The Department claims it made a ``regrettable 
error'' and that Aro had never been a finalist. But State Department 
documents and communications show that Ms. Aro was a finalist and the 
reward was rescinded at the last minute and given to someone else. 
According to public reporting, sources within the Department assert the 
award was rescinded after the Department discovered social media posts 
Ms. Aro made that were critical of President Trump's attacks on the 
media and the rule of law. On February 25th, Embassy Helsinki received 
a letter from Ms. Aro's lawyer requesting information about who 
withdrew the award, on what grounds, when the decision was made, and 
why no official explanation was provided to Ms. Aro. As of today, Ms. 
Aro and her lawyer have not received a response to the letter. Will the 
Department be providing a response, and by when?

    Answer. We have received the correspondence from Ms. Aro's lawyer 
and are working on an appropriate response.

    Question. During your testimony before the Senate Appropriations 
Committee on April 9, 2019, you were asked about your role in approval 
of the Department of Energy's 810 Authorization used to transfer 
nuclear technology to Saudi Arabia. You responded that you signed off 
on the Department of Energy's decision. When did you sign off on the 
810 Authorizations? What factors went into the decision to sign off on 
those Authorizations? Did you approve keeping the identity of the 
companies receiving the authorizations private?

    Answer. The Bureau of International Security and Nonproliferation 
(ISN) oversaw the State Department's review of Saudi Arabia-related 
Part 810 applications from November 2017 to March 2019. These reviews 
were conducted consistent with U.S. law and standard Department of 
State practices. The State Department is not involved in determining 
whether information in the authorizations is protected from public 
disclosure.

    Question. Last year, a former foreign government official was 
granted a visa by the Department of State, despite reportedly being on 
a visa ban list for corruption. Please describe how a Presidential 
Proclamation 7750 Section 2 exception is effectuated for reasons other 
than an official U.N. visit, and whether the opinions of non-State 
Department entities, including the National Security Council and 
Members of Congress, can be considered in the process. Please also 
explain whether there may be variances in this process for different 
cases. Since January 20, 2017, how many PP 7750 Section 2 exceptions 
for reasons other than an official U.N. visit have been granted?

    Answer. The Department's Bureau of International Narcotics and Law 
Enforcement Affairs (INL) would lead such a consideration process 
relating to PP 7750 Section 2. As Secretary, I or my designee would 
make the final decision with respect to such an exception based on all 
relevant facts and laws, after considering relevant input from 
Department and U.S. government sources. As evidence of corruption can 
involve law enforcement-sensitive information, including information 
regarding ongoing investigations and other classified information, 
details of the processes for handling such information may be 
operationally sensitive. There have been no Section 2 exceptions 
granted for reasons other than an official U.N. visit since January 20, 
2017.

    Question. The President's Budget request for FY20 again cuts 
funding for the National Endowment for Democracy--a 64 percent cut from 
NED's FY19 appropriation of $180 million. The administration proposes 
the Endowment make these cuts by only funding its small grants program 
and ceasing funding for its core institutes--The National Democratic 
and Republican Institute, labor Solidarity Center and business Center 
for International Private Enterprise. In fact, this budget cut would 
dramatically cut NED's small grants program, as well as funding for the 
core institutes. Dismantling the NED structure would be in 
contravention with the NED Act (P.L. 98-164), which embeds the work of 
four core institutes into NED's mission, as well as undermining the 
programmatically coordinated efforts of NED and the core institutes 
that makes it so effective. What message does a reduction in funding 
for democracy program, whether via NED, State or USAID send to those 
struggling for human rights and democracy as well as our adversaries, 
like China and Russia, who are seeking to disrupt the democratic world 
order and replace it with their authoritarian political, economic and 
governance model?

    Answer. Democracy, human rights, and governance (DRG) assistance, 
including rule of law, good governance, and anti-corruption 
programming, is critical for defending national security, fostering 
economic opportunities for the American people, and asserting U.S. 
leadership and influence. While lower than FY 2019 enacted 
appropriations, the FY 2020 budget request for DRG assistance reflects 
the administration's priorities of advancing peace and security, 
expanding American influence, and addressing global crises while making 
efficient use of taxpayer dollars. This budget will allow us to advance 
our core mission and support our most critical foreign policy goals.

    Question. How does the President's Budget Request support expansion 
of democracy and governance programming to counteract Russian 
Federation attempts to undermine democratic processes in countries on 
Russia's perimeter--countries which the United States has identified as 
strategically important?

    Answer. The Department of State remains committed to working on a 
whole-of-government basis and with allies and partners to counter 
Russian efforts to undermine democratic institutions and processes in 
neighboring countries and further afield. The request for regional and 
bilateral programming prioritizes support to help build resilience in 
those countries most susceptible to Russian malign influence. These 
efforts are focused on deterring Russian aggression; building the 
capacity of civil society and independent media to expose and counter 
Russian malign influence; recognizing, exposing, and countering Russian 
disinformation and propaganda; and promoting good governance, 
strengthening rule of law, and combatting corruption.

    Question. The President's FY20 budget request, once again proposes 
zeroing out the Development Assistance, the Economic Support Fund, 
Assistance to Eastern Europe, Central Asia (AEECA), Complex Crises 
Fund, and the Democracy Fund into a new Economic Support and 
Development Fund (ESDF) account. The President's Budget Request 
provided a legislative request that legally consolidates these 
accounts, but provides no description for why this consolidation 
necessary or beneficial, let alone a description of the policies that 
would govern this new program. All we have to go on, is the vague 
regurgitated description of the ESDF: ``prioritizes and focuses foreign 
assistance in regions and on programs that advance our national 
security and protect the American people, promote U.S. prosperity and 
economic opportunities, and advance American interests and values 
around the world.'' It's been 2 years, has the State Department and 
USAID developed any policies or guidance that would govern the ESDF, 
and if so will you submit the description of this policy, not just 
legislative text on how to consolidate accounts, to congress?

    Answer. This account consolidation attempts to streamline accounts 
to ensure the most efficient use of taxpayer dollars spent on national 
security priorities. The traditional distinctions between the 
Development Assistance (DA), Democracy Fund (DF), Assistance to Eastern 
Europe and Central Asia (AEECA), and the Economic Support Fund (ESF) 
accounts are artificial and reduce programming flexibility 
unnecessarily. This streamlining would allow the State Department and 
USAID to assess, prioritize, and target development and economic-
related activities in the context of broader U.S. strategic objectives 
and partnerships.

    Question. The President's FY20 budget request, once again proposes 
zeroing out the Development Assistance, the Economic Support Fund, 
Assistance to Eastern Europe, Central Asia (AEECA), Complex Crises 
Fund, and the Democracy Fund into a new Economic Support and 
Development Fund (ESDF) account. The President's Budget Request 
provided a legislative request that legally consolidates these 
accounts, but provides no description for why this consolidation 
necessary or beneficial, let alone a description of the policies that 
would govern this new program. All we have to go on, is the vague 
regurgitated description of the ESDF: ``prioritizes and focuses foreign 
assistance in regions and on programs that advance our national 
security and protect the American people, promote U.S. prosperity and 
economic opportunities, and advance American interests and values 
around the world.'' Does the State Department and USAID believe it had 
the discretion to do the consolidation without expressed authority from 
congress? If not, does the State Department and USAID intend to submit 
to Congress a legislative proposal to establish the ESDF?

    Answer. The FY 2020 request includes a proposal to create the ESDF 
account, including proposed legislative text for a new ESDF 
appropriation that we ask Congress to include in the Department of 
State, Foreign Operations, and Related Programs Appropriations Act, 
2020.

    Question. The President's FY20 budget request, once again proposes 
zeroing out the Development Assistance, the Economic Support Fund, 
Assistance to Eastern Europe, Central Asia (AEECA), Complex Crises 
Fund, and the Democracy Fund into a new Economic Support and 
Development Fund (ESDF) account. The President's Budget Request 
provided a legislative request that legally consolidates these 
accounts, but provides no description for why this consolidation 
necessary or beneficial, let alone a description of the policies that 
would govern this new program. All we have to go on, is the vague 
regurgitated description of the ESDF: ``prioritizes and focuses foreign 
assistance in regions and on programs that advance our national 
security and protect the American people, promote U.S. prosperity and 
economic opportunities, and advance American interests and values 
around the world.'' Since Congress rejected this proposal in both the 
FY18 and FY19 omnibus appropriations act, and yet the proposal 
continues to be a part of the Budget Request, what efforts do you 
intend to make to convince Congress to authorize the Economic Support 
and Development Fund?

    Answer. The Department of State and USAID continue to request and 
urge Congress to include the streamlining of these accounts and the 
creation of the ESDF account in the FY 2020 appropriations act. We have 
briefed committee staff on the proposal and will continue to answer 
questions from Congressional staff on the proposal to address any 
concerns.

    Question. The President's FY20 budget request, once again proposes 
zeroing out the Development Assistance, the Economic Support Fund, 
Assistance to Eastern Europe, Central Asia (AEECA), Complex Crises 
Fund, and the Democracy Fund into a new Economic Support and 
Development Fund (ESDF) account. The President's Budget Request 
provided a legislative request that legally consolidates these 
accounts, but provides no description for why this consolidation 
necessary or beneficial, let alone a description of the policies that 
would govern this new program. All we have to go on, is the vague 
regurgitated description of the ESDF: ``prioritizes and focuses foreign 
assistance in regions and on programs that advance our national 
security and protect the American people, promote U.S. prosperity and 
economic opportunities, and advance American interests and values 
around the world.'' Is it your intention, that under the ESDF to 
apportion and obligate funds so that they ``only go to our friends'' as 
the President suggested in his 2018 State of the Union and at the U.N. 
General Assembly in 2018?

    Answer. I believe Americans benefit from sustained engagement with 
the rest of the world that serves both U.S. interests and those of our 
allies. The FY 2020 budget request, including funds requested for ESDF, 
prioritizes supporting key U.S. partners and allies through strategic, 
selective investments that enable the United States to retain its 
position as a global leader. At the same time, it relies on other 
nations to make greater proportionate contributions toward shared 
objectives.

    Question. The Washington Post has consistently reported on White 
House efforts to undermine the utilization of climate science and 
accounting for the effects of climate change in national security 
planning and analysis. Do you believe that the effects of climate 
change complicate or increase risks to national security?

    Answer. The 2018 Worldwide Threat Assessment put together by the 
U.S. Intelligence Community identifies impacts that climate change 
could have on national security. Specifically, the assessment notes 
that climate change is likely to fuel economic and social discontent, 
and that extreme weather events in a warmer world have the potential 
for greater impacts and compound with other drivers to raise risks.

    Question. Do you believe that the effects of climate change, which 
include sea level rise, extreme draught, and decreased agricultural 
production due to growing natural resource scarcity, increase security 
risks and contribute to instability and fragility around the world?

    Answer. The 2018 Worldwide Threat Assessment put together by the 
U.S. Intelligence Community identifies impacts that climate change 
could have on national security. Specifically, the assessment notes 
that climate change is likely to fuel economic and social discontent, 
and that extreme weather events in a warmer world have the potential 
for greater impacts and compound with other drivers to raise risks.

    Question. What reasons are there for our national security agencies 
to discount, disregard or question the significance or utilization of 
this information, data, and analysis? Should our national security 
apparatus?

    Answer. National security agencies should analyze and take into 
account all information and factors that could affect national 
security.

    Question. Did you, or a designee from the State Department, 
participate in a White House Situation Room meeting on February 22nd? 
Will you, or the State Department designee, that participated in the 
February 22nd White House situation room meeting on climate change and 
national security brief the committee on this meeting?

    Answer. I am not in a position to comment on internal policy 
deliberations, including participation and topics of discussions at 
specific meetings.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate Report.'' I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: ``If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law.'' Is 
supporting the development of renewable energy abroad and helping 
countries facing very real safety, security, and stability threats 
posed by the effects of climate change ``consistent with administration 
policy?''

    Answer. The United States remains engaged on the issue of climate 
change to advance and protect U.S. interests, including by working with 
other countries to reduce greenhouse gas emissions and enhance 
resilience in ways that drive innovation and produce market-friendly 
solutions. We continue to work with other countries through bilateral 
engagement and cooperation to promote access to energy that also 
promotes a clean and healthy environment.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate Report.'' I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: ``If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law.'' What 
``applicable law'' is this response referring to? Are there laws, other 
than P.L. 116-6, that the State Department, or USAID, would apply with 
respect to obligating and expending funds appropriated in enacted 
legislation (in this case H.J. Res. 31, i.e. P.L. 116-6)?

    Answer. The State Department and USAID review all planned 
assistance to ensure it is provided in accordance with applicable laws 
related to the obligation and expenditure of funds. For FY 2019 foreign 
assistance funding, this would include, for example, relevant 
provisions of the Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2019 (Div. F, P.L. 116-6), the Foreign 
Assistance Act of 1961 and other foreign assistance authorities, and 
other provisions of law relevant to the planned assistance.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: "The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled "Funding for 
Environment and Energy Programs" in the Senate Report." I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: "If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law." Are there 
laws, other than P.L. 116-6, that the State Department, or USAID, would 
apply with respect to obligating and expending funds appropriated in 
enacted legislation (in this case H.J. Res. 31, i.e. P.L. 116-6)?

    Answer. The State Department and USAID review all planned 
assistance to ensure it is provided in accordance with applicable laws 
related to the obligation and expenditure of funds. For FY 2019 foreign 
assistance funding, this would include, for example, relevant 
provisions of the Department of State, Foreign Operations, and Related 
Programs Appropriations Act, 2019 (Div. F, P.L. 116-6), the Foreign 
Assistance Act of 1961 and other foreign assistance authorities, and 
other provisions of law relevant to the planned assistance.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate Report.'' I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: ``If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law.'' Do you 
believe that the reference in Sec. 7019(a) of H.J. Res 31 that reads 
``Subject to subsection (b), funds appropriated by this Act under 
titles III through V shall be made available in the amounts 
specifically designated in the respective tables included in the joint 
explanatory statement accompanying this Act.''

    Answer. The State Department and USAID take into account 
Congressional directives when developing funding allocations, including 
information included in the Joint Explanatory Statement that 
accompanies the annual State, Foreign Operations, and Appropriations 
Act (SFOAA). The Department of State and USAID will consult with and 
notify Congress of deviations from the allocations in the Environment 
Programs table and other tables in the Joint Explanatory Statement as 
appropriate, consistent with requirements in the FY 2019 appropriations 
act including section 7019.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate Report.'' I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: ``If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law.'' Does the 
State Department consider the reference in Sec 1079(a) of H.J. Res. 31 
(P.L. 116-6) to the joint explanatory statement, which does not include 
an explicit reference in its tables to renewable energy programs and 
adaptation, but does explicitly state that the ``conference agreement 
supports funding for renewable energy and adaptation programs as 
specified in the table entitled `Funding for Environment and Energy 
Programs' in the Senate Report'' sufficient to meet the Department's 
definition of ``applicable law?''

    Answer. The State Department and USAID take into account 
Congressional directives when developing funding allocations, including 
information included in the Joint Explanatory Statement that 
accompanies the annual State, Foreign Operations, and Appropriations 
Act (SFOAA). The Department of State and USAID will consult with and 
notify Congress of deviations from the allocations in the Environment 
Programs table and other tables in the Joint Explanatory Statement as 
appropriate, consistent with requirements in the FY 2019 appropriations 
act including section 7019.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate Report.'' I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: ``If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law.'' Will you 
support implementing Congress's clear intention in H.J. Res. 31 (P.L. 
116-6) spending legislation, particularly with respect to supporting 
funding for renewable energy and adaptation programs specified in the 
Joint Explanatory Statement?

    Answer. The State Department and USAID take into account 
Congressional intent when developing funding allocations, including 
information included in the Joint Explanatory Statement that 
accompanies the annual State, Foreign Operations, and Appropriations 
Act (SFOAA). The Department of State and USAID are in the process of 
developing FY 2019 funding allocations. No decision has been made at 
this time on specific FY 2019 funding allocations, including funding 
for renewable energy and adaptation programs. The Department of State 
and USAID will consult with and notify Congress of deviations from the 
allocations in the Environment Programs table and other tables in the 
Joint Explanatory Statement as appropriate, consistent with 
requirements in the FY 2019 appropriations act including section 7019.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate Report.'' I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: ``If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law.'' Will you 
instruct the F bureau, to ensure the State Department obligates and 
expends the funds related to renewable energy and adaptation programs 
in accordance with H.J. Res 31 which includes legal references to 
expend in accordance with the Joint Explanatory Statement?

    Answer. The State Department and USAID take into account 
Congressional intent when developing funding allocations, including 
information included in the Joint Explanatory Statement that 
accompanies the annual State, Foreign Operations, and Appropriations 
Act (SFOAA). The Department of State and USAID are in the process of 
developing FY 2019 funding allocations. No decision has been made at 
this time on specific FY 2019 funding allocations, including funding 
for renewable energy and adaptation programs. The Department of State 
and USAID will consult with and notify Congress of deviations from the 
allocations in the Environment Programs table and other tables in the 
Joint Explanatory Statement as appropriate, consistent with 
requirements in the FY 2019 appropriations act including section 7019.

    Question. The first sentence of the first paragraph on page 70 of 
the Joint Explanatory Statement for Division F of H.J. Res. 31 (P.L. 
116-6), the FY19 Omnibus Appropriations Bill, says the following: ``The 
conference agreement supports funding for renewable energy and 
adaptation programs as specified in the table entitled ``Funding for 
Environment and Energy Programs'' in the Senate Report.'' I asked Keith 
Krach, the nominee to be the Under Secretary for the Bureau of Economic 
Growth, Energy, and Environment for a commitment to implement 
Congress's clear intent, with respect to the aforementioned paragraph 
on page 70 of the Joint Explanatory Statement for Division F of H.J. 
Res. 31. I received the following cryptic response: ``If confirmed, I 
will work to ensure that all funds are implemented in a manner that is 
consistent with administration policy and applicable law.'' Will you 
ensure that these sums are obligated as intended, and not applied to 
existing spending or otherwise double-counted?

    Answer. The Department of State and USAID are in the process of 
developing FY 2019 funding allocations. No decision has been made at 
this time on specific FY 2019 funding allocations, including funding 
for renewable energy and adaptation programs. The Department of State 
and USAID will consult with and notify Congress of deviations from the 
allocations in the Environment Programs table and other tables in the 
Joint Explanatory Statement as appropriate, consistent with 
requirements in the FY 2019 appropriations act.

    Question. As the relationship with Turkey continues to deteriorate, 
how would you characterize the strategic importance of Greece and 
Cyprus to U.S. interests in the region?

    Answer. Greece and the Republic of Cyprus are democracies, EU 
member states, and key partners in a strategically important region. 
Greece is a long-standing NATO Ally. Both Greece and the Republic of 
Cyprus have important roles in enhancing peace, stability, and 
prosperity in the Eastern Mediterranean. There is a need for us to do 
more with these two countries, especially as external actors like 
Russia, Iran, and China pose challenges to the norms and institutions 
that undergird security and prosperity in the region. The 
administration is actively working to strengthen our relations with 
these two countries across a wide spectrum of issues, including 
security and defense, business and trade, and energy diversification.

    Question. What can the U.S. specifically do to leverage our 
relations with those countries to hedge against a deteriorating Turkey 
relationship as well as increased Russian and Chinese influence in the 
region?

    Answer. I attended the March 20 Greece-Cyprus-Israel trilateral 
summit in Jerusalem, where we affirmed our shared vision for a peaceful 
and prosperous region. The United States is elevating our relationship 
with Greece under the framework of the U.S.-Greece Strategic Dialogue 
and reasserting our presence in northern Greece, building off the 
U.S.'s role as the honored country at the 2018 Thessaloniki 
International Fair. We are working to strengthen security and energy 
cooperation with the Republic of Cyprus. These efforts will focus on 
combatting terrorism, money laundering, and illicit finance and 
improving maritime security, while supporting Cypriot-led, U.N.-
facilitated negotiations to reunite the island as a bi-zonal, bi-
communal federation.

    Question. In his hearing before the Senate Appropriations 
Committee, Secretary Pompeo stated that the Northern Triangle 
governments will need to take specific steps before the U.S. reinstates 
its assistance programs. Can you please identify exactly what steps the 
Secretary wants the Governments of El Salvador, Guatemala and Honduras 
to take?

    Answer. Illegal immigration from the Northern Triangle to the 
United States continues to increase, contributing to the humanitarian 
and security crisis at our southern border. We need to see these 
countries make greater efforts to stem illegal immigration. The 
Department urges the Northern Triangle governments to do more to 
increase border security; combat migrant smuggling and trafficking in 
persons, especially related to children; receive returned citizens; and 
dissuade illegal immigration. We also urge these governments to improve 
citizen security and economic growth, attract foreign investment to 
create jobs, and address corruption and impunity by strengthening 
governance and judicial capacity to increase accountability and deter 
crime.

    Question. In a phone call on April 9, Senate Foreign Relations 
Committee staff asked for the unobligated balances report for FY 2018 
and FY 2017 for funding destined for El Salvador, Guatemala and 
Honduras. The State Department agreed to provide this information. Can 
you please provide this information? Please break this funding down by 
account (i.e. ESF, DA, INCLE, etc).

    Answer. All FY 2017 funds for El Salvador, Guatemala, and Honduras 
have been obligated. Approximately $440.7 million in bilateral and 
regional FY 2018 funds for these countries has not been obligated, 
including $126.7 million in INCLE, $78 million in ESF, $223 million in 
DA, and $13 million in GHP. These levels exclude funding for global 
programs implemented by functional and pillar bureaus.

    Question. Can the State Department please provide the Senate 
Foreign Relations Committee with the unobligated balances report for FY 
2016 and FY 2015 funding destined for El Salvador, Guatemala, and 
Honduras? Please break this funding down by account (i.e. ESF, DA, 
INCLE, etc).

    Answer. All FY 2015 and FY 2016 funds for El Salvador, Guatemala, 
and Honduras have been obligated.

    Question. In a phone call on April 9, Senate Foreign Relations 
Committee staff asked for a description of the parameters being used 
for the State Department's ongoing review of FY 2017 funding for El 
Salvador, Guatemala, and Honduras. The State Department agree to 
provide this information. Can you please provide this information?

    Answer. FY 2017 foreign assistance-funded activities that were 
already planned or paid for under existing awards continue during the 
review period, but no new activities are to be initiated. Last year, 
the Department and USAID obligated $505 million in bilateral and 
regional FY 2017 foreign assistance for the Northern Triangle. The 
review includes about $225 million on existing foreign assistance 
funded grants, contracts, and other agreements. This level does not 
include centrally managed resources implemented by State and USAID 
functional/pillar bureaus, which are part of the review. I may redirect 
up to $280 million of the remaining bilateral and regional FY 2017 
funds to other foreign policy priorities.

    Question. In an April 9 phone call, the State Department mentioned 
that there are approximately $450 million in unobligated FY 2018 funds 
for El Salvador, Guatemala and Honduras that State intends to 
reprogram. Is this correct?

    Answer. Yes. I am planning to redirect more than $400 million in FY 
2018 funds allocated for bilateral and regional programs in the 
Northern Triangle to other foreign policy priorities. This total 
excludes centrally managed resources implemented by State and USAID 
functional/pillar bureaus, but which we are also redirecting away from 
the Northern Triangle.

    Question. In an April 9 phone call, the State Department mentioned 
that there are approximately $12 million in obligated FY 2018 funds for 
El Salvador, Guatemala and Honduras. Is this correct? Can you provide 
clarity on what that $12 million was obligated for and what State 
intends to do with those funds?

    Answer. Yes. Approximately $12 million in FY 2018 Foreign Military 
Financing (FMF) and International Military Education and Training 
(IMET) funds were obligated prior to the President's decision.

    Question. In an April 9 phone call, the State Department mentioned 
that that it will continue to assign FY 2019 funding for El Salvador, 
Guatemala and Honduras during the ongoing 653(a) process. Is this 
correct?

    Answer. I expect the Northern Triangle governments to keep their 
commitments to stem illegal immigration to the United States. I hope 
these actions take place in time for them to be factored into FY 2019 
programming decisions. Absent sufficient actions, I will consider 
reallocating the FY 2019 funding to other foreign policy priorities, 
consistent with applicable requirements.

    Question. In an April 9 phone call, the State Department informed 
Senate Foreign Relations Committee staff that it will continue to 
advocate for its FY 2020 budget for Central America, including funding 
for El Salvador, Guatemala and Honduras. Is this correct?

    Answer. I expect the Northern Triangle governments to keep their 
commitments to stem illegal immigration to the United States. I hope 
these actions take place in time for them to be factored into FY 2019 
programming decisions. Absent sufficient actions, I will consider 
reallocating the FY 2019 funding to other foreign policy priorities, 
consistent with applicable requirements.

    Question. Will the State Department seek to reprogram FY 2018, FY 
2017, FY 2016 and/or FY 2015 regional funds for Central America, 
including but not limited to regional funds such as the Central America 
Region Security Initiative (CARSI), so that none of these regional 
funds are used in El Salvador, Guatemala and Honduras?

    Answer. The foreign assistance review for the Northern Triangle 
includes bilateral and regional (CARSI and CAMRI--Central America 
Maritime Regional Initiative) assistance as well as resources 
implemented by State and USAID functional/pillar bureaus. Last year, 
the State Department and USAID obligated $505 million in bilateral and 
regional FY 2017 foreign assistance for the Northern Triangle. The 
review encompasses $225 million on existing grants and contracts. I may 
redirect up to $280 million of the remaining FY 2017 funds to other 
foreign policy priorities. I plan to redirect more than $400 million in 
FY 2018 bilateral and regional funds allocated for programs in the 
Northern Triangle to other priorities.

    Question. As part of its review of FY 2017 funding for El Salvador, 
Guatemala and Honduras, can the State Department please provide the 
Senate Foreign Relations Committee with a list of all pending 
subobligations, obligated subobligations, and a description of the 
Department's intent regarding obligated and unobligated subobligations?

    Answer. A review of all Department of State and USAID FY 2017 
foreign assistance funding on current agreements and awards began April 
3. This review is intended to provide detailed data that will be used 
to determine the best way forward pursuant to the President's 
direction. Last year, the Department and USAID obligated $505 million 
in bilateral and regional (CARSI and CAMRI) FY 2017 assistance for the 
Northern Triangle. The review encompasses $225 million in FY 2017 
bilateral and regional funding on existing grants and contracts. This 
total excludes resources implemented by State and USAID functional/
pillar bureaus, also subject to the review. I may redirect up to $280 
million of the remaining FY 2017 funds to other priorities.

    Question. Does the Department of State view corruption as a problem 
in Central America, and does it acknowledge that corruption and 
impunity are driving migration to the United States? If so, how does 
the Department of State plan to mitigate it? Does the Department plan 
on taking a stronger stand against corruption in Guatemala and Honduras 
as those countries' government seek to undermine efforts by the 
international community to combat malfeasance?

    Answer. Systemic corruption and impunity in the Northern Triangle 
are among the foremost challenges these countries face. Corruption and 
impunity contribute to illegal immigration to the United States by 
undermining economic growth and development, weakening rule of law, and 
facilitating transnational crime. The Department supports the fight 
against corruption in the Northern Triangle by helping to strengthen 
government institutions by mentoring prosecutors, training law 
enforcement, and providing other technical assistance. I will continue 
to press these governments to take concrete actions to combat 
corruption and impunity and improve democratic governance.

    Question. Section 2 of P.L. 115-335 established the sense of 
Congress regarding a negotiated solution to the current crisis in 
Nicaragua. What specific steps has the State Department taken to 
advance to these aims since the legislation was signed into law.

    Answer. Credible negotiations that include Nicaragua's civil 
society, student movement, private sector, political opposition, and 
the Catholic Church represent the best opportunity for a peaceful 
solution to the crisis in Nicaragua. The Ortega regime's failure to 
negotiate in good faith is the primary obstacle to progress. The 
Department has consistently condemned the regime's repression and 
called for accountability for human rights abuses and violations. We 
are working with international partners and leveraging economic and 
diplomatic tools to support the Nicaraguan people's pressure on the 
Ortega regime to reach a solution that includes early, free, and fair 
elections, the cessation of violence, and investigations into the 
killings of protestors.

    Question. Section 3 of P.L. 115-335 codified U.S. policy towards 
Nicaragua. What specific steps has the State Department take to advance 
these policies since the legislation was signed into law.

    Answer. Core components of the Department's Nicaragua policy 
include helping Nicaraguans restore democratic rule through transparent 
elections with credible observation, reestablish the rule of law, and 
bolster anti-corruption and transparency efforts. Our Embassy in 
Managua has supported the democratic, transparent demands of the Civic 
Alliance in its negotiations with the Ortega regime. We reiterate our 
support for the Civic Alliance and the Nicaraguan people in their quest 
to restore democracy through peaceful means, and believe that 
Nicaraguans deserve to have a government that respects their human 
rights and fundamental freedoms.

    Question. Section 4 of P.S. 115-335 codified U.S. actions with 
regard to lending at multilateral institutions for Nicaragua. Since the 
legislation was signed into law, what steps has the State Department 
taken to support implementation of these provisions?

    Answer. The Department has continued its efforts to review on a 
case-by-case basis international financial institutions' proposed loans 
to Nicaragua. In conjunction with international partners in these 
institutions, the Department has worked to scrutinize and limit 
international financial support to Nicaragua as long as the Ortega 
regime continues to repress its citizens. We will continue to work with 
the Department of the Treasury to ensure international financial 
institutions are enforcing program safeguards in Nicaragua. Since April 
2018, international financial institutions including the World Bank, 
Inter-American Development Bank, and International Monetary Fund have 
not approved any new loans to the central government of Nicaragua.

    Question. Section 5 of P.S. 115-335 codified targeted sanctions on 
individuals involved in undermining democratic institutions, corruption 
and human rights. Since the legislation was signed into law, what steps 
has the State Department taken to support implementation of these 
provisions?

    Answer. The State Department continues to expose and promote 
accountability for those responsible for corruption and human rights 
abuses associated with the violence and intimidation campaign in 
Nicaragua, including through financial sanctions. We work closely with 
our international and regional partners to monitor the situation and 
promote democratic solutions. The State Department also continues to 
impose visa restrictions against officials responsible for or complicit 
in undermining democracy in Nicaragua.

    Question. How does the Department plan to respond to attacks on 
human rights and free speech in Nicaragua?

    Answer. Through public statements and coordination with 
international partners, the Department will continue condemning the 
violence perpetrated by the Nicaraguan government and its proxies. We 
will also continue to support and utilize targeted visa restrictions 
and other tools, including economic sanctions, against those persons 
responsible for human rights abuses and undermining democracy, and 
encourage the regime's supporters to break with Ortega. We continue to 
engage with and support activists, including independent investigative 
journalists and human rights defenders, to increase their capacity to 
document human rights violations and advocate in regional and 
international fora.

    Question. How is the State Department working to combat illicit 
gold mining in countries like Peru and Colombia?

    Answer. The Department has been working with governments in Latin 
America to combat illicit gold mining, including completing MOUs with 
Peru in 2017 and with Colombia in 2018. Embassy Lima's Illegal Mining 
Working Group coordinates technical assistance activities in 
collaboration with Peruvian agencies to help legal miners meet Peru's 
environmental and labor laws, while also helping enforcement efforts 
against illegal mining including through training of police, 
prosecutors, and judges. Similarly, Embassy Bogota provides training 
and equipment and builds institutional capabilities in the police, 
armed forces, office of the attorney general, and judicial institutions 
to detect, investigate, and prosecute environmental crimes.

    Question. Congress appropriated $15 million in ESF for Venezuela 
for FY 2018 and $17.5 million in ESF for FY 2019. These programs 
provide essential funding to support democratic actors inside Venezuela 
at a time of grave political, economic and humanitarian crisis inside 
the country. Alarmingly, however, the administration's budget for FY 
2020 only requests $9 million for these programs. Why is the 
administration cutting support from the levels previously provided by 
Congress? Does the administration believe that democratic actors in 
Venezuela do not need more support at this critical moment of crisis?

    Answer. Foreign assistance was reduced globally in the 
administration's FY 2020 budget request, and Venezuela was not singled 
out. The administration requests authority in the budget to transfer up 
to $500 million to support a democratic transition in Venezuela, and 
the FY 2020 request for assistance to Venezuela reflects the need for 
flexibility and agility given the rapidly changing situation in the 
country. The Department is working to ensure we will have an effective 
response in a post-Maduro time, as the road to rebuilding Venezuela 
will be long and difficult.

    Question. As was affirmed in the briefing provided by the State 
Department for the Senate Foreign Relations Committee on the 
Administration's FY 2020 budget, the $500 million budget transfer limit 
for Venezuela does not constitute an actual request for funding by the 
administration. Please explain why the administration did not request 
actual humanitarian, economic, and development funding to address the 
humanitarian crisis in Venezuela and its impact on surrounding 
countries.

    Answer. The FY 2020 budget request provides flexibility to make 
additional funds available to support a peaceful democratic transition 
in Venezuela and respond to related needs in the region. This includes 
authority to transfer up to $500 million between foreign assistance 
accounts to support a whole of government response. The United States 
continues to monitor the situation closely. Since FY 2017, the United 
States has provided more than $256 million for the regional response to 
the crisis in Venezuela, including more than $213 million in 
humanitarian assistance and approximately $43 million in development 
and economic assistance.

    Question. Venezuela's widespread humanitarian crisis has prompted 
more than 3 million Venezuelan migrants to flee their country and, in 
turn, has placed significant strain on neighboring countries. What is 
your assessment of the ability of countries in the region to manage 
massive influx of Venezuelan refugees?

    Answer. The United States remains deeply concerned about the impact 
of the current situation in Venezuela, as more than 3.7 million 
Venezuelan refugees strain the resources and health and education 
systems in host countries throughout our hemisphere. These governments 
have taken important steps to coordinate a regional response to this 
crisis and ensure a coherent response, but many governments are 
becoming increasingly overwhelmed. Since FY 2017, the United States has 
dedicated over $256 million in humanitarian and development assistance, 
of which over $213 million is humanitarian assistance, to complement 
the efforts of countries in the region and to mitigate the effects of 
hosting Venezuelans with food, health, and other emergency assistance.

    Question. Venezuela's widespread humanitarian crisis has prompted 
more than 3 million Venezuelan migrants to flee their country and, in 
turn, has placed significant strain on neighboring countries. What is 
your assessment of the financial needs to appropriately address the 
impact of the Venezuelan migration and refugee crisis on the 
surrounding countries?

    Answer. The United States remains concerned about the regional 
impact of the current situation in Venezuela. Countries in the region 
have been extraordinarily generous hosts for millions of Venezuelans, 
but the burden has become increasingly overwhelming. Since FY 2017, the 
United States has provided more than $256 million in life-saving 
humanitarian and development assistance, of which over $213 million is 
humanitarian assistance, for Venezuelans to complement the efforts of 
host countries. We are continually assessing the needs of Venezuelans, 
and we are scaling up humanitarian assistance to meet those needs and 
reduce the impact of the crisis on both Venezuelans and the countries 
that generously host them.

    Question. During his appearance before the Senate Foreign Relations 
Committee, the Secretary stated that the State Department had demarched 
numerous countries with the request to impose some form of sanctions on 
the Government of Venezuela. Please provide a list of all of the 
countries that the administration has demarched with this request.

    Answer. The Department of State has demarched more than 60 
countries to request the imposition of some form of sanctions (e.g. 
travel restrictions, freezing assets, blocking property) on the former 
Maduro regime. Due to the constantly evolving nature of demarches 
coming from many different places, the list is fluid. We continue to 
reach out to a dynamic list of partners across the globe to jointly 
address the political, economic, and humanitarian crisis in Venezuela.

    Question. During his appearance before the Senate Foreign Relations 
Committee, the Secretary stated that the State Department was 
considering planning a donors' summit to raise funding to address the 
humanitarian crisis in Venezuela and its impact on the surrounding 
countries. When does the State Department intend to help convene such a 
meeting? Is the State Department planning to coordinate with a 
multilateral institution to convene such a meeting? If so, which 
one(s)?

    Answer. The Department of State supported the Global Conference on 
the Humanitarian Crisis in Venezuela, which was convened at the 
Organization of American States by interim President Juan Guaido on 
February 14, 2019. Approximately 270 participants attended, and the 
Guaido government welcomed humanitarian pledges for Venezuela and its 
people in presentations made by representatives from Germany ($28 
million), the Netherlands (USD $10.6 million), Canada (USD $39.6 
million), the United Kingdom ($8.4 million), Taiwan ($500,000), and the 
United States ($160 million), emphasizing funding previously announced 
publicly by these governments.
    We are assisting the Guaido government on implementation of these 
pledges; so far, U.S. partners are routing their donations through 
existing international and non-governmental organizations active in 
Venezuela's crisis response. We will consider additional development 
conferences as appropriate.

    Question. In February, the Organization of American States held a 
pledge conference to raise support to address the humanitarian crisis 
in Venezuela. Please provide a list of the pledges made, itemized by 
country and the respective amount.

    Answer. Approximately 270 participants attended, and the Guaido 
government welcomed humanitarian pledges for Venezuela and its people 
in presentations made by representatives from Germany ($28 million), 
the Netherlands (USD $10.6 million), Canada (USD $39.6 million), the 
United Kingdom ($8.4 million), Taiwan ($500,000), and the United States 
($160 million), emphasizing funding previously announced publicly by 
these governments.

    Question. For nearly a decade, Congress has annually appropriated 
$20 million to support democratic actors and independent civil society 
in Cuba. However, in FY 2019, the administration only requested $10 
million for these programs. And, in FY 2020, the administration only 
requested $6 million for these programs. Why is the administration 
cutting funding support from the levels previously appropriated by 
Congress? Does the administration believe that democratic actors in 
Cuba do not need more support?

    Answer. The administration's FY 2020 budget request would reduce 
foreign assistance globally and did not single out specific countries 
such as Cuba. The FY 2020 request provides a sustainable level of 
funding for democracy support. Advancing democracy and human rights in 
Cuba remains the administration's priority through U.S foreign 
assistance to Cuba, and we are committed to ensuring U.S. democracy 
assistance in Cuba achieves results.

    Question. What exactly is the Department doing to determine the 
source of the injuries against U.S. personnel attacked in Havana? What 
additional resources does the Department need to adequately determine 
this?

    Answer. Through the Department-led Health Incidents Response Task 
Force, we are coordinating with the interagency to investigate the 
cause and source of the injuries. We requested the Centers for Disease 
Control and Prevention conduct an epidemiological investigation of the 
events in Havana. The National Institutes of Health is conducting a 
clinical study of individuals who were in Havana to better understand 
the clinical issues surrounding the events. The Department has also 
requested the National Academy of Sciences arrange meetings and that 
committees be formed of experts who can review the information 
available and provide guidance to better understand and determine what 
may have caused the health effects we have observed in the patients 
from Cuba.

    Question. What steps is the Department taking to determine the 
appropriate ongoing care for those affected by Havana Syndrome? How 
does the Department plan to care for those injured in Havana if they 
suffer long-term disabilities? Does the State Department have 
sufficient authorities to provide ongoing and long-term care to 
personnel affected?

    Answer. We have encouraged all those who were injured in Havana to 
apply for workers' compensation under the Federal Employees' 
Compensation Act (FECA). FECA is the exclusive remedy for Federal 
employees injured in the performance of duty and is administered by the 
Department of Labor. While their cases are being evaluated by Labor, we 
have continued to provide secondary payer benefits for up to 1 year 
starting from the date of their initial medical evaluation. The 
Department continues to review its current authorities to ensure 
affected personnel are covered in the long-term.

    Question. How is the Department ensuring that personnel are 
regularly updated on progress regarding ongoing investigations about 
the cause of these injuries, and what the risks are to those posted 
overseas?

    Answer. The Department of State has shared information and policy 
guidance to all U.S. diplomatic posts abroad and made similar 
information available to U.S. citizens regarding the unidentified 
health incidents. All medical providers who serve our overseas 
population have been trained in performing the appropriate care and 
screening and receive updated information on this priority issue. We 
have developed screening protocols for individuals that report similar 
symptoms and have in place baseline screening for those going to Havana 
in the future. A MED Health Alert Response Team has been set up within 
the Department and is available for consultation if any events are 
reported overseas.

    Question. Why has the State Department not permitted the victims of 
the attacks against U.S. personnel in Havana to see the summary of the 
Accountability Review Board report?

    Answer. The Department understands the interest of the victims of 
the attacks in reviewing the summary of the Accountability Review Board 
(ARB) report. The Department remains committed to responding to their 
concerns and providing them with updated information. The 
investigations into sensitive aspects of the issue are ongoing. The 
summary addresses aspects of the ongoing investigation. The Department 
cannot provide a classified briefing on the report to the affected 
individuals while an investigation is ongoing. The Department has 
communicated this to the affected individuals.

    Question. What is the Department of State doing to protect U.S. 
personnel from similar attacks in the future?

    Answer. The Department-led Health Incidents Response Task Force 
(HIRTF), led by the Deputy Secretary, continues to work closely with 
interagency partners on the criminal and technical investigations to 
determine the cause and source of the attacks. Specific to Embassy 
Havana, the Department has consolidated housing to provide additional 
setback and deployed sensors to detect possible causes and 
environmental factors. Through the HIRTF, the Department is working 
with the interagency to explore additional protective countermeasures 
as the investigation into the cause of these attacks continues.

    Question. While the current Government of Brazil is playing an 
important role in international efforts to restore democracy in 
Venezuela, what concerns does the Department of State have regarding 
the state of human rights, civil society, and the environment in Brazil 
at this point in time?

    Answer. Brazil has been cooperative on policies that are in the 
interest of the United States, including by joining the United States 
in recognizing interim President Guaido in Venezuela. Nevertheless, as 
noted in the 2018 Human Rights Reports and the 2018 Trafficking in 
Persons Report, issues of concern in Brazil include reports of unlawful 
or arbitrary killings by state police; harsh and sometimes life-
threatening prison conditions; violence against journalists; corruption 
by officials; killings of human rights defenders; and human 
trafficking. The Department routinely encourages Brazil to protect and 
promote the human rights of its citizens.

    Question. Does the State Department believe that President 
Bolsonaro is taking steps to improve protections for human rights, 
civil society organizations, and the environment?

    Answer. I am aware of troubling comments that President Bolsonaro 
has made in the past; however, I note President Bolsonaro's stated 
commitment to uphold Brazil's strong democratic institutions and to 
serve all Brazilians, no matter their background. Brazil engages 
actively with the Department in bilateral discussions on issues of 
equality in venues such as the annual human rights working group 
discussions with Brazil's Department of Human Rights. Should we find 
that the Brazilian government falls short in the area of human rights 
or the environment, we will certainly raise our concerns with them.

    Question. What is the State Department's assessment of President 
Bolsonaro's draft legislative decree to monitor the work of civil 
society organizations?

    Answer. The Department is currently reviewing the draft legislation 
to assess its implications.

    Question. Since January 2019, the Trump administration has been 
sending asylum seekers from San Diego back into Tijuana, Mexico to wait 
for the duration of their court proceedings. In March, the 
administration announced that it would expand the ``Remain in Mexico'' 
plan to asylum seekers in El Paso, Texas. However, details on the 
Remain in Mexico plan, known officially as the Migration Protection 
Protocols, remain murky. For instance, while the Mexican government has 
said this is a ``unilateral policy'' the plan was rolled out in Tijuana 
and it appeared that Mexican authorities were cooperating with their 
U.S. counterparts. What role does the Mexican government play in this 
policy? Was there an agreement signed prior to the roll out of this 
policy in Tijuana? If so, who were the specific U.S. and Mexican 
officials that signed this agreement?

    Answer. The decision to apply the Migrant Protection Protocols 
(MPP) was a unilateral decision by the U.S. government announced on 
December 20, 2018. The Department of Homeland Security is the lead 
agency implementing this policy. There is no formal or signed agreement 
with Mexico. The Department of State engages in ongoing discussions 
with the Government of Mexico to ensure the MPP are implemented 
smoothly on our shared border, but we refer you to DHS for more 
specific details on MPP implementation.

    Question. Since January 2019, the Trump administration has been 
sending asylum seekers from San Diego back into Tijuana, Mexico to wait 
for the duration of their court proceedings. In March, the 
administration announced that it would expand the ``Remain in Mexico'' 
plan to asylum seekers in El Paso, Texas. However, details on the 
Remain in Mexico plan, known officially as the Migration Protection 
Protocols, remain murky. For instance, while the Mexican government has 
said this is a ``unilateral policy'' the plan was rolled out in Tijuana 
and it appeared that Mexican authorities were cooperating with their 
U.S. counterparts. In the absence of a signed agreement, was there a 
verbal agreement reached between the U.S. and Mexico? If so, who were 
the specific U.S. and Mexican officials involved in this agreement?

    Answer. Then-Secretary of Homeland Security Nielsen announced the 
Migration Protection Protocols (MPP) on December 20, 2018. This was a 
unilateral decision by the U.S. government. There is no formal or 
signed agreement with Mexico.

    Question. When will Ambassador Khalilzad brief this committee?

    Answer. Since Ambassador Khalilzad is engaged in complex 
negotiations involving multiple countries, I asked his deputy, 
Ambassador Molly Phee, to brief staff of the Senate Foreign Relations 
Committee on April 5. My understanding is that 17 staff attended her 
comprehensive briefing and were very appreciative of the update on 
reconciliation negotiations they received.

    Question. If not, can you tell us that the administration has 
conveyed to the Taliban in the current negotiations that a rollback in 
the rights of women and minorities is not acceptable?

    Answer. In his discussions with the Taliban, Ambassador Khalilzad 
has vigorously pressed the Taliban to respect the rights of Afghan 
women and minority groups. Consistent with the Women, Peace and 
Security Act of 2017, the United States has also taken the position 
that it is important for Afghan women to join all parties engaged in 
discussions about the country's future--including the Afghan 
government, opposition political figures, civil society leaders and the 
Taliban--so that they can directly convey their priorities and 
concerns. Toward this end, the U.S. government has encouraged the 
launch of intra-Afghan dialogue and negotiations so that Afghan women 
and men can work together to determine the future of their country.

    Question. The Pentagon's decision to halt delivery of equipment 
related to F-35 fighter aircraft to Turkey given Ankara's planned 
purchase of a Russian S-400s is the right approach. The Kremlin is 
moving aggressively to make arms deals with our partners and allies. 
Another example of this is India's $3 billion submarine lease from 
Russia for 10 years--this comes after reports that India plans on 
purchasing Russia's S-400 system. Are you concerned about these 
transactions?

    Answer. These transactions are very concerning. I have repeatedly 
discussed CAATSA in my interactions with Indian officials. We will 
continue to work with India to identify potentially sanctionable 
activity so that they can avoid it and encourage them to reduce 
military purchases from Russia. The U.S.-India defense relationship has 
undergone rapid growth in recent years based on converging security and 
strategic interests between our two nations. The administration is 
working to make sure that India understands the potential sanctions 
consequences of these transactions and takes the steps necessary to 
avoid derailing this growth.

    Question. The Pentagon's decision to halt delivery of equipment 
related to F-35 fighter aircraft to Turkey given Ankara's planned 
purchase of a Russian S-400s is the right approach. The Kremlin is 
moving aggressively to make arms deals with our partners and allies. 
Another example of this is India's $3 billion submarine lease from 
Russia for 10 years--this comes after reports that India plans on 
purchasing Russia's S-400 system. What can the U.S. do to encourage 
India to diminish its security cooperation with the Kremlin?

    Answer. Throughout my interactions with Indian officials, I 
continue to highlight the advantages of defense trade between our two 
nations. This trade benefits the security of both countries. 
Strengthening this relationship, while highlighting Russian shortfalls, 
will encourage India to diminish its defense ties with the Kremlin.

    Question. The December elections were widely reported, included in 
the Department's latest human rights report, as not free, fair or 
credible. The government violently attacked political opponents and 
their supporters in the electoral process, including in the gang rape 
of a woman in which a local Awami League leader was implicated. Last 
summer, Bangladeshi security forces reportedly committed 200 
extrajudicial killings during an ``anti-narcotics'' campaign. Also, 
last year, the government arbitrarily arrested student protestors, 
journalists, and civil society activists during student-led protests 
seeking civil service quota reform and better road safety conditions. 
On April 8, you met with the Foreign Minister of Bangladesh. Did you 
state concern for the rapid decline of human rights and democracy in 
Bangladesh, particularly over the last year?

    Answer. Following Bangladesh's December 30, 2018, election, the 
Department expressed concern in a January 1, 2019, statement that 
``credible reports of harassment, intimidation, and violence in the 
pre-election period'' and ``election-day irregularities prevented some 
people from voting, which undermined faith in the electoral process.'' 
President Trump sent a letter to Prime Minister Hasina further raising 
these concerns, and the Department continues to raise them with 
Bangladesh senior officials. The Department supports calls for an 
independent investigation into the suppression of political opposition, 
their supporters, and journalists as well as other electoral-related 
complaints.

    Question. The December election were widely reported, included in 
the Department's latest human rights report, as not free, fair or 
credible. The government violently attacked political opponents, and 
their supporters in the electoral process, including in the gang rape 
of a woman in which a local Awami League leader was implicated. Last 
summer, Bangladeshi security forces reportedly committed 200 
extrajudicial killings during an ``anti-narcotics'' campaign. Also, 
last year, the government arbitrarily arrested student protestors, 
journalists, and civil society activists during student-led protests 
seeking civil service quota reform and better road safety conditions. 
On April 8, you met with the Foreign Minister of Bangladesh. What 
leverage will you deploy to demonstrate to the government of Bangladesh 
that the negative trajectory has implications for the bilateral 
relationship?

    Answer. Following Bangladesh's December 30, 2018, election, the 
Department expressed concern in a January 1, 2019, statement that 
``credible reports of harassment, intimidation, and violence in the 
pre-election period'' and ``election-day irregularities prevented some 
people from voting, which undermined faith in the electoral process.'' 
President Trump sent a letter to Prime Minister Hasina further raising 
these concerns, and the Department continues to raise them with 
Bangladesh senior officials. The Department supports calls for an 
independent investigation into the suppression of political opposition, 
their supporters, and journalists as well as other electoral-related 
complaints.

    Question. President Sirisena's government has made some progress on 
human rights, but not where it ultimately counts--including 
accountability for war crimes. Instead, the president appointed in 
January 2019 war criminal Major General Shavendra Silva to the post of 
Army Chief of Staff. This does not demonstrate genuine commitment to 
the Human Rights Council Resolution commitments. In light of this, what 
is the U.S. policy on bilateral security cooperation with Sri Lanka?

    Answer. The Department takes all allegations of human rights 
violations or abuses seriously and raises these concerns with the 
Government of Sri Lanka, including when high-level appointments appear 
to conflict with Sri Lanka's commitments. As we have told President 
Sirisena, the appointment of Major General Silva was not in line with 
Sri Lanka's commitment to accountability, justice, and reconciliation. 
The Department's security cooperation policy seeks to promote respect 
for human rights, democratic processes, and the rule of law with Sri 
Lanka's security forces.

    Question. Last week Senator Rubio and I sent a letter to the 
administration urging consideration of the use of Magnitsky to address 
China's repression of the Uighurs in Xinjiang. My understanding is that 
the administration has prepared a package of sanctions . . . centst has 
failed for many months to make designations. Given the clear and 
compelling evidence of Chinese repression--a million people in 
``reeducation camps . . .despread use of high-tech surveillance . . 
..'' Can you tell us why the administration has not implemented 
Magnitsky sanctions on appropriate Chinese officials for the gross 
violations of human rights in Xinjiang?

    Answer. I share your concerns about China's highly repressive 
campaign against Uighurs, ethnic Kazakhs, Kyrgyz, and other members of 
Muslim minority groups. China is in a league of its own when it comes 
to human rights violations and abuses. As I recently said in 
conjunction with the roll-out of the Department's annual Human Rights 
Reports, the Department is leading the international charge to shine a 
spotlight on the scope and scale of this issue, as well as to galvanize 
pressure on China in order to limit or halt its repression. We are 
working hard to promote accountability for those responsible for or 
complicit in human rights abuses in Xinjiang, including by widely 
publicizing what is happening there and through potential economic 
measures.

    Question. Tunisia has upcoming parliamentary and presidential 
elections in October and November 2019, and the stability of Tunisia's 
democracy hinges on the proper execution of these elections. Tunisia 
his historically welcomed not just U.S. dollars, but our unique 
technical assistance in helping develop democratic governing 
institutions. It is critical that we continue to support Tunisia's 
efforts to build democratic institutions and execute free and fair 
elections. Additionally, supporting Tunisia's democracy also merits 
engagement and assistance, including economic development programs. 
Tunisia's economic and political stability is not guaranteed; 
approximately one third of Tunisia's young adults are currently 
unemployed. Additionally, the administration has begun to back away 
from counterterrorism engagement in Africa, which puts at risk the 
hard-fought gains the U.S. has helped drive against ISIS and Al Qaeda 
in the Islamic Maghreb. With rising instability and limited internal 
capacity to deal with militants in both Algeria and Libya, Tunisia will 
likely be in need of more security assistance. Economic and political 
stability will play an important role in upcoming elections. We have an 
important, capable, and willing partner in Tunisia. How does it advance 
our interests or Tunisia's to cut ESF by 25 percent in FY 2020?

    Answer. Americans benefit from sustained engagement with the rest 
of the world that serves both our interests and those of our allies. 
The FY 2020 budget request prioritizes supporting key U.S. partners, 
including Tunisia, through strategic and targeted investments that 
enable the United States to retain its position as a global leader. The 
United States has provided Tunisia with nearly $775 million from the 
Economic Support Fund since 2011, as well as other assistance in areas 
such as rule of law and security. This budget request recognizes the 
importance of other nations contributing toward our shared objectives.

    Question. Tunisia has upcoming parliamentary and presidential 
elections in October and November 2019, and the stability of Tunisia's 
democracy hinges on the proper execution of these elections. Tunisia 
his historically welcomed not just U.S. dollars, but our unique 
technical assistance in helping develop democratic governing 
institutions. It is critical that we continue to support Tunisia's 
efforts to build democratic institutions and execute free and fair 
elections. Additionally, supporting Tunisia's democracy also merits 
engagement and assistance, including economic development programs. 
Tunisia's economic and political stability is not guaranteed; 
approximately one third of Tunisia's young adults are currently 
unemployed. Additionally, the administration has begun to back away 
from counterterrorism engagement in Africa, which puts at risk the 
hard-fought gains the U.S. has helped drive against ISIS and Al Qaeda 
in the Islamic Maghreb. With rising instability and limited internal 
capacity to deal with militants in both Algeria and Libya, Tunisia will 
likely be in need of more security assistance. Conditions on the ground 
in the region are changing for the worse. What is driving the flat 
request for FMF and NADR to Tunisia for FY 2020?

    Answer. Tunisia continues to face threats from al-Qa'ida in the 
Islamic Maghreb (AQIM), the ISIS-affiliated Jund al-Khilafah Tunisia 
(JAK-T), and the potential return of Tunisian foreign terrorist 
fighters from battlefields in Syria, Iraq, and Libya. U.S. and 
international assistance is helping the Tunisian security forces 
improve their capacity and ability to conduct internal and border 
security operations. The FY 2020 NADR and FMF request for Tunisia is 
designed to build on these successes and further develop Tunisia's 
security forces in the areas of air-to-ground joint operations, 
counterterrorism and border security operations, intelligence capacity, 
and defense institution building.

    Question. Tunisia has upcoming parliamentary and presidential 
elections in October and November 2019, and the stability of Tunisia's 
democracy hinges on the proper execution of these elections. Tunisia 
his historically welcomed not just U.S. dollars, but our unique 
technical assistance in helping develop democratic governing 
institutions. It is critical that we continue to support Tunisia's 
efforts to build democratic institutions and execute free and fair 
elections. Additionally, supporting Tunisia's democracy also merits 
engagement and assistance, including economic development programs. 
Tunisia's economic and political stability is not guaranteed; 
approximately one third of Tunisia's young adults are currently 
unemployed. Additionally, the administration has begun to back away 
from counterterrorism engagement in Africa, which puts at risk the 
hard-fought gains the U.S. has helped drive against ISIS and Al Qaeda 
in the Islamic Maghreb. With rising instability and limited internal 
capacity to deal with militants in both Algeria and Libya, Tunisia will 
likely be in need of more security assistance. Why are we zeroing out 
the Trans-Sahara Counter-Terrorism Partnership (TSCTP) funds?

    Answer. In FY 2020, the Department requested $2 million for the 
TSCTP program funding through the new Near East Regional operating unit 
for counterterrorism programming, and requested funding for law 
enforcement and corrections in TSCTP member countries' bilateral 
allocations. The Department remains committed to Tunisia's security and 
will continue to coordinate with the Department of Defense to ensure 
resources are aligned to support Tunisia and stability in North Africa.

    Question. Do you agree that there is a risk for mass atrocities in 
Mali? Does the March attack in Mopti bear the hallmarks of a mass 
atrocity?

    Answer. We are deeply saddened by the reported loss of over 170 
innocent Malians, including women and children, killed on March 23 in 
the central Malian village of Ogoussagou. The Department of State has 
called on the Government of Mali to conduct a full investigation and to 
hold those responsible accountable. We have also urged Malian 
stakeholders to make every effort to stop the cycle of violence and to 
restore peace and security in central Mali. U.S. diplomatic and 
programmatic engagement in Mali will continue to focus attention on 
mitigating risks of mass atrocities.

    Question. What actions and activities can the U.S. support to 
lessen intercommunal tension, and how are such actions funded through 
this budget?

    Answer. We assist Mali in the development of its justice systems, 
countering violent extremism, protecting human rights, and advancing 
agricultural practices, livelihoods, and other development activities. 
We support stability in Mali, particularly through contributions to the 
U.N. peacekeeping mission, and through our efforts to build stronger 
institutions and capabilities within Malian defense and security 
forces. We call on the government to cut all ties with armed militias 
and hold perpetrators accountable.

    Question. What specific diplomatic actions have you taken as 
Secretary in the year since your confirmation to foster implementation 
of the agreement? What additional actions do you plan to take? What is 
the resource request in the President's Fiscal Year 2020 budget to 
support actions and activities for this peace agreement implementation?

    Answer. On March 26, I joined Deputy Secretary John J. Sullivan's 
meeting with Malian Prime Minister Soumeylou Boubeye Maiga to urge full 
and rapid implementation of the Algiers Accord. On March 29, Under 
Secretary David Hale spoke at the U.N. Security Council, calling for 
the signatory parties to make compromises for peace. He then echoed 
this message with foreign ministers from Mali and neighboring states. 
We continue to engage regional partners on the peace process. We will 
also advocate for changes to the U.N. peacekeeping mission MINUSMA, 
which we support with assessed contributions, to facilitate more rapid 
and effective accord implementation.

    Question. In October 2018, police opened fire at Shi'ite protestors 
in Abuja killing at least one person. In response to a question for the 
record submitted in the wake of last year's budget hearing about human 
rights abuses by security forces in Nigeria, you indicated that you 
``take all reports of human rights violations and abuses seriously,'' 
and committed to press the Nigerian government to live up to 
commitments that Nigerian President Muhammadu Buhari made in his 
remarks in the Rose Garden in April 2018, ensuring accountability for 
human rights violations. What specific actions did you take in the wake 
of the incident in keeping with your commitment to press the Nigerian 
government to ensure accountability for human rights violations? Has 
the Nigerian government launched a credible investigation into the 
October violence?

    Answer. After the October killings, our Ambassador immediately 
raised U.S. concerns with senior Government of Nigeria officials. Both 
privately and in the Embassy's November 1, 2018, public statement, the 
United States called for a thorough and transparent investigation and 
accountability for those responsible for these killings. We do not have 
any information on whether an investigation was launched. We will 
continue to prioritize in our engagements with the Nigerian government 
respect for human rights and accountability for those found responsible 
for human rights violations and abuses.

    Question. In October 2018, police opened fire at Shi'ite protestors 
in Abuja killing at least one person. In response to a question for the 
record submitted in the wake of last year's budget hearing about human 
rights abuses by security forces in Nigeria, you indicated that you 
``take all reports of human rights violations and abuses seriously,'' 
and committed to press the Nigerian government to live up to 
commitments that Nigerian President Muhammadu Buhari made in his 
remarks in the Rose Garden in April 2018, ensuring accountability for 
human rights violations. We understand that units and individuals are 
vetted in accordance with Leahy laws. In addition to that, what 
safeguards if any, has the administration put in place to ensure U.S. 
equipment is not being used to commit human rights abuses? Has the 
administration undertaken a review of the security assistance portfolio 
for Nigeria in the wake of the incident to ensure we are providing 
appropriate assistance given human rights concerns?

    Answer. The administration continually presses Nigeria for progress 
and accountability on human rights. Human rights are an important 
factor in the President's Conventional Arms Transfer Policy (National 
Security Presidential Memorandum 10, issued April 19, 2018). As part of 
every arms transfer assessment, the Department considers ``the risk 
that the transfer may be used to undermine international peace and 
security or contribute to abuses of human rights.'' We continually 
review our limited security assistance to Nigeria to ensure it 
contributes to building more capable, professional, and accountable 
security forces that respect human rights and protect civilians, and 
that U.S. equipment will only be used for legitimate security purposes.

    Question. What specific programmatic activities has the U.S. 
undertaken to support the transition in Ethiopia?

    Answer. The Department supports the important reforms underway in 
Ethiopia and continues its broad spectrum of programs investing in the 
Ethiopian people, in health, education, and food security, as well as 
expanding activity in direct support of Prime Minister Abiy's reform 
agenda. An interagency group convened by the National Security Council 
and led by the Department's Africa Bureau has met with its Ethiopian 
partners and created a number of cross-cutting new initiatives, 
including expert economic, legal, and security specialists to work 
directly with key Ethiopian ministries. The Africa Bureau is also 
coordinating interagency efforts to facilitate U.S. private sector 
investments in Ethiopia.

    Question. What specific programs is the U.S. undertaking for 
targeting youth in marginalized communities? What specific geographic 
areas are we reaching through such programs?

    Answer. The Department is focused on providing opportunities for 
Ethiopian youth. Expanding employment and hope for this demographic is 
the critical element to Ethiopia's political and economic success, as 
is true across Africa. All existing Department programs reflect this 
priority. The political geography of Ethiopia is especially complex, 
and the Department works in close cooperation with Ethiopian leaders to 
make U.S. investment in the Ethiopian people strategically effective.

    Question. The New York Times reported on March 10th, that a ``surge 
in American airstrikes over the last four months of 2018 pushed the 
annual death toll of suspected Shabab fighters in Somalia to the third 
record high in three years.'' The article and other media reports 
suggest that the increased attacks have increased displacements as 
Somalis flee their homes, creating a humanitarian crisis. How 
specifically does the increase in the number of airstrikes support the 
administration's strategy for Somalia?

    Answer. U.S. military efforts in Somalia are one part of a whole-
of-government approach that includes diplomacy and development to 
advance peace and stability, combat terrorism, promote political and 
economic reform, and provide life-saving humanitarian and development 
assistance. The Department continues to support Somali-led efforts to 
advance political reconciliation and conflict mitigation, which are 
necessary to address the root causes of instability that provide al-
Shabaab freedom to operate. Operations against al-Shabaab keep pressure 
on the organization and help to counteract its efforts to disrupt these 
processes, while providing space and time for the Federal Government of 
Somalia to enact political and security sector reforms.

    Question. The New York Times reported on March 10th, that a ``surge 
in American airstrikes over the last four months of 2018 pushed the 
annual death toll of suspected Shabab fighters in Somalia to the third 
record high in three years.'' The article and other media reports 
suggest that the increased attacks have increased displacements as 
Somalis flee their homes, creating a humanitarian crisis. Have the 
airstrikes resulted in civilian displacement? If so, what assistance 
are we providing to those displaced due to U.S. airstrikes, and where 
is this reflected in the FY20 budget request?

    Answer. U.S. military efforts in Somalia are one part of a whole-
of-government approach that includes diplomacy and development to 
advance peace and stability, combat terrorism, promote political and 
economic reform, and provide life-saving humanitarian and development 
assistance. At present, the U.S. government continues to provide life-
saving humanitarian assistance to approximately 1.5 million people 
within Somalia, as well as more than 800,000 Somali refugees in East 
Africa who previously fled insecurity and past years of drought.

    Question. The New York Times reported on March 10th, that a ``surge 
in American airstrikes over the last four months of 2018 pushed the 
annual death toll of suspected Shabab fighters in Somalia to the third 
record high in three years.'' The article and other media reports 
suggest that the increased attacks have increased displacements as 
Somalis flee their homes, creating a humanitarian crisis. Have the 
increased airstrikes significantly diminished the capacity of Al 
Shabaab to plan and execute attacks in Somalia? Please provide the 
answer in classified form if necessary.

    Answer. Airstrikes are one part of the U.S. strategy to support the 
Somali people and government by disrupting the activities of al-Shabaab 
and providing space for Somali forces to secure the country. These 
precision airstrikes enable larger Somalia security force activities to 
build enhanced security conditions that then allow time and space for 
government and economic development to occur. They directly impact al-
Shabaab's ability to carry out activities and recruitment. Strikes 
targeted at various levels of al-Shabaab leadership diminish their 
capability to conduct catastrophic attacks against civilians, such as 
the October 2017 truck bombing which killed more than 600 Somalis.

    Question. Last May, the White House announced the United States is 
undertaking a comprehensive review of its assistance programs to South 
Sudan to ensure our assistance does not contribute to, or prolong the 
conflict, or facilitate predatory or corrupt behavior. What was the 
result of that review? What impact has it had on the FY20 budget 
request?

    Answer. On May 8, 2018, the White House announced a comprehensive 
review of U.S. assistance programs in South Sudan. This review is still 
ongoing. U.S. foreign assistance to South Sudan in the FY 2020 budget 
request reflects our humanitarian, political, and economic priorities, 
including to support a peaceful resolution to the conflict. This 
approach has been informed by our ongoing South Sudan assistance 
review.

    Question. Last year you committed to ``analyze the value and impact 
of a Special Envoy'' for Sudan and South Sudan. What was the result of 
your analysis? What are the factors that led to the conclusion that a 
Special Envoy for the Great Lakes was necessary, which may inform the 
need for a Special Envoy for Sudan and South Sudan?

    Answer. Three considerations factored heavily into my decision to 
appoint a Special Envoy for the Great Lakes Region of Africa. First, 
many of the political, security, economic, and social issues arising in 
the region are cross-border concerns. Secondly, the then-imminent 
prospect of elections and the possibility of either a historic transfer 
of power or renewed conflict in the Democratic Republic of the Congo 
was a concern for the United States as well as the neighboring 
countries. Thirdly, the U.N., EU, and roughly half a dozen countries 
have Special Envoys who meet regularly; a U.S. Special Envoy enables 
the Department to maintain our diplomatic engagement through those 
channels.

    Question. Does the administration plan to assign a senior, 
experienced diplomat who has previously been confirmed by the Senate as 
an Ambassador to lead U.S. government diplomatic efforts--especially 
during this critical time in Sudan?

    Answer. Resolving the humanitarian crisis in South Sudan and the 
civil conflicts in both Sudan and South Sudan remain top policy 
priorities for the administration. At this time I do not anticipate 
naming a special envoy, although I am reviewing options for an 
additional senior-level position that could include a focus on Sudan 
and South Sudan issues. I do not have a timeline for such a decision 
and anticipate any additional senior-level position would be covered by 
existing resources in FY19.

    Question. The President released a policy memorandum on November 
26th tightening enforcement of the Trafficking Victims Protection Act 
and restricting assistance to Tier Three countries. It is my 
understanding that the new policy took NSC, DOS, and USAID by surprise 
and there remains little or no direction to Washington DC or mission-
based staff and even less guidance provided to USAID implementing 
partners on how to implement the new policy. While no one wants to 
encourage Human Trafficking, needed programming is being impacted. In 
the DRC, over 1 million children will lose access to schools. Also, in 
the DRC Nobel Peace prize winner Denis Mukwege is losing U.S. funding 
support via an implementing partner. His work focuses on women and 
their treatment in face of sexual violence in war and armed conflict. I 
can't see how disrupting NGO operations in these or other scenarios 
helps end human trafficking. What steps are being taken to exempt NGOs 
from adverse impacts of this policy?

    Answer. The restriction under the Trafficking Victims Protection 
Act (TVPA) applies to assistance for the benefit of the government, 
regardless of the type of entity implementing the assistance. The State 
Department and USAID assess whether the restriction applies with 
respect to a particular program on a case-by-case basis. Where an 
activity will not receive additional funding as a result of the 
restrictions under the TVPA, implementing partners are generally 
permitted to incur closeout costs to allow for the responsible winding 
down of the activity.

    Question. As the Secretary of State, you are the head of the new 
United States International Development Finance Corporation (USDFC), 
which will subsume the Overseas Private Investment Corporation (OPIC) 
and the United States Agency for International Development's (USAID) 
Development Credit Authority. How will you ensure that State has the 
tools and resources necessary to fulfill its important role in the 
USDFC's due diligence processes, particularly given the increased 
mandate and capacity of the new institution?

    Answer. The USDFC's success will require strong linkages to U.S. 
policymakers at the Department and USAID in order for the USDFC to both 
complement and be guided by U.S. foreign policy, development, and 
national security objectives. Under a new governance structure, as 
Secretary of State, I will serve as Chair of the USDFC, and the 
Administrator of USAID will serve as Vice-Chair. The State Department's 
Bureau of Economic and Business Affairs (EB) and the USDFC's Chief 
Development Officer (a position jointly appointed by the USAID 
Administrator and the CEO of the USDFC, who reports directly to the 
USDFC's Board) will work closely with the USDFC's management to ensure 
it is fulfilling its mission, while coordinating programming and 
resources with the Department of State and USAID. The global reach of 
the State Department and USAID will be key to assisting the USDFC in 
due diligence.

    Question. Can you answer where it will go?

    Answer. The process to determine which agency will adopt the legal 
rights and responsibilities of the Sovereign Loan Guarantee (SLG) 
portfolio is ongoing. The agencies under consideration include USAID, 
the Department of State, the Department of the Treasury, and the U.S. 
Development Finance Corporation (USDFC). Under the BUILD Act, the 
current SLG exposure is expected to count against the USDFC maximum 
contingent liability, if responsibility for SLGs is assigned to the 
USDFC. This is an outcome the administration would like to avoid.

    Question. If it goes to the USDFC and the $21 billion in exposure 
from existing guarantees (Israel, Jordan, and Ukraine) are shifted onto 
the USDFC's books, would you count them against the agency's liability 
cap?

    Answer. The process to determine which agency will administer the 
Sovereign Loan Guarantee (SLG) portfolio is ongoing. Under the BUILD 
Act, the current SLG exposure is expected to count against the USDFC 
maximum contingent liability, if responsibility for SLGs is assigned to 
the USDFC. This is an outcome the administration would like to avoid.

    Question. Another meaningful upgrade for the USDFC is the inclusion 
of equity authority. OPIC was frequently hamstrung because of a 
restriction to only using debt finance. Under BUILD, the USDFC now has 
limited equity authority, up to 30 percent (of the aggregate equity 
investment) in any project and up to 35 percent of the total portfolio. 
Yet, the FY20 budget request includes just $150 million for equity 
investments, or equivalent to about 4 percent of OPIC's overall 
commitments last year. What was the justification for crippling the 
equity authority?

    Answer. Equity can be particularly appropriate when investing in 
frontier markets where more support than lending and insurance may be 
required. The budget requests $150 million for a new program for the 
USDFC to support projects as a minority investor acquiring equity, 
including as a limited partner in investment funds. This will allow for 
cooperation with allies and for investments to reach smaller companies 
for the greatest developmental impact. The request supports a 
diversified portfolio of 5 to 10 investment funds with an average 
equity investment between $5 million to $20 million. Adding $150 
million for equity funds in 2020 would represent a 36 percent expansion 
on OPIC's average (debt) funds program business over the past 6 years, 
a significant and impactful, but manageable expansion. The USDFC will 
also maintain the ability to lend to investment funds--a strong 
complement to the USDFC's equity program.

    Question. The FY20 budget request includes $98 million to cover 
administrative expenses. At first glance, this looks like a roughly 10 
percent increase over the $79 million in OPIC expenses plus $10 million 
from USAID's DCA in FY19. However, these top line numbers don't include 
an estimated $26 million in revenue from fees and other services which 
OPIC uses to cover project costs separate from direct administrative 
expenses. So the appropriate baseline is $115 million. This suggests 
that the new USDFC is facing, not a 10 percent increase in expenses but 
a 15 percent cut. What is the justification for this budget cut?

    Answer. The total $300 million budget for the new USDFC is more 
than double that of OPIC plus USAID's Development Credit Authority 
(DCA) funding today. This increase in funding reflects the priority the 
administration places on the new USDFC. Per the BUILD Act, fees may be 
charged and collected to support project-specific transaction costs. 
This includes costs for travel, legal expenses, and direct and indirect 
costs incurred in claims settlements. The FY 2020 budget request covers 
these costs along with other administrative expenses. The 
administration also expects efficiencies from the consolidation of OPIC 
and DCA, and anticipates that the USDFC, through stronger linkages with 
the State Department and USAID, will be able to leverage their 
expertise and footprint overseas.

    Question. The FY20 budget request includes $98 million to cover 
administrative expenses. At first glance, this looks like a roughly 10 
percent increase over the $79 million in OPIC expenses plus $10 million 
from USAID's DCA in FY19. However, these top line numbers don't include 
an estimated $26 million in revenue from fees and other services which 
OPIC uses to cover project costs separate from direct administrative 
expenses. So the appropriate baseline is $115 million. This suggests 
that the new USDFC is facing, not a 10 percent increase in expenses but 
a 15 percent cut. Did you take into account the $26 million for project 
costs when crafting the budget?

    Answer. Pursuant to the BUILD Act, fees may be charged and 
collected to support project-specific transaction costs. This includes 
costs for travel, legal expenses, and direct and indirect costs 
incurred in claims settlements associated with support provided under 
the BUILD Act.

    Question. The amount of money handled under each portfolio per OPIC 
employee is estimated to be around $86 million, which is a much higher 
size than other countries' development agencies. Yet, the FY20 budget 
for the USDFC doesn't take into account the hiring of more employees. 
What is the justification for this?

    Answer. The FY 2020 request is expected to fund existing OPIC and 
DCA programs, other operational expenses, and new responsibilities to 
implement the DFC's new equity, grant, and technical assistance 
programs. This assumes a level of 305 FTEs, higher than current levels 
for OPIC and DCA combined today, and takes into consideration the 
addition of FTE positions such as the Chief Development Officer and 
Chief Risk Officer, increased evaluation and monitoring activity, and 
new reporting requirements mandated by the BUILD Act. Through stronger 
linkages to State and USAID, the DFC will leverage the overseas 
platforms that Posts and Missions provide, allowing additional U.S. 
government personnel to support development finance efforts.

    Question. The State Department recognizes that discrimination 
against people with disabilities is not simply unjust and immoral, but 
hinders economic development, limits democracy, and erodes societies. 
Unfortunately, State does not require all development programs to be 
inclusive of people with disabilities. Please explain in detail how 
State and USAID programs give a voice to people with disabilities, 
particularly through global democracy and governance programs, in 
absence of a specific requirement.

    Answer. USAID is continuously striving to ensure programming for 
persons with disabilities is included not only in democracy, human 
rights, and governance programs, but across all sectors. Approaches to 
achieve this include disability-related provisions that are required 
for contracts and grants, disability-inclusive sector strategies and 
programming, the development of training materials, and designated 
expert staff who serve as a resource to all employees. USAID is 
currently onboarding a disability rights advisor who will have a 
responsibility to manage the disability program.

    Question. We continue to hear from NGO implementing partners of 
delays in receiving FY 2018 funding including new programming as well 
as incremental funding of already existing programs. This was also a 
problem with FY 2017 funds. These delays and disruptions adversely 
impact the efficiency and effectiveness of U.S. supported programming. 
Implementing partners are often forced to bridge the funding gap with 
their own funds and, in a few cases, the programs had to scale down and 
NGOs feared that they needed to shut down operations. For some 
partners, they've been told by the administration that the delay is due 
to a congressional notification that we often have not yet seen. What 
steps are State and USAID taking identify and remove barriers to speed 
resources to the field as well as easing the burden on implementing 
partners?

    Answer. The Department of State and USAID work diligently to ensure 
that funds appropriated by Congress are obligated as quickly as 
possible for programs that advance foreign policy objectives while 
assuring compliance with applicable legal and other requirements. It is 
a complex process to allocate over $30 billion in foreign assistance 
funds and ensure it meets hundreds of Congressional funding directives. 
Once the funding allocations are complete, numerous pre-obligation 
requirements must be met before funds can be obligated to partners. It 
is a multi-step process, but one that we are working to ensure is 
executed as quickly and effectively as possible.

    Question. We continue to hear from NGO implementing partners of 
delays in receiving FY 2018 funding including new programming as well 
as incremental funding of already existing programs. This was also a 
problem with FY 2017 funds. These delays and disruptions adversely 
impact the efficiency and effectiveness of U.S. supported programming. 
Implementing partners are often forced to bridge the funding gap with 
their own funds and, in a few cases, the programs had to scale down and 
NGOs feared that they needed to shut down operations. For some 
partners, they've been told by the administration that the delay is due 
to a congressional notification that we often have not yet seen. Can 
you commit to me that you and Administrator Green will disburse funds 
more quickly this year than in the 2 prior years and that if there are 
problems, you will inform this committee?

    Answer. Administrator Green and I are committed to working to 
ensure that the Department of State and USAID provide funds to partners 
as quickly as possible for programs that advance U.S. foreign policy 
objectives while assuring compliance with applicable legal and other 
requirements. We will continue to keep your staff apprised as we work 
through this process.

    Question. Two years ago, data from the Charity & Security Network 
showed that two-thirds of all U.S.-based nonprofit organizations 
working abroad face financial access difficulties. Since then, 
nonprofits say the problem is getting worse, negatively impacting their 
ability to fund vital humanitarian aid, peacebuilding and development 
programs overseas in line with the U.S.'s national security objectives. 
In many cases, time-sensitive programs have had to be delayed or even 
canceled. How can terrorist financing be prevented while preserving 
nonprofits' ability to get money to these lifesaving programs?

    Answer. Malign actors use front companies in the humanitarian 
sector to mask nefarious activity. I support robust anti-money 
laundering and counter-terror financing standards as promulgated by the 
Financial Action Task Force and domestic regulatory agencies. Such 
standards require financial institutions use a risk-based approach when 
dealing with clients, including nonprofits, but support financial 
inclusion without compromising measures that exist to combat crime. We 
can achieve a safe system and access for all clients through this 
approach and communication between institutions and clients about the 
nature and purpose of transactions.

    Question. There are more than 68 million people displaced from 
their homes, the highest number since the end of World War II and 
nearly 132 million people will require humanitarian assistance. In the 
United Nations' 2019 Global Humanitarian Overview, the U.N. reported 
that it was only able to meet 56 percent of global humanitarian needs 
in 2018. Yet, while humanitarian need shows no signs of abating, the 
administration has proposed cutting the humanitarian assistance budget 
by 24 percent. Does the President's Budget Request provide sufficient 
funds to respond to existing crises, including the growing number of 
refugees fleeing Venezuela and the worsening Ebola outbreak in the 
Democratic Republic of Congo, as well as new crises that may emerge?

    Answer. Yes. The FY 2020 request of $6.3 billion for humanitarian 
assistance (including resettlement)--essentially a funding straight-
line of the FY 2019 request level--will allow the United States to 
remain the largest single donor of humanitarian assistance in the 
world, for these crises and new ones that may emerge. Combined with 
carryover resources, the average program levels for 2019 and 2020 will 
allow the U.S. to remain the world's largest single donor of 
humanitarian assistance and to robustly address needs for Syria, Yemen, 
and other major crises around the world. When combined with all 
available resources, average annual funding available for FY 2019 and 
FY 2020 of around $9 billion roughly matches the highest-ever annual 
level of U.S. overseas humanitarian programming. I am also working on 
implementing a strategy intended to get other donors to step up and 
increase their share of global humanitarian funding and reduce the 
burden on American taxpayers.

    Question. There are more than 68 million people displaced from 
their homes, the highest number since the end of World War II and 
nearly 132 million people will require humanitarian assistance. In the 
United Nations' 2019 Global Humanitarian Overview, the U.N. reported 
that it was only able to meet 56 percent of global humanitarian needs 
in 2018. Yet, while humanitarian need shows no signs of abating, the 
administration has proposed cutting the humanitarian assistance budget 
by 24 percent. The administration has repeatedly called for increased 
burden-sharing amongst donors. Can you outline the administration's 
strategy to encourage other donors to give more in humanitarian 
settings?

    Answer. In 2017, the three largest donors--including the United 
States--provided nearly three-fifths of all government contributions in 
response to humanitarian needs. Burden-sharing amongst a wider set of 
donors is critical for closing the humanitarian funding gap. The 
administration is pursuing a burden-sharing strategy that draws on all 
levels of government and specific diplomatic missions overseas. For 
example, the multi-year strategy will strengthen the coordination of 
messaging across the U.S. government through common talking points 
aimed at key donors; capitalize on engagement through multilateral and 
regional fora; and support active outreach and enlisting of donors in 
funding critical humanitarian emergencies.

    Question. In this year's budget request, the administration 
proposes merging all humanitarian assistance accounts--Migration and 
Refugee Assistance, International Disaster Assistance, and Food for 
Peace Title II--and moving all assistance functions from PRM to USAID. 
I am concerned that this proposal goes beyond the ongoing USAID 
Transformation efforts and may disrupt current efforts to merge Food 
for Peace and the Office of Foreign Disaster Assistance. In addition, I 
am concerned that this proposal may hamstring U.S. diplomacy in crises 
that involve refugee populations. How does this proposal connect with 
other ongoing lines of work related to reform, including the 
establishment of the Humanitarian Assistance Steering Committee?

    Answer. The humanitarian policy priorities for the U.S. government 
have not changed and will continue through FY 2020, including through 
the Humanitarian Assistance Steering Council (HASC). These include 
ensuring there is a unified voice and single message in public 
engagement, increased burden-sharing from other donor governments, and 
reforming the humanitarian system. Additionally, the role of the HASC 
is intended to coordinate humanitarian assistance in line with the 
administration's policy priorities as well as to ensure the necessary 
diplomatic engagement needed to address and end the numerous man-made 
crises around the world. However, the creation of the HASC cannot 
optimize humanitarian assistance, and that is why the FY 2020 
President's Budget proposal addresses the necessary changes.

    Question. In this year's budget request, the administration 
proposes merging all humanitarian assistance accounts--Migration and 
Refugee Assistance, International Disaster Assistance, and Food for 
Peace Title II--and moving all assistance functions from PRM to USAID. 
I am concerned that this proposal goes beyond the ongoing USAID 
Transformation efforts and may disrupt current efforts to merge Food 
for Peace and the Office of Foreign Disaster Assistance. In addition, I 
am concerned that this proposal may hamstring U.S. diplomacy in crises 
that involve refugee populations. If this proposal moves forward, can 
you outline what impact you expect it would have on U.S. diplomacy 
abroad?

    Answer. The administration proposes to merge overseas humanitarian 
assistance into one account by leveraging expertise of USAID in 
administering and implementing programs and oversight of partners with 
the State Department's expertise on refugee and protection policy, 
diplomacy, and other refugee issues. This proposal delivers on the 
President's commitment to achieve a unified voice and single message on 
humanitarian issues focused on advancing optimal reforms at the United 
Nations and optimizing outcomes for beneficiaries and for American 
taxpayers. It will improve current diplomatic actions by having one 
clear channel between diplomats and a unified voice and single message 
on issues that focused on optimizing the outcomes of humanitarian 
assistance across the agencies, as well as improving the coordination 
of efforts to resolve conflicts that drive many of the current 
humanitarian crises.

    Question. In this year's budget request, the administration 
proposes merging all humanitarian assistance accounts--Migration and 
Refugee Assistance, International Disaster Assistance, and Food for 
Peace Title II--and moving all assistance functions from PRM to USAID. 
I am concerned that this proposal goes beyond the ongoing USAID 
Transformation efforts and may disrupt current efforts to merge Food 
for Peace and the Office of Foreign Disaster Assistance. In addition, I 
am concerned that this proposal may hamstring U.S. diplomacy in crises 
that involve refugee populations. How do you plan to ensure that U.S. 
refugee policy is closely tied to U.S. programming in crisis settings 
if these functions are divided between USAID and the State Department?

    Answer. The FY 2020 request supports the effort to merge Food for 
Peace and the Office of Foreign Disaster Assistance into USAID's new 
Bureau for Humanitarian Assistance. The FY 2020 request preserves the 
State Department's lead role on refugee and protection policy and 
refugee resettlement, and on advocating for states to comply with their 
international refugee law obligations and to protect refugees and 
conflict-affected people. The proposed high-level, dual-hatted State 
and USAID leadership structure, under my direction, will also elevate 
humanitarian assistance within the U.S. government to ensure a unified 
voice and message in international organizations and with other 
implementers and donors that is focused on optimizing humanitarian 
responses and making them more effective, seamless, and coherent. The 
new structure will facilitate more effective coordination and 
engagement, not just across our current humanitarian offices but across 
State and USAID, to achieve our humanitarian objectives. The proposal 
keeps funding for PRM's administrative expenses for overseas staff, 
policy, legal work, and refugee resettlement in MRA.

    Question. Your budget proposes to consolidate humanitarian programs 
and funding into a new International Humanitarian Assistance (IHA) 
account. You argue that this will ``optimize humanitarian assistance'' 
and ``leverage the comparative strengths of the Department of State and 
USAID.'' The request also proposes to create a new structure. Can you 
please specifically explain the problems with the current structure and 
how the proposal will specifically address those problems?

    Answer. The ``Delivering Government Solutions in the 21st Century: 
Reform Plan and Reorganization Recommendations'' report released by the 
Office of Management and Budget in June 2018 details challenges facing 
the current overseas humanitarian assistance structure conducted by one 
bureau at the Department of State and two offices at USAID. The 
proposal outlined in the FY 2020 request consolidates overseas 
humanitarian assistance with funding in a new, flexible International 
Humanitarian Assistance (IHA) account. IHA and having a single agency 
administering programs will allow funds to adjust readily to optimize 
responses as needs evolve, particularly in conflict-based crises where, 
for example, populations are shifting more often from being internally 
displaced to being refugees and back. The proposal creates a high-level 
dual-hat leadership structure elevating humanitarian assistance to 
better achieve foreign-policy priorities and establishes a seamless, 
coherent response to optimize live-saving assistance to populations in 
need and to better address the continuum of response, including 
diplomacy, execution of strategies to permanently resolve humanitarian 
crises and protracted displacements, and the transition to development.

    Question. Your budget proposes to consolidate humanitarian programs 
and funding into a new International Humanitarian Assistance (IHA) 
account. You argue that this will ``optimize humanitarian assistance'' 
and ``leverage the comparative strengths of the Department of State and 
USAID.'' The request also proposes to create a new structure. You argue 
that the new structure will ``enable the U.S. government to respond 
seamlessly'' can you please explain how this will happen when you 
propose a new structure that appears to add additional layers to a 
process that needs to be as quick and nimble as possible?

    Answer. The administration's FY 2020 request consolidates overseas 
humanitarian assistance with funding in a new International 
Humanitarian Assistance (IHA) account, which USAID's new Bureau for 
Humanitarian Assistance (BHA) would administer under the authority of 
the Secretary of State. This proposal builds on the work to combine 
USAID's Offices of U.S. Foreign Disaster Assistance and Food for Peace, 
and would ensure that all U.S. government overseas humanitarian-
assistance programming--whether responding to displacement, natural 
disaster, or other shock--is efficient and effective.
    In practice, we are already seeing the benefits of consolidating 
the administration of humanitarian assistance at USAID, where the joint 
use of International Disaster Assistance has significantly strengthened 
USAID's ability to address funding gaps and overlaps. Having one 
management structure and one set of policies, procedures, and systems 
will streamline, not complicate, the provision of assistance. 
Implementers will no longer need to request and manage awards from 
three different offices, each with separate reporting and oversight 
requirements.

    Question. In the last several weeks we have seen very troubling 
reports that Brunei has enacted a new set of laws that mandates the 
death penalty for numerous offenses, among them adultery, consensual 
same-sex relations, blasphemy, and robbery, as well as mandating 
flogging for women who have abortions, and amputation for theft. In 
addition to Brunei, there have been a number of other places around the 
globe where LGBTQ people have been targeted, rounded up, tortured and 
even killed, just for being who they are. We've seen it in Chechnya, 
Egypt, Azerbaijan, Indonesia, and Bangladesh, among others. While I was 
pleased to see your statement last year that the U.S. ``opposes 
criminalization, violence and serious acts of discrimination'' against 
LGBTI persons, the U.S. refused to join a recent statement delivered to 
the United Nations Human Rights Council calling for the perpetrators of 
violence in Chechnya to be held accountable. And I was frankly 
surprised that you have not personally issued a statement addressing 
the new laws in Brunei and instead have left it to lower level 
spokespersons to do so. What are you and the State Department doing to 
address this new set of laws in Brunei and to ensure that the human 
rights and dignity of all people there are protected and respected?

    Answer. All governments have an obligation to ensure that their 
people can freely enjoy the human rights and fundamental freedoms to 
which they are entitled. The Department has raised its concerns about 
these laws with Brunei on numerous occasions since the enactment of 
Phase One in 2014, and we will continue to do so, including as part of 
our bilateral Senior Officials Dialogue.

    Question. In the last several weeks we have seen very troubling 
reports that Brunei has enacted a new set of laws that mandates the 
death penalty for numerous offenses, among them adultery, consensual 
same-sex relations, blasphemy, and robbery, as well as mandating 
flogging for women who have abortions, and amputation for theft. In 
addition to Brunei, there have been a number of other places around the 
globe where LGBTQ people have been targeted, rounded up, tortured and 
even killed, just for being who they are. We've seen it in Chechnya, 
Egypt, Azerbaijan, Indonesia, and Bangladesh, among others. While I was 
pleased to see your statement last year that the U.S. ``opposes 
criminalization, violence and serious acts of discrimination'' against 
LGBTI persons, the U.S. refused to join a recent statement delivered to 
the United Nations Human Rights Council calling for the perpetrators of 
violence in Chechnya to be held accountable. And I was frankly 
surprised that you have not personally issued a statement addressing 
the new laws in Brunei and instead have left it to lower level 
spokespersons to do so. What in specific will you commit to do to help 
LGBTQ people in Brunei, Chechnya, Egypt and other places to ensure they 
are not targeted for abuse?

    Answer. The Department continues to work to protect and defend 
human rights for all--including lesbian, gay, bisexual, transgender, 
and intersex persons--across the world, including in Brunei, Chechnya, 
and Egypt. No one should face violence, criminalization, or serious 
forms of discrimination because of their sexual orientation, gender 
identity or expression, or sex characteristics.

    Question. In the last several weeks we have seen very troubling 
reports that Brunei has enacted a new set of laws that mandates the 
death penalty for numerous offenses, among them adultery, consensual 
same-sex relations, blasphemy, and robbery, as well as mandating 
flogging for women who have abortions, and amputation for theft. In 
addition to Brunei, there have been a number of other places around the 
globe where LGBTQ people have been targeted, rounded up, tortured and 
even killed, just for being who they are. We've seen it in Chechnya, 
Egypt, Azerbaijan, Indonesia, and Bangladesh, among others. While I was 
pleased to see your statement last year that the U.S. ``opposes 
criminalization, violence and serious acts of discrimination'' against 
LGBTI persons, the U.S. refused to join a recent statement delivered to 
the United Nations Human Rights Council calling for the perpetrators of 
violence in Chechnya to be held accountable. And I was frankly 
surprised that you have not personally issued a statement addressing 
the new laws in Brunei and instead have left it to lower level 
spokespersons to do so. What in specific do you commit to doing to make 
your commitments a reality on a day-to-day basis?

    Answer. Under my leadership, the Department has been clear and 
consistent in affirming that human rights are universal, and that no 
one should face violence, criminalization, or serious forms of 
discrimination because of their sexual orientation. We have and will 
continue to stand up and speak out in support of the human rights and 
fundamental freedoms of persons in all corners of the globe, and will 
continue to press to hold perpetrators of human rights violations and 
abuses to account.

    Question. What is U.S. policy in regards to children who are U.S. 
citizens and alleged to be affiliated with ISIS families? Will the 
United States repatriate these children, as we are obligated to do 
under international law? What is the plan for giving these children the 
support they need to reintegrate into society?

    Answer. U.S. citizen children affiliated with ISIS members had no 
choice in traveling to or being born in ISIS-held territory. Most are 
victims of their parents' decisions, with some living in destitute and 
harsh conditions in internally displaced persons camps in northeast 
Syria. The U.S. government is working to repatriate these U.S. citizens 
in accordance with strict travel guidelines in place to safeguard the 
American people. We work to locate American citizen relatives of these 
minor children who are already living in the United States who are 
willing to support the children's integration or reintegration into 
American society. We also coordinate with law enforcement and child 
protective services to ensure each child returns to a suitable and safe 
home environment.

    Question. 2019 is a significant year for U.S. participation in the 
Paris Agreement because November 4th is the day when President Trump 
can officially initiate the formal withdrawal process. November 4th 
happens to be 7 days before the start of COP25 in Santiago, Chile. How 
is it in the best strategic and economic interests for the U.S. to 
remove itself from the international Agreement every other nation of 
the world is using to shape the future of the global economy?

    Answer. When the President announced his intention to withdraw from 
the Paris Agreement absent the identification of better terms for the 
American people, he emphasized concerns that the United States had 
pledged to do much more to reduce emissions under the Agreement than 
major U.S. economic competitors, and that the United States would not 
put itself at an economic disadvantage. The United States remains 
active in international discussions, including those related to the 
Paris Agreement, in order to protect U.S. interests.

    Question. When President Trump announced he would withdraw the U.S. 
from the Paris Agreement he did so with the caveat that he would work 
to seek a ``better deal'' wherein the U.S. would remain party to the 
Paris Agreement. Is this effort to achieve a better deal underway?

    Answer. The administration policy regarding withdrawal from the 
agreement remains unchanged. The United States intends to withdraw as 
soon as possible, consistent with the terms of the agreement, absent 
the identification of better terms for the American people. The United 
States remains active in international negotiations, including those 
related to the Paris Agreement, in order to protect U.S. interests.

    Question. Will you provide the committee an update on the progress 
and strategy for achieving the new deal the President mentioned in his 
June 1, 2017 rose garden speech?

    Answer. The administration policy regarding withdrawal from the 
agreement remains unchanged. The United States intends to withdraw as 
soon as possible, consistent with the terms of the agreement, absent 
the identification of better terms for the American people. The United 
States will maintain its leadership and influence through our 
diplomatic and development activities with other countries as well as 
multilateral policy forums regardless of our position on the Paris 
Agreement.

    Question. Will you commit to the committee that you will work 
towards achieving a ``better deal?''

    Answer. The administration policy regarding withdrawal from the 
agreement remains unchanged. The United States intends to withdraw as 
soon as possible, consistent with the terms of the agreement absent the 
identification of better terms for the American people. The United 
States will maintain its leadership and influence through our 
diplomatic and development activities with other countries as well as 
multilateral policy forums regardless of our position on the Paris 
Agreement.

    Question. Will you provide the committee details on what a ``better 
deal'' would be as well as the strategy for achieving a new or better 
deal?

    Answer. The administration policy regarding withdrawal from the 
Agreement remains unchanged. The United States intends to withdraw as 
soon as possible, consistent with the terms of the Agreement, absent 
the identification of better terms for the American people. I would be 
happy to provide updates to the committee when and if the 
administration's policy changes.

    Question. Senator Collins and I wrote you on February 28th about 
the positive outcomes from COP24 and requested an explanation how you 
intend to maintain U.S. power and influence in a process that we seem 
likely to be leaving. How are U.S. interests better served when we 
excuse ourselves from processes and policy decisions that the rest of 
the entire world is actively engaging in?

    Answer. The United States continues to participate in ongoing 
international climate change discussions to protect U.S. economic and 
environmental interests. Regardless of our position on the Paris 
Agreement, the United States' approach to environmental protection 
serves U.S. interests and has unburdened communities, individuals, and 
industries to develop and implement policies that fit their needs. This 
approach leverages the ingenuity of our citizens and businesses to 
protect our environment, ensure our energy security, and grow our 
economy.

    Question. Will the U.S. still have a voice in Paris Agreement 
implementation policies and negotiations when, or if, the U.S. leaves 
the Paris Agreement?

    Answer. The United States has remained active in international 
discussions related to the Paris Agreement in order to protect U.S. 
interests. If a country is not a Party to the Paris Agreement, it can 
participate in negotiations as an observer.

    Question. The outcomes from COP24 are widely regarded as successful 
and favorable towards the U.S.'s interests. Do you agree with this 
assessment? How much credence do you put on the achievement of these 
positive outcomes resulted from the U.S.'s full participation in the 
negotiations as a party to the Paris Agreement?

    Answer. I appreciate the hard work of our negotiators, whose active 
and constructive engagement made it possible for the United States to 
achieve success. The outcome took a significant step toward holding our 
economic competitors accountable for reporting their emissions in a 
manner consistent with standards the United States has met since the 
early 1990s.

    Question. What is your strategy for maintaining and growing U.S. 
influence, cooperation, and power on climate diplomacy at COP25? 
(taking into consideration that in the coming months leading up to 
November 4, 2019, which is the earliest date the President can 
officially begin the U.S.'s withdrawal process).

    Answer. With COP25 months away, it is too early to say anything 
specific. That said, the United States was actively engaged at COP24, 
and we plan to remain actively engaged at COP25 and beyond to advance 
and protect U.S. interests.

    Question. How do you think our partner and ally, as well as rival, 
parties to the Paris Agreement posture and willingness to deal with the 
U.S. may change, knowing that on November 4, 2019 the U.S. may very 
likely initiate the withdrawal process?

    Answer. With COP25 months away, it is too early to say anything 
specific. That said, the United States was actively engaged at COP24, 
and we plan to remain actively engaged at COP25 and beyond to advance 
and protect U.S. interests.

    Question. The President Trump's 2018 State of the Union comments on 
foreign assistance were a gross demonstration of his failure to 
comprehend what defines American leadership and power. I want to 
discuss and gain your understanding of what policies this 
administration intends to realize the President's ``I am asking the 
Congress to pass legislation to help ensure American foreign Assistance 
dollars always serve American interests, and only go to our friends'' 
comments. What guidance has the Statement Department received from the 
White House on how to implement any directive associated with this 
statement?

    Answer. The President is committed to ensuring that American 
foreign assistance serves American interests. The FY 2020 budget 
request reflects this commitment and prioritizes assistance that 
protects the American people, promotes U.S. prosperity, and advances 
American interests and values.

    Question. The President Trump's 2018 State of the Union comments on 
foreign assistance were a gross demonstration of his failure to 
comprehend what defines American leadership and power. I want to 
discuss and gain your understanding of what policies this 
administration intends to realize the President's ``I am asking the 
Congress to pass legislation to help ensure American foreign Assistance 
dollars always serve American interests, and only go to our friends'' 
comments. When can we expect USUN, the State Department or the White 
House to submit to Congress the legislative proposal the President 
requested in the State of the Union?

    Answer. The President is committed to ensuring that American 
foreign assistance serves American interests. The FY 2020 budget 
request reflects this commitment, and prioritizes assistance that 
protects the American people, promotes U.S. prosperity, and advances 
American interests and values.

    Question. The President Trump's 2018 State of the Union comments on 
foreign assistance were a gross demonstration of his failure to 
comprehend what defines American leadership and power. I want to 
discuss and gain your understanding of what policies this 
administration intends to realize the President's ``I am asking the 
Congress to pass legislation to help ensure American foreign Assistance 
dollars always serve American interests, and only go to our friends'' 
comments. Do you believe the U.S. should limit diplomatic and 
development engagements to our ``friends?''

    Answer. I believe Americans benefit from sustained engagement with 
the rest of the world that serves both U.S. interests and those of our 
allies. The FY 2020 budget request prioritizes supporting key U.S. 
partners and allies through strategic, selective investments that 
enable the United States to retain its position as a global leader. At 
the same time, it relies on other nations to make greater proportionate 
contributions toward shared objectives.

    Question. In your first remarks to State Department personnel back 
in May 2018, ``The United States diplomatic corps needs to be in every 
corner; every stretch of the world, executing missions on behalf of 
this country; and it is my humble, noble undertaking to help you 
achieve that.'' I applaud your vision. Yet the Department's most recent 
Five-Year Workforce and Leadership Succession Plan acknowledges that 
the Department has ``abolished a large number of positions in 
warzones.'' While I understand that you do not want to have ``forever 
wars''--and reducing the size of warzone embassies is part of that--
where did these positions go?

    Answer. War-zone position levels were established through a 
combination of new positions and positions drawn from other Department 
domestic and overseas bureaus. As such, staffing levels in war zones 
have fluctuated throughout the years. This resulted in vacancies in 
many areas because many Foreign Service personnel were assigned to war 
zones and war zone support operations. As war zone positions have been 
gradually reduced over time, personnel were available for reassignment 
to bolster staff levels at other posts or domestic organizations where 
needs were greatest.

    Question. In your first remarks to State Department personnel back 
in May 2018, ``The United States diplomatic corps needs to be in every 
corner; every stretch of the world, executing missions on behalf of 
this country; and it is my humble, noble undertaking to help you 
achieve that.'' I applaud your vision. Yet the Department's most recent 
Five-Year Workforce and Leadership Succession Plan acknowledges that 
the Department has ``abolished a large number of positions in 
warzones.'' Were these positions redistributed to the field, and if 
not, why not?

    Answer. Staffing levels in war zones have fluctuated throughout the 
years. During surges in war zones, staff shortages/vacancies in other 
posts have occurred. During drawdowns, personnel are available for 
reassignment to other critical areas where vacancies exist. The 
Department is committed to closely monitoring essential programs and 
ensuring the staffing needed to implement them. As the Department 
reassesses employment within war zones, we aim to establish accurate 
staffing levels with appropriate skill sets at embassies worldwide.

    Question. How do you expect the diplomatic corps to be in every 
corner of the world without addressing the need for positions abroad 
directly in the FY20 Budget Request?

    Answer. The FY 2020 request supports an onboard level of nearly 
24,700 full-time personnel. This level of staffing is needed to carry 
out the Department's foreign policy mission and meet the goals and 
objectives of the National Security Strategy and Joint Strategic Plan. 
This staffing level is consistent with the Department's current hiring 
plan and Congressional guidance of maintaining onboard levels as of 
December 31, 2017.

    Question. The Trump administration's National Security Strategy 
states that the United States must ``upgrade its diplomatic 
capabilities'' to compete in today's international environment. How 
does abolishing positions at certain posts without distributing them 
back to the field--in effect, shrinking the footprint of the Foreign 
Service--achieve your goals?

    Answer. In many cases, positions that are considered for 
abolishment are redistributed to other posts requiring additional 
staffing needs. For example, the Bureau of Consular Affairs conducts an 
annual review of worldwide visa workload to determine workforce levels 
required at overseas posts. Positions for posts that are experiencing a 
decrease in workload are redistributed to posts that are facing an 
increase in visa demand. Similarly, regional bureaus may abolish 
positions at certain posts for redistribution elsewhere to address new 
initiatives or align staffing with regional strategic priorities.

    Question. The Trump administration's National Security Strategy 
states that the United States must ``upgrade its diplomatic 
capabilities'' to compete in today's international environment. What is 
your end-strength vision for the Foreign Service and in what ways is it 
outlined in this FY20 Budget Request?

    Answer. Our current hiring plans are geared to increase Foreign 
Service and Civil Service employment to target levels coinciding with 
the Department's FY 2018 appropriation Explanatory Statement. The 
Department has gone beyond those levels for Foreign Service staffing, 
enabling us to reverse the effects of last year's hiring freeze. The 
hiring classes planned for the remainder of FY 2019 will bring us to 
levels that are at or above previous highs. The President's FY 2020 
budget submission requests funding to continue Foreign Service staffing 
levels to replace anticipated attrition and add some moderate increases 
in critical areas. This will provide the diplomatic capacity to support 
our current global engagement strategies.

    Question. As you know, many of us have benefitted greatly from the 
Pearson Fellows program, where State Department personnel spend a year 
or two in Congressional offices. We have noticed that in the last 
couple of years, there are many fewer of these positions available to 
interested candidates. Would you explain to us what happened to the 
Pearson Fellows? Why did it shrink? Where did the positions go?

    Answer. There will be 16 new Pearson Fellows joining the Hill this 
summer, up from 10 last year. The Department will soon be recruiting 
and selecting Foreign Service Officers to fill the Summer 2020 
assignments and return to our traditional number of 20 Pearson Fellows. 
It is my understanding that in 2017, the Department conducted a 
strategic review of all external assignments to include Pearson 
Fellowships. While the review took place, external assignments were 
either temporarily held or reduced. In addition to the Foreign Service 
Pearson Fellows, there are Civil Service Brookings and Georgetown 
Fellows who also serve in Congressional offices, and I have returned 
these programs to traditional levels as well.

    Question. You have stated that there are 1,500 state economic 
officers working overseas to promote U.S. business. In fact, data from 
your own Human Resources bureau shows that there are only 369 FSOs in 
the field in straight economic positions. Is that sufficient, given the 
global economic competition we are facing? Do you believe adequate 
funding is provided in the FY20 Budget Request to get us to 1,500 
economic officers?

    Answer. The FY 2020 request supports an onboard level of nearly 
24,700 personnel. This staffing level is sufficient to carry out the 
Department's foreign policy mission and meet the goals of the National 
Security Strategy and Joint Strategic Plan, and is consistent with the 
Department's current hiring plan and Congressional guidance of 
maintaining onboard levels as of December 31, 2017. The Department has 
more than 1,500 economic officers. Roughly 63 percent are deployed 
overseas in either purely economic or other Foreign Service positions. 
The Department is continually assessing its economic skills capacity to 
ensure that staffing is aligned with economic interests.

    Question. In October of 2018, 96 business associations, ranging 
from the U.S. Chamber of Commerce and the National Association of 
Manufacturers to the Kansas Trucking Association, hailed the work of 
FSOs as instrumental in advancing the interests of American companies 
around the world. ``We urge you to send more diplomats overseas. 
Foreign competitors are continually extending their economic reach into 
markets where America's diplomatic presence is limited.'' You have 
stated that there are 1,500 state economic officers working overseas to 
promote U.S. business. In fact, data from your own Human Resources 
bureau shows that there are only 369 FSOs in the field in straight 
economic positions. Since January 21, 2017, how many career diplomats 
has the Trump administration nominated for ambassadorial posts in the 
Western Hemisphere? During the same timeframe, how many non-career 
nominees have there been for ambassadorial posts in the Western 
Hemisphere? Please provide a list of countries for both questions.

    Answer. As of March 31, 2019, we have more than 1,500 full-time, 
permanent economic officers, nearly 63 percent of whom are serving 
overseas. As of April 17, 2019, 13 Ambassadors nominated by this 
administration are in place in the Western Hemisphere. These include 
seven career individuals (Guatemala, Guyana, Haiti, Nicaragua, 
Paraguay, Peru, and Suriname) and six non-career individuals (Dominican 
Republic, Argentina, Canada, Costa Rica, Trinidad and Tobago, and the 
U.S. Mission to the OAS). Seven nominees are currently pending in the 
Senate: one career individual (Ecuador), and six non-career individuals 
(Bahamas, Barbados, El Salvador, Jamaica, Mexico, and Uruguay). I look 
to Congress to help us confirm these nominees so they can get to work 
serving our nation.

    Question. The U.S. is currently about $750 million in arrears to 
U.N. peacekeeping. As a result, the U.N. is now facing a significant 
and growing cash crunch, and countries who provide troops to 
peacekeeping missions are not being fully reimbursed for their 
contributions, to the tune of tens of millions of dollars. If these 
arrears are allowed to continue building, it is also likely that they 
will affect the operational effectiveness of the missions themselves, 
curtailing the ability of peacekeepers to deploy into the field and 
conduct patrols. Given that the U.S. does not contribute significant 
numbers of its own military personnel to U.N. missions, what kind of 
message does it send when we shortchange countries that do?

    Answer. The administration has delivered a very clear message on 
U.S. financial contributions for U.N. peacekeeping: no single country 
should contribute more than 25 percent of total U.S. peacekeeping 
assessments. At that level, the United States is by far the largest 
contributor. Our contributions this financial year have been nearly $2 
billion, which is nearly twice the amount paid by the next largest 
contributor and more than the total amount contributed by 185 countries 
combined. We continue to support peacekeeping through both our 
financial contributions and our bilateral assistance to troop- and 
police-contributing countries. At nearly $1.5 billion, we are the 
largest peacekeeping training and capacity-building partner in the 
world.

    Question. The U.S. is currently about $750 million in arrears to 
U.N. peacekeeping. As a result, the U.N. is now facing a significant 
and growing cash crunch, and countries who provide troops to 
peacekeeping missions are not being fully reimbursed for their 
contributions, to the tune of tens of millions of dollars. If these 
arrears are allowed to continue building, it is also likely that they 
will affect the operational effectiveness of the missions themselves, 
curtailing the ability of peacekeepers to deploy into the field and 
conduct patrols. Since none of these missions would be deployed without 
our support in the first place, don't you think that we have a 
particularly strong responsibility to pay our peacekeeping assessments 
in-full?

    Answer. The administration has delivered a very clear message on 
U.S. financial contributions for U.N. peacekeeping: no single country 
should contribute more than 25 percent of total U.N. peacekeeping 
assessments. At that level, the United States is by far the largest 
contributor. Our contributions this financial year have been nearly $2 
billion, which is nearly twice the amount paid by the next largest 
contributor and more than the total amount contributed by 185 countries 
combined. We continue to support peacekeeping through both our 
financial contributions and our bilateral assistance to troop- and 
police-contributing countries. At nearly $1.5 billion, we are the 
largest peacekeeping training and capacity-building partner in the 
world.

    Question. In FY 2018, the State Department withheld $18.9 million 
from its U.N. regular budget payments to express disapproval of the 
Office of the U.N. High Commissioner for Human Rights (OHCHR). OHCHR 
plays a critical role in advancing U.S. human rights priorities, which 
help raise international awareness of human rights violations, magnify 
the voices of human rights defenders and civil society organizations 
working on the ground, and serve as a useful tool for applying pressure 
to repressive governments. Your policy of withholding funding is 
especially confounding given that the State Department itself has 
publicly expressed support for the work of OHCHR. Recently one of your 
spokespersons noted, ``The United States remains engaged in the work of 
the U.N. High Commissioner for Human Rights . . . and strongly supports 
those special procedures and mandates that have proven effective in 
illuminating the most grave human rights environments, including in 
Iran and DPRK.'' How do you account for the gap between your 
Department's financial decisions on the one hand and statements of 
support for OHCHR on the other?

    Answer. Following withdrawal from the U.N. Human Rights Council in 
FY 2018, there was a decision to withhold assessed funding that was, in 
part, going to support human rights mandates and activities that do not 
advance U.S. national interests. At the same time, Department voluntary 
contributions have continued for those mandates and activities that do 
advance U.S. national interests. This approach ensures that Department 
funding aligns with national priorities.

    Question. In FY 2018, the State Department withheld $18.9 million 
from its U.N. regular budget payments to express disapproval of the 
Office of the U.N. High Commissioner for Human Rights (OHCHR). OHCHR 
plays a critical role in advancing U.S. human rights priorities, which 
help raise international awareness of human rights violations, magnify 
the voices of human rights defenders and civil society organizations 
working on the ground, and serve as a useful tool for applying pressure 
to repressive governments. Your policy of withholding funding is 
especially confounding given that the State Department itself has 
publicly expressed support for the work of OHCHR. Recently one of your 
spokespersons noted, ``The United States remains engaged in the work of 
the U.N. High Commissioner for Human Rights . . . and strongly supports 
those special procedures and mandates that have proven effective in 
illuminating the most grave human rights environments, including in 
Iran and DPRK.'' If the Office is engaging in activities that this 
administration supports and has deemed important to U.S. interests, 
what sense does it make to withhold funding?

    Answer. Following withdrawal from the U.N. Human Rights Council in 
FY 2018, there was a decision to withhold assessed funding that was, in 
part, going to support human rights mandates and activities that do not 
advance U.S. national interests. At the same time, Department voluntary 
contributions have continued for those mandates and activities that do 
advance U.S. national interests. This approach ensures that Department 
funding aligns with national priorities.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                    Submitted by Senator Ben Cardin

    Question. I believe it is absolutely critical to the success of 
U.S. national security strategy to advance democracy and human rights 
around the globe, combat corruption, and strengthen good governance and 
rule of law. Supporting democracy, human rights, and good governance 
helps keep America safe, minimizes migration, and allows our businesses 
to more effectively compete in global markets. Yet, for far too long 
U.S. foreign policy has treated governance issues as a secondary 
consideration. I applaud the administration's willingness to apply 
Global Magnitsky sanctions against corrupt officials and human rights 
abusers, but am alarmed by the proposed 50 percent cut to democracy 
programs, the 40 percent cut to DRL programs, and 60 percent cut to the 
National Endowment for Democracy. How does this proposed budget reflect 
American values?

    Answer. Democracy, human rights, and governance (DRG) assistance, 
including rule of law, good governance, and anti-corruption programming 
are critical for defending national security, fostering economic 
opportunities for the American people, and asserting U.S. leadership 
and influence. These programs help bring U.S. values to the forefront 
of the world stage. While lower than FY 2019 enacted appropriations, 
the FY 2020 budget request reflects the administration's priorities to 
advance these efforts while making efficient use of taxpayer dollars. 
With the support of Congress, this budget will bring America's 
international role into a new era and ensure we succeed in putting 
America first.

    Question. I believe it is absolutely critical to the success of 
U.S. national security strategy to advance democracy and human rights 
around the globe, combat corruption, and strengthen good governance and 
rule of law. Supporting democracy, human rights, and good governance 
helps keep America safe, minimizes migration, and allows our businesses 
to more effectively compete in global markets. Yet, for far too long 
U.S. foreign policy has treated governance issues as a secondary 
consideration. I applaud the administration's willingness to apply 
Global Magnitsky sanctions against corrupt officials and human rights 
abusers, but am alarmed by the proposed 50 percent cut to democracy 
programs, the 40 percent cut to DRL programs, and 60 percent cut to the 
National Endowment for Democracy. How central do you view these issues 
as being to our foreign and national security policy and how is 
anticorruption factored into the State Department budget?

    Answer. The President's National Security Strategy (NSS) makes 
clear that respect for human rights, democracy, and the rule of law is 
more likely to produce peace, stability, and prosperity at home and 
abroad, and is therefore integral to our foreign and national security 
policy. As a key part of these efforts, anti-corruption is prioritized 
in the President's FY 2020 budget request for DRG assistance, which 
totals approximately $1.4 billion.

    Question. I believe it is absolutely critical to the success of 
U.S. national security strategy to advance democracy and human rights 
around the globe, combat corruption, and strengthen good governance and 
rule of law. Supporting democracy, human rights, and good governance 
helps keep America safe, minimizes migration, and allows our businesses 
to more effectively compete in global markets. Yet, for far too long 
U.S. foreign policy has treated governance issues as a secondary 
consideration. I applaud the administration's willingness to apply 
Global Magnitsky sanctions against corrupt officials and human rights 
abusers, but am alarmed by the proposed 50 percent cut to democracy 
programs, the 40 percent cut to DRL programs, and 60 percent cut to the 
National Endowment for Democracy. My Combatting Global Corruption Act, 
which I hope to reintroduce soon, would allow the U.S. to take stock of 
where our anti-corruption programming and could me most beneficial. 
Given how critical these issues are to the long-term success and 
sustainability of our global engagements, what and where are the trade-
offs between being able to pursue good governance and other diplomatic 
or security considerations?

    Answer. While lower than FY 2019 enacted appropriations, the FY 
2020 budget request reflects the administration's priorities to advance 
peace and security, expand American influence, and address global 
crises while making efficient use of taxpayer dollars. This budget will 
allow us to advance our core mission and support our most critical 
foreign policy goals.

    Question. Do DRL, INL, and the Bureau of Economic and Business 
Affairs (EB) have the staff resources they need to expeditiously 
research, vet, and apply sanctions?

    Answer. Economic sanctions are a fundamental tool of diplomacy, and 
their use has increased exponentially with successive administrations. 
The Department works hard to keep pace with the significant demand 
related to sanctions implementation. I would welcome Congressional 
support for the resources for sanctions implementation requested in the 
FY 2020 budget. The FY 2020 request supports an onboard level of nearly 
24,700 personnel, including staffing for DRL, INL and EB.

    Question. I believe it is absolutely critical to the success of 
U.S. national security strategy to advance democracy and human rights 
around the globe, combat corruption, and strengthen good governance and 
rule of law. Supporting democracy, human rights, and good governance 
helps keep America safe, minimizes migration, and allows our businesses 
to more effectively compete in global markets. Yet, for far too long 
U.S. foreign policy has treated governance issues as a secondary 
consideration. I applaud the administration's willingness to apply 
Global Magnitsky sanctions against corrupt officials and human rights 
abusers, but am alarmed by the proposed 50 percent cut to democracy 
programs, the 40 percent cut to DRL programs, and 60 percent cut to the 
National Endowment for Democracy. Given the violence and instability we 
see caused by autocratic regimes like Syria, Venezuela, Nicaragua, and 
Iran, what is the rationale for cutting these valuable programs?

    Answer. While lower than FY 2019 enacted appropriations, the FY 
2020 budget request for DRG assistance reflects the administration's 
priorities while making efficient use of taxpayer dollars. This budget 
will allow us to advance our core mission and support our most critical 
foreign policy goals.

    Question. The Inter-American Commission on Human Rights (IACHR) is 
an important human rights defending body within the Organization of 
American States (OAS). They enforce women and girls' human rights to 
dignity, life, and freedom from violence. The IACHR has been 
instrumental in advancing the rights of survivors of domestic and 
intimate partner violence, sexual assault, and slavery. They give 
people a place they can turn to when their own justice systems have 
failed them. How will the administration's proposed budget cuts to the 
OAS (15 percent below FY19 funding levels) affect IACHR's ability to 
protect all Americans throughout the Western Hemisphere against human 
rights violations, particularly given concerning trends in Venezuela 
and Nicaragua?

    Answer. The Department remains committed to supporting the efforts 
of IACHR in the promotion and defense of human rights throughout the 
Western Hemisphere. The potential practical impact on IACHR of the 
proposed reduction in the budget request for the U.S. assessed 
contribution to the OAS regular budget will depend in part on: (a) the 
amount of funds ultimately appropriated for that purpose; and (b) the 
amount of funds contained in the OAS budget for IACHR, as approved by 
the OAS General Assembly.

    Question. How does your budget improve sanctions implementing 
offices at the State Department?

    Answer. Diplomatic Programs resources support sanctions 
implementation efforts as follows: the Bureau of International Security 
and Non-Proliferation's work on weapons of mass destruction; the Bureau 
of Counterterrorism's work on counter terrorism; the Bureau of 
International Narcotics and Law Enforcement's work on narcotics and 
corruption; the Bureau of Democracy, Human Rights, and Labor's work on 
human rights; and the Bureau of Economic and Business Affairs' 
administration of the majority (25 out of 30) of Department economic 
sanctions programs. I welcome Congressional support for the resources 
for staffing and sanctions implementation activities requested in the 
FY 2020 budget.

    Question. The United States has been a leader for decades in 
promoting human rights and ensuring the protection of human rights 
defenders across the world. In accordance with this leadership, we've 
been gratified to see the Department's use of Global Magnitsky 
designations to hold individuals and entities who commit serious human 
rights violations or who engage in acts of corruption accountable by 
freezing their assets and denying their visa requests to the United 
States. As a result, the government has named over 80 individuals and 
entities including Maung Maung Soe, the former Chief of Burma's Western 
Army Command who has carried out genocidal attacks upon the Rohingya, 
and Jose Francisco (Lopez) Centeno, the President of Petronic, 
Nicaragua's state-owned oil company, which has ties to the Venezuelan 
government and has supported Ortega's corrupt regime. Do you support 
the use of Global Magnitsky designations as a tool of foreign policy in 
order to hold individuals and entities to account?

    Answer. Yes. Global Magnitsky is a critical tool of foreign policy 
that has allowed this administration to promote accountability on a 
global scale in a way previously not possible. Since December 2017, the 
United States has taken action against 101 individuals and entities 
around the world under this designation. Global Magnitsky is central to 
our effort to disrupt and deter serious human rights abuse and 
corruption on a global scale through the imposition of tangible and 
significant consequences on those who would engage in such behavior. 
You have my commitment to continue to support the active use of this 
tool.

    Question. The United States has been a leader for decades in 
promoting human rights and ensuring the protection of human rights 
defenders across the world. In accordance with this leadership, we've 
been gratified to see the Department's use of Global Magnitsky 
designations to hold individuals and entities who commit serious human 
rights violations or who engage in acts of corruption accountable by 
freezing their assets and denying their visa requests to the United 
States. As a result, the government has named over 80 individuals and 
entities including Maung Maung Soe, the former Chief of Burma's Western 
Army Command who has carried out genocidal attacks upon the Rohingya, 
and Jose Francisco (Lopez) Centeno, the President of Petronic, 
Nicaragua's state-owned oil company, which has ties to the Venezuelan 
government and has supported Ortega's corrupt regime. Do you agree that 
there should be additional resources provided to those who review 
Global Magnitsky designations in order to ensure a more robust 
sanctions regime that targets the worst human rights abusers?

    Answer. The close collaboration between Congress and the Department 
of State has been critical to the success of Global Magnitsky and I 
welcome continued Congressional support for this program, including 
additional resources.

    Question. Last year the administration announced two $100 million 
funds to support faith-based organizations abroad--one focused on 
religious freedom, and the other focused on HIV prevention. This money 
should be bound by the Siljander amendment, which stipulates that all 
recipients of U.S. foreign assistance dollars neither lobby to restrict 
nor expand abortion access. Last week, you employed the Siljander 
amendment to cuts funds to the Inter American Human Rights Commission 
under the (nebulous) pretense of their work to expand reproductive 
rights. Similarly, do you plan on ensuring that faith based (groups) 
abroad do not use their U.S. dollars to lobby to restrict abortion 
access?

    Answer. The Department takes very seriously its obligation to 
ensure our activities are consistent with U.S. law, including the 
Siljander Amendment.

    Question. This past May, you stated that the U.S. ``firmly opposes 
criminalization, violence and serious acts of discrimination such as 
housing, employment and government services directed against LGBTI 
persons.'' You went on to say that the U.S. uses ``public and private 
diplomacy to raise human rights concerns, provide emergency assistance 
to people at risk, and impose visa restrictions and economic sanctions 
against those who persecute them.'' Do you stand by these remarks?

    Answer. Yes.

    Question. This past May, you stated that the U.S. ``firmly opposes 
criminalization, violence and serious acts of discrimination such as 
housing, employment and government services directed against LGBTI 
persons.'' You went on to say that the U.S. uses ``public and private 
diplomacy to raise human rights concerns, provide emergency assistance 
to people at risk, and impose visa restrictions and economic sanctions 
against those who persecute them.'' Furthermore, this past year at the 
Commission of the Status of Women, the U.S. has continuously pushed a 
binary definition of gender that is tantamount to erasing the rights of 
trans people. How do you reconcile this with your prior statements on 
LGBTI rights?

    Answer. Under my leadership, the Department continues to work to 
protect and defend human rights for all--including lesbian, gay, 
bisexual, transgender, and intersex persons. No one should face 
violence, criminalization, or serious forms of discrimination because 
of their sexual orientation, gender identity or expression, or sex 
characteristics.

    Question. In countries around the world, there are criminal 
penalties associated with exercising sexual and reproductive health and 
rights. LGBTQ people are criminalized for who they love and are 
regularly prosecuted or incarcerated for consensual same sex sexual 
conduct in places like Indonesia, Chechnya, and Egypt. There are also 
women who are in jail in places like El Salvador and Senegal for having 
miscarriages or abortions. Do you plan on instructing DRL to report on 
LGBTI rights and access to sexual and reproductive health services in 
the Human Rights Report?

    Answer. The State Department reports on the violence, 
criminalization, and severe discrimination that LGBTI persons face in 
many parts of the world. The Reproductive Rights subsection of the 
Country Reports on Human Rights Practices was renamed Coercion in 
Population Control in accordance with the requirement of U.S. law that 
we report on ``wherever applicable, practices regarding coercion in 
population control, including coerced abortion and involuntary 
sterilization.'' Additional material on maternal mortality, 
contraception, and similar issues is available via hyperlink in the 
text of each country chapter and in an appendix to the Reports.

    Question. Implicit in the right to reproductive health is the right 
of men, women, and LGBTI people to be informed and to have access to 
safe, effective, affordable, and acceptable methods of family planning 
of their choice. Nevertheless, this administration has undermined 
women, girls, and LGBTI peoples' rights to sexual and reproductive 
health services through the imposition, and the recent expansion, of 
the global gag rule. This has had the effect of shutting down health 
care clinics globally, which has particularly acute affects in the 
aftermath of humanitarian disasters and in places where rape is being 
used as a tool of war. How do you plan on meeting our global 
commitments given the ways the administration has worked to repeatedly 
restrict women and girls' rights to access care?

    Answer. This administration will do all it can to protect and 
respect the sanctity of life all across the globe. As the world's 
largest bilateral donor to global health programs, the United States 
remains committed to helping women and their children thrive. In the 6-
month review of the Protecting Life in Global Health Assistance (PLGHA) 
policy, we found that less than one percent of prime partners had 
declined to agree to the PLGHA term in their awards. In those 
instances, State and USAID have worked to minimize any potential 
changes in services. The Mexico City Policy does not change overall 
funding levels, nor does the Secretary's recent announcement.

    Question. Implicit in the right to reproductive health is the right 
of men, women, and LGBTI people to be informed and to have access to 
safe, effective, affordable and acceptable methods of family planning 
of their choice. Nevertheless, this administration has undermined 
women, girls, and LGBTI peoples' rights to sexual and reproductive 
health services through the imposition, and the recent expansion, of 
the global gag rule. This has had the effect of shutting down health 
care clinics globally, which has particularly acute affects in the 
aftermath of humanitarian disasters and in places where rape is being 
used as a tool of war. In addition, the recent announcement that 
dollars from the international community--including U.S. foundations--
will now be prohibited from moving through gagged organizations to non-
gagged organization presents a serious speech restriction on U.S. 
organizations, who now find their independent money bound by a 
regressive restriction on their spending. How to you reconcile these 
gags on speech with the responsibility of the Secretary to promote free 
expression and assembly through its work, and the constitutional rights 
of American foundations?

    Answer. The policy's restrictions only apply to foreign NGOs that 
receive U.S. funding for global health assistance. I am confident we 
can continue to work with NGO partners to meet our critical global 
health goals while preventing U.S. taxpayer dollars from subsidizing 
abortion. We will continue to work closely with our partners to ensure 
they understand how to comply with the policy.

    Question. You have personally questioned the scientific consensus 
that human activity is changing the climate and strongly opposed the 
Paris Agreement. During your Senate confirmation hearing for CIA 
Director, you stated that the notion of climate change as a top 
national security threat was ``ignorant, dangerous, and absolutely 
unbelievable.'' Yet scientists believe that there are just 12 years to 
take bold action on climate change before its most catastrophic effects 
are irreversible. Do you still believe that climate change is not a top 
national security threat?

    Answer. The 2018 Worldwide Threat Assessment of the U.S. 
Intelligence Community identifies the impacts of climate change, among 
other factors, as likely to fuel economic and social discontent and 
notes that extreme weather events in a warmer world have the potential 
for greater impacts. In accordance with this assessment, we continue to 
work to engage foreign governments and the private sector to address 
these challenges.

    Question. The conflicts in both Syria and Yemen are just two recent 
examples where climate change that has driven desertification and 
resource competition has led to conflict or made it worse. Do you 
disagree that it is in the United States interests to address the 
underlying causes of conflict, including climate change, through 
nonmilitary means?

    Answer. Addressing the underlying causes of conflict through 
nonmilitary means remains a priority. The United States does this in 
many ways, including through continued support to enhance resilience 
and reduce disaster risk in partner countries around the world.

    Question. Do you disagree with the Department of Defense that 
climate change is ``a threat multiplier'' and thus a key national 
security challenge?

    Answer. The 2018 Worldwide Threat Assessment of the U.S. 
Intelligence Community identifies the impacts of climate change, among 
other factors, as likely to fuel economic and social discontent and 
notes that extreme weather events in a warmer world have the potential 
for greater impacts. We continue to work to engage foreign governments 
and the private sector to address these challenges.

    Question. Do you disagree with me that bold, multilateral action, 
such as the Paris Climate Accord and beyond, is required to prevent the 
worst effects of climate change from harming our planet and the United 
States should be leading the charge both abroad and here at home?

    Answer. The United States will maintain its leadership and 
influence through our diplomatic and development activities regardless 
of our position on the Paris Agreement. We also will continue to 
advance and protect U.S. interests, working with other countries to 
help drive innovation and market-friendly solutions, so that our 
efforts to protect the environment and grow our economy are mutually 
supportive.

    Question. Please provide additional details on the administration's 
proposed ``Diplomatic Progress Fund.'' How, under current law, would 
entities in the West Bank and Gaza Strip be eligible to receive U.S. 
assistance?

    Answer. The Diplomatic Progress Fund will enable the U.S. to 
provide assistance where diplomatic breakthroughs present an 
opportunity to advance U.S. interests, including in support of 
diplomatic efforts such as the administration's plan for a lasting and 
comprehensive peace between Israel and the Palestinians. The 
administration continues to support existing restrictions on U.S. 
assistance for the Palestinian Authority (PA) that seek to end the 
abhorrent practice of PA payments to imprisoned terrorists and the 
families of terrorists, including through the Taylor Force Act and the 
prisoner payments' reductions included in the annual appropriations 
acts.

    Question. On December 3, 2018, the Holocaust Museum announced for 
the first time that it believes there is compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against humanity, 
and genocide against the Rohingya, Muslim minority population. Senator 
Young and I plan to re-introduce our Burma Human Rights and Freedom 
Act, which promotes democracy and human rights in Burma, and among 
other actions, requires a State Department report on crimes against 
humanity and other serious human rights abuses committed against the 
Rohingya and other ethnic groups in Burma. Do you believe that the 
gross human rights violations that took place in 2017--in which over 
700,000 fled persecution, when the Rohingya were raped, tortured, 
burned and killed for who they were--constitute genocide and crimes 
against humanity?

    Answer. I remain deeply concerned about the Burmese military's 
extensive, horrific human rights violations and abuses against the 
Rohingya and the need for accountability. Determinations that certain 
acts may amount to genocide, crimes against humanity, or ethnic 
cleansing are not made in all cases in which such acts may have been 
committed; they depend on our assessment of the facts and consequences 
of such determinations in each context. To establish a comprehensive 
understanding of the human rights abuses committed in Rakhine State, 
the Department supported a large-scale documentation project in Cox's 
Bazar, Bangladesh. The report clarified the extent and severity of the 
abuses, and the underlying information and findings will help inform 
our decisions as we seek accountability in Burma.

    Question. On December 3, 2018, the Holocaust Museum announced for 
the first time that it believes there is compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against humanity, 
and genocide against the Rohingya, Muslim minority population. Senator 
Young and I plan to re-introduce our Burma Human Rights and Freedom 
Act, which promotes democracy and human rights in Burma, and among 
other actions, requires a State Department report on crimes against 
humanity and other serious human rights abuses committed against the 
Rohingya and other ethnic groups in Burma. What additional measures 
would you recommend the U.S. take to address allegations of genocide, 
crimes against humanity, and war crimes?

    Answer. Since August 2017, the United States has sanctioned five 
Burmese generals and two Burmese military units for committing gross 
violations of human rights. I will continue to consider the utility of 
all bilateral and multilateral policy tools at our disposal, including 
sanctions, for further accountability. I will also continue U.S. 
support for Burma's transition to a civilian-led democracy. Further, we 
will continue to work closely with the U.N. and regional partners to 
support U.N. mechanisms, including the International Investigative 
Mechanism for Myanmar, the U.N. Special Rapporteur, and the U.N. 
Special Envoy and press the Government of Burma to grant such 
mechanisms unhindered access.

    Question. On December 3, 2018, the Holocaust Museum announced for 
the first time that it believes there is compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against humanity, 
and genocide against the Rohingya, Muslim minority population. Senator 
Young and I plan to re-introduce our Burma Human Rights and Freedom 
Act, which promotes democracy and human rights in Burma, and among 
other actions, requires a State Department report on crimes against 
humanity and other serious human rights abuses committed against the 
Rohingya and other ethnic groups in Burma. What additional measures 
would you recommend the international community take? Would you 
recommend, for example, collaboration to establish a multilateral 
sanctions regime against Burmese military officials who aided, 
participated in, or were otherwise implicated in gross violations of 
internationally recognized human rights in Burma?

    Answer. The United States was the first country to sanction a 
Burmese military officer after the ethnic cleansing of Rohingya in 
2017. We supported the U.N. fact-finding mission and continue to 
support its successor, the Independent Investigative Mechanism for 
Myanmar (IIMM). We also continue to support the mandates of the U.N. 
Special Envoy to Myanmar and the U.N. Special Rapporteur on the Human 
Rights Situation in Myanmar and co-sponsored the U.N. General Assembly 
resolution on human rights in Burma in 2018. We will continue to 
consider additional multilateral actions as appropriate and will 
continue to call for accountability for Burmese security forces and for 
the establishment of civilian control of the military.

    Question. On December 3, 2018, the Holocaust Museum announced for 
the first time that it believes there is compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against humanity, 
and genocide against the Rohingya, Muslim minority population. Senator 
Young and I plan to re-introduce our Burma Human Rights and Freedom 
Act, which promotes democracy and human rights in Burma, and among 
other actions, requires a State Department report on crimes against 
humanity and other serious human rights abuses committed against the 
Rohingya and other ethnic groups in Burma. How does your proposed 
budget adequately address the humanitarian crisis facing Rohingya and 
other minority groups who are internally displaced or have fled to 
Bangladesh, Thailand, and elsewhere in the region?

    Answer. The United States has led the donor response since the 
current Rakhine State crisis began in August 2017. We have provided 
more than $494 million in humanitarian assistance in Bangladesh and 
Burma in response to the crisis. The President's FY 2020 budget request 
includes plans for continued U.S. leadership in the humanitarian 
response, as well as to support the humanitarian needs of long-standing 
displaced Burmese elsewhere in the region.

    Question. On December 3, 2018, the Holocaust Museum announced for 
the first time that it believes there is compelling evidence that the 
Burmese military committed ethnic cleansing, crimes against humanity, 
and genocide against the Rohingya, Muslim minority population. Senator 
Young and I plan to re-introduce our Burma Human Rights and Freedom 
Act, which promotes democracy and human rights in Burma, and among 
other actions, requires a State Department report on crimes against 
humanity and other serious human rights abuses committed against the 
Rohingya and other ethnic groups in Burma. Additionally, given that the 
most effective way to permanently resolve the Rohingya refugee crisis 
is by restoring their citizenship in Burma and ensuring safe, dignified 
and voluntary repatriation process, how do you propose employing the 
Department's resources to resolving the Rohingya refugee crisis in a 
more permanent manner?

    Answer. Supporting the Burmese government's stated commitment to 
facilitate the return of Rohingya is currently the best avenue to 
ensure that the ethnic cleansing of Rohingya from northern Rakhine 
State does not become permanent. The United States has consistently 
urged Bangladesh and Burma to involve the United Nations in the 
repatriation process while emphasizing that any returns of refugees 
must be fully voluntary, safe, and dignified. And we continue to press 
Burma to implement the recommendations of the Annan Commission to 
address root causes and uphold the human rights of Rohingya.

    Question. How can the U.S. better communicate with our allies in 
the future, particularly on decisions including whether to reduce or 
withdraw U.S. forces from Afghanistan?

    Answer. We have an ongoing dialogue with NATO regarding the future 
of our shared mission in Afghanistan and our ongoing efforts to achieve 
a comprehensive peace agreement that will ensure Afghanistan is never 
again a platform for international terrorism. At the April 3-4 NATO 
foreign ministerial, I personally updated our NATO Allies and partners 
on the work of Ambassador Khalilzad. Since December 2018, Ambassador 
Khalilzad has visited NATO headquarters for three rounds of 
consultations and briefed the North Atlantic Council on another 
occasion via video teleconference.

    Question. How can the U.S. play a role in facilitating post-
conflict peacebuilding, including encouraging investigations into and 
accountability for allegations of war crimes?

    Answer. The United States supports accountability for the 
deliberate killing of civilians and other serious crimes in 
Afghanistan. We will continue to encourage the Afghan government to 
further reform the justice sector, promote the rule of law, and hold 
accountable those responsible for serious crimes in the country.

    Question. In December 2018, President Trump announced that U.S. 
troops would withdraw from Syria; however, U.S. officials state that 
troops will redeploy by summer 2019. Recent testimony from U.S. Central 
Command Commander Gen. Joseph Votel states that approximately 1,500 IS 
fighters have been confined to a 20 square mile area of the Euphrates 
River valley in Syria near the border with Iraq. Meanwhile, the 
administration has not requested any bilateral foreign assistance for 
programs in Syria for FY 2020. What is your assessment of the December 
decision to withdraw U.S. troops from Syria and what impact does this 
decision have on the broader perception of U.S. interest and engagement 
in the Middle East?

    Answer. While we have completed the territorial defeat of ISIS, the 
group remains a determined enemy. We are therefore keeping a residual 
force in Syria as part of the continued Defeat-ISIS Coalition mission, 
helping to root out ISIS remnants and prevent the group from regaining 
momentum. Our policy objectives remain: (1) the enduring defeat of 
ISIS; (2) a lasting political solution in accordance with U.N. Security 
Council Resolution 2254; and (3) removing all Iranian-commanded forces 
from Syria. We are also continuing to counter destabilizing activities 
by Russia, including efforts to press countries to normalize ties with 
the Assad regime and force refugees and internally displaced persons to 
return home before it is safe to do so.

    Question. In December 2018, President Trump announced that U.S. 
troops would withdraw from Syria; however, U.S. officials state that 
troops will redeploy by summer 2019. Recent testimony from U.S. Central 
Command Commander Gen. Joseph Votel states that approximately 1,500 IS 
fighters have been confined to a 20 square mile area of the Euphrates 
River valley in Syria near the border with Iraq. Meanwhile, the 
administration has not requested any bilateral foreign assistance for 
programs in Syria for FY 2020. How does the budget request reflect the 
administration's stance on bilateral foreign assistance? Can you 
comment on the decision to allocate 91 percent of total bilateral aid 
requested for the MENA region to Israel, Egypt, and Jordan over 
countries like Syria?

    Answer. The FY 2020 request prioritizes funding for Israel and 
Jordan at the levels set by our respective MOUs with these two key 
regional allies. We also remain deeply committed to our relationship 
with Egypt and Egypt's security and stability. Foreign assistance is 
important to the bilateral relationship and to helping Egypt address 
threats to its national security. U.S. policy priorities in Syria 
remain unchanged. We are committed to the enduring defeat of ISIS and 
al-Qa'ida, a political solution to the Syrian conflict in line with 
United Nations Security Council Resolution (UNSCR) 2254, and the 
removal of all Iranian-led forces in Syria.

    Question. The State Department's FY 2020 budget justification 
states that, ``The role and size of the U.N. Mission in South Sudan 
(UNMISS) will likely increase somewhat, in order to appropriately 
respond to the severe security and humanitarian situation and to 
support the fledgling commitment from South Sudanese parties to engage 
in peace processes.'' Nevertheless, that same document requests a 
nearly one-third cut in U.S. funding for the mission. If the 
administration does, as your own department suggests, plan to vote for 
an expansion of UNMISS on the Security Council, what rational basis is 
there for underfunding it?

    Answer. U.N. peacekeeping operations, including the U.N. Mission in 
South Sudan (UNMISS), are effective mechanisms to address global 
challenges to international peace and security. However, the U.N. needs 
to complete reforms to achieve more efficient operations, and other 
U.N. member countries must assume more of the financial burden. The 
United States is focused on supporting Secretary-General Guterres' 
peacekeeping reform efforts and is working with U.N. member states to 
create a ``culture of performance'' in U.N. peacekeeping. Doing so will 
improve U.N. operations and ensure U.S. taxpayer resources are used in 
the most cost-effective manner.

    Question. What are the specific actions that the Department will 
take to support a vibrant and active civil society in Guatemala, 
particularly because this is so tied to regional stability and 
migration?

    Answer. The Department of State, under my leadership, is committed 
to supporting a vibrant and active civil society in Guatemala. We will 
encourage increased protections for civil society organizations and 
promote their vital role in a healthy democracy. We will engage 
Guatemalan officials and use the Department's media platforms in an 
effort to limit restrictions on civil society and promote respect for 
human rights and the rule of law.

    Question. Particularly given your recent unvetted and ill-advised 
decision to cut funding from Guatemala and other Northern Triangle 
countries, how do you intend to ensure regional stability without this 
funding?

    Answer. The Department wants to see a safe and prosperous Northern 
Triangle where citizens do not flee their countries but instead choose 
to stay and contribute to their communities' growth. We are actively 
engaging the Northern Triangle governments on additional steps they can 
take to improve border security; combat migrant smuggling and 
trafficking in persons, especially related to children; receive 
returned citizens; and dissuade illegal immigration. Likewise, we 
continue urging these governments to make needed reforms to improve 
citizen security and economic growth, attract foreign investment to 
create jobs, and address corruption and impunity by strengthening 
governance and judicial capacity to increase accountability and deter 
crime.

    Question. Do you agree that CICIG has contributed significantly to 
combating the culture of impunity and corruption in Guatemala in the 
last 12 years?

    Answer. We have focused our efforts in Guatemala on developing 
Guatemala's ability to combat corruption and impunity and exercise the 
rule of law. The Department has sought a reformed CICIG with greater 
transparency and accountability in order to ensure the investigative 
and prosecutorial capacity can be effectively transferred from CICIG to 
Guatemalan institutions. We continue to support efforts that will build 
the capacity of Guatemalan institutions to fight corruption and 
impunity.

    Question. Do you pledge to support the continued work of CICIG, or 
other justice and anti-corruption mechanisms, in Guatemala through 
designated U.S. funding?

    Answer. CICIG's presence depended on the consent of the Guatemalan 
government and in September 2019, CICIG's current mandate is set to 
expire. We will however, continue to support efforts that will build 
the capacity of Guatemalan institutions to fight corruption and 
impunity.

    Question. Will you raise concerns about Morales's attacks on CICIG 
or other mechanisms and support foreign policy measures to defend these 
bodies?

    Answer. I believe firmly that the rule of law, reducing corruption, 
and ending impunity are essential to ensuring security, governance, and 
prosperity, not only in Guatemala but throughout the region and the 
world. The Department, under my leadership, continues to publicly 
support the rule of law, strong democratic institutions, and efforts to 
address endemic corruption and impunity, which threaten Guatemala's 
future economic security and stability. We continue to support efforts 
that will build the capacity of Guatemalan institutions to fight 
corruption and impunity.

    Question. The State Department's 2018 Human Rights Report says that 
the ``judicial system [in Guatemala] generally failed to provide fair 
or timely trials due to inefficiency, corruption, and intimidation of 
judges, prosecutors, and witnesses.'' Additionally, Guatemala's 
Congress is attempting to pass an amnesty legislation that will 
terminate all ongoing justice proceedings, free all military officials 
and guerrilla leaders already convicted, and bar all future 
investigations into international crimes including genocide, torture, 
and crimes against humanity during the country's 36-year civil war. How 
do you propose DRL should support the thousands of victims who still 
have pending legal cases against army generals, security forces and 
former presidents for disappearances, torture, and extermination of 
whole villages?

    Answer. I am deeply concerned about the proposed amendments to the 
national reconciliation law and criminal code in Guatemala. The trials 
held in Guatemala to date for crimes related to human rights violations 
and abuses have restored dignity to the victims' surviving families and 
fostered increased trust in state institutions. I remain committed to 
supporting Guatemalan institutions and the Guatemalan people in their 
ongoing fight against corruption and impunity. My staff, including DRL, 
will continue to monitor closely and engage with stakeholders in 
judicial processes and ensure we continue to promote the rule of law 
and truth and accountability for human rights violations.

    Question. The State Department's 2018 Human Rights Report says that 
the ``judicial system [in Guatemala] generally failed to provide fair 
or timely trials due to inefficiency, corruption, and intimidation of 
judges, prosecutors, and witnesses.'' Additionally, Guatemala's 
Congress is attempting to pass an amnesty legislation that will 
terminate all ongoing justice proceedings, free all military officials 
and guerrilla leaders already convicted, and bar all future 
investigations into international crimes including genocide, torture, 
and crimes against humanity during the country's 36-year civil war. 
What role do you believe DRL can play in strengthening the rule of law 
in Guatemala?

    Answer. I am deeply concerned about the challenges facing the 
Guatemalan judicial system and the proposed amendments to the national 
reconciliation law and criminal code in Guatemala. I remain committed 
to supporting Guatemalan rule of law institutions and the Guatemalan 
people in their ongoing fight against crime, corruption, and impunity. 
DRL's role, in coordination with other bureaus, is to engage with civil 
society stakeholders, closely monitor judicial processes, implement 
visa restrictions and sanctions on individuals who violate human 
rights, and ensure we continue to call out corruption or abuse that 
undermines the rule of law.

    Question. The State Department's 2018 Human Rights Report states 
that 158 cases of criminalization were filed against human rights 
defenders through August, over 300 attacks against human rights 
defenders occurred through September, and 24 human rights defenders 
were killed through October of last year. What concrete measures will 
you take to protect those individuals who are on the frontlines of 
defending human rights in Guatemala?

    Answer. Under my leadership, the Department of State is committed 
to promoting and protecting civil society in Guatemala. We will 
encourage increased protections for human rights defenders and promote 
their vital role in a healthy democracy. We will engage Guatemalan 
officials to promote respect for human rights and the rule of law and 
use the Department's media platforms in an effort to end impunity for 
threats and violence against human rights defenders.

    Question. On April 9, Senator Blunt and I introduced a resolution 
commemorating the U.S.-Colombia strategic partnership and relaunched 
the Atlantic Council's Colombia Task Force. At great cost and 
sacrifice, Colombians have worked to partner with the U.S. in Colombia 
and elsewhere to fight armed groups, halt narcotics trafficking, and 
help stabilize the region. They now face the added challenge of a 
crisis next door in Venezuela and more than a million Venezuelans who 
are now in Colombia. How does the administration plan to help Colombia 
address the Venezuela crisis without detracting from Colombia's own 
efforts to consolidate peace and security?

    Answer. The USG has committed nearly $130 million in aid to respond 
to the influx of Venezuelans in Colombia since FY 2017, including $37.1 
million in development assistance and $91 million in humanitarian 
assistance. This funding supports Colombia's efforts to assist 
Venezuelan migrants and refugees and the communities that accept them. 
In addition to this support, the FY 2019 appropriation includes $418.3 
million in bilateral assistance for Colombia. This includes robust 
support for priorities such as our joint goal to reduce coca 
cultivation and cocaine production by 50 percent by the end of 2023, as 
well as peace implementation.

    Question. Part of the success of Plan Colombia was that it balanced 
counter-narcotics and security assistance with support for development, 
governance, and human rights to address the root causes of conflict and 
crime in the country. Why does the administration plan to cut more than 
$80 million dollars in economic support and development funding to 
Colombia at this critical moment?

    Answer. We strongly support Colombia's efforts to secure a lasting 
peace and address root causes of conflict and appreciate Congressional 
support for this critical bilateral relationship. U.S. foreign 
assistance advances shared goals on security, rural economic 
development, good governance, and human rights. The FY 2020 request for 
Colombia reflects the administration's focus on advancing bilateral 
priorities, including on counternarcotics and peace implementation. 
Building on effective prior-year programs, U.S. assistance will focus 
on: (1) security, including counternarcotics and reintegration of ex-
combatants; (2) expansion of state presence in conflict-affected areas; 
and (3) justice and other support to the Colombian government for 
victims.

    Question. We have seen the importance of engaging the Caribbean as 
related to the Venezuela crisis, narcotics trafficking and migration, 
and votes in the U.N. and OAS. Does the administration have a strategy 
to more effectively engage with Caribbean nations?

    Answer. The Trump administration has made the strengthening of 
relations with the Caribbean a priority for the reasons you outline. On 
April 12, Deputy Secretary of State Sullivan plans to hold a 
ministerial with 18 Caribbean countries to launch a new ``U.S.-
Caribbean Resilience Partnership'' to build upon our Caribbean 2020 
strategy and increase our engagement with this important region. This 
ministerial follows President Trump's March 22 engagement at Mar-a-Lago 
with the leaders of the Bahamas, the Dominican Republic, Haiti, 
Jamaica, and Saint Lucia. We continue to implement Congressional 
directives and build stronger disaster resilience, energy, and security 
ties through the American Crece Initiative and the Caribbean Basin 
Security Initiative.

    Question. We have seen the importance of engaging the Caribbean as 
related to the Venezuela crisis, narcotics trafficking and migration, 
and votes in the U.N. and OAS. The President's budget proposes zeroing 
out assistance to the Eastern Caribbean, the Dominican Republic, and 
the USAID Caribbean development program. What effects will that have on 
Caribbean countries' ability to respond to these challenges or support 
U.S. positions in the U.N. or OAS?

    Answer. The Trump administration has made stronger relations with 
the Caribbean a priority for the reasons you outline. The FY 2020 
request for the Caribbean prioritizes U.S. foreign assistance that 
supports key counternarcotics, anti-trafficking, crime and violence 
prevention, and other security cooperation programs. The request 
includes $4.4 million in bilateral assistance for the Caribbean, 
including $600,000 for Barbados and the Eastern Caribbean and $500,000 
for the Dominican Republic. It also includes $40.2 million for the 
Caribbean Basin Security Initiative, which supports critical efforts to 
develop the region's judicial and police capacity. This assistance 
directly responds to key needs identified by Caribbean nations.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                     Submitted by Senator Tim Kaine

    Question. On March 28, 2019 you met with Prince Khalid bin Salman, 
now Saudi Arabia's deputy defense minister, at the State Department. 
During the time of Jamal Khashoggi's murder, he was Saudi Arabia's 
Ambassador to the United States. According to the CIA's assessment, 
Prince Khalid helped persuade Khashoggi to visit the Saudi consulate in 
Istanbul where he was killed and dismembered. He also lied to Members 
of this body about Khashoggi's murder and then left the country. Do you 
believe the CIA's assessment that Prince Khalid bin Salman had a role 
in in the murder? Do you think it is appropriate to meet individuals 
involved in Khashoggi's murder at State Department headquarters? What 
message does this send about the administration's intent to hold those 
responsible accountable?

    Answer. I have been clear that Saudi Arabia must hold accountable 
every individual implicated in the horrific murder of Jamal Khashoggi, 
including high-ranking members of the Saudi government. I have pressed 
senior Saudi leadership, including the King, Crown Prince, and Khalid 
bin Salman, on this point. I cannot characterize or discuss 
intelligence matters in this forum.

    Question. IAEA Director Amano has said that Saudi Arabia has not 
given the IAEA a clear answer on its nuclear intentions. Amano recently 
told reporters that, ``They didn't say no. They didn't say yes, and 
they are now giving it thought. This is where we stand now.'' You have 
been categorical that you will not permit Saudi Arabia to become a 
nuclear power. Has Saudi Arabia given you a clear answer on its nuclear 
intentions and what was your response?

    Answer. Saudi Arabia is a party to the Nuclear Nonproliferation 
Treaty and has a comprehensive safeguards agreement in force with the 
IAEA. It has committed to an obligation never to acquire nuclear 
weapons and to apply IAEA safeguards to all peaceful nuclear 
activities. We have been clear that we attach great importance to Saudi 
Arabia's continued implementation of these obligations.

    Question. During the hearing, you committed to telling me when the 
Department of State concurred in a decision to grant a Part 810 
authorization for a U.S. company to conduct work in Saudi Arabia. 
Additionally, you committed to telling me the dates of when the State 
Department concurred in a decision to allow a Part 810 authorization 
for Saudi Arabia to be kept secret. Who in the Department provided this 
concurrence? Were any of these concurrences after October 2, 2018?

    Answer. The Bureau of International Security and Nonproliferation 
oversaw the State Department's review of Saudi Arabia-related Part 810 
applications from November 2017 to March 2019. These reviews were 
conducted consistent with U.S. law and standard Department of State 
practices. Part 810 authorizations differ from 123 agreements in that 
they do not provide a legal basis to transfer nuclear material or 
reactors, as a 123 agreement does, but rather merely authorize the 
transfer of nuclear-related technical assistance, subject matter 
expertise, and data. The State Department is not involved in 
determining whether information in the authorization is protected from 
public disclosure; I refer you to the Department of Energy for such 
issues.

    Question. Is it an administration priority for Saudi Arabia to 
repeal the guardianship rules that prevent women from owning property, 
opening a business, or traveling out of the country without explicit 
permission from a male family member? Please detail your efforts and 
engagements to date on this front with Saudi officials. What, if any, 
progress have you made because of these efforts and engagements?

    Answer. The State Department's most recent Human Rights Report on 
Saudi Arabia documents significant restrictions on freedom of 
expression and civil society, as well as ongoing discrimination through 
mechanisms such as guardianship rules. While the administration 
welcomes many of the positive reforms underway in the Kingdom to expand 
opportunities for women, we have consistently told Saudi leadership 
that repressive policies threaten to undermine the very progress it 
seeks to achieve.

    Question. President Trump has repeatedly touted his early 
opposition to the Iraq War. In 2016, he said, ``I was totally against 
the war in Iraq.'' During his recent State of the Union address, he 
also said, ``Great nations do not fight endless wars.'' In Cairo in 
January of this year, you said that ``[t]oday in Iraq, at the 
government's invitation, we have approximately 5,000 troops where there 
were once 166,000,'' and further that ``when we do set up major bases . 
. . it's at the invitation of the host country.'' Also in January, 
CENTCOM Commander General Votel gave testimony before SASC noting that 
U.S. forces are in Iraq ``at the invitation of the Government of 
Iraq.'' Do you agree that the Government of Iraq--a democratically 
elected, sovereign Government--is now a partner and that U.S. forces 
are there at their invitation to combat ISIS?

    Answer. Yes, the United States and Iraq are partners, and U.S. 
forces are in Iraq at the Government of Iraq's invitation. President 
Barham Saleh, PM Adel Abd al-Mahdi, and Parliament Speaker Mohammed al-
Halbusi publicly support the U.S. and Coalition troop presence in Iraq. 
They have affirmed in their statements that U.S. forces are in Iraq at 
the Government of Iraq's invitation to advise and assist Iraq with 
counter-terrorism and the fight against ISIS. We look forward to 
continuing to partner with the Government of Iraq to ensure the lasting 
defeat of ISIS.

    Question. President Trump has repeatedly touted his early 
opposition to the Iraq War. In 2016, he said, ``I was totally against 
the war in Iraq.'' During his recent State of the Union address, he 
also said, ``Great nations do not fight endless wars.'' In Cairo in 
January of this year, you said that ``[t]oday in Iraq, at the 
government's invitation, we have approximately 5,000 troops where there 
were once 166,000.'' and further that ``when we do set up major bases . 
. . it's at the invitation of the host country.'' Also in January, 
CENTCOM Commander General Votel gave testimony before SASC noting that 
U.S. forces are in Iraq ``at the invitation of the Government of 
Iraq.'' Do you think it reflects the current state of our bilateral 
relationship to have not one, but two, open war authorizations against 
Iraq?

    Answer. The United States and Iraq are partners and have a 
relationship characterized by friendship and cooperation, as reflected 
in the bilateral Strategic Framework Agreement for a Relationship of 
Friendship and Cooperation signed between the United States and the 
Republic of Iraq. The authorizations for use of military force do not 
determine the character of our relationship with the Government of 
Iraq.

    Question. Do you support repeal of the 1991 AUMF for the Gulf War?

    Answer. The administration is not seeking any changes to existing 
authorizations for the use of military force.

    Question. Is the administration relying upon the 2002 AUMF--which 
was a war declaration against the Iraqi regime of Saddam Hussein--as 
the sole legal authority for any U.S. military operations in Iraq or 
elsewhere (not just as reinforcing actions taken under the 2001 AUMF)?

    Answer. The administration relies upon the 2002 AUMF for certain 
operations against ISIS but relies in those cases upon the 2001 AUMF as 
well. We do not believe it would be prudent to terminate the 2002 AUMF 
without making it clear that counter-ISIS operations continue.

    Question. Do you agree that the administration should only support 
a resolution to the Israeli-Palestinian conflict in which the 
Palestinians have full and equal rights to those of the Israelis?

    Answer. This administration continues to work toward a 
comprehensive and lasting peace between Israel and the Palestinians 
that offers a brighter future for all. We have made it clear that, 
ultimately, it will be up to the parties to decide if and how to move 
forward. As the President has said, he is open to any solution the two 
parties find acceptable.

    Question. Do you commit that any change in the status of 
sovereignty over any piece of Palestinian territory will take place in 
the framework of a final resolution to the Israeli-Palestinian conflict 
agreed upon by both sides?

    Answer. As the President has said, he is open to any solution the 
two parties find acceptable. This administration intends to release its 
own vision for peace between Israel and the Palestinians that offers a 
brighter future for all. Ultimately, it will be up to the parties to 
decide if and how to move forward.

    Question. What is the administration's position on Israeli 
settlements, including new settlements, outposts and the expansion of 
the land covered by existing settlements? Does the administration 
believe that continued settlement activity is illegal under 
international law?

    Answer. The administration has stated that while the existence of 
settlements is not in itself an impediment to peace, further 
unrestrained settlement activity does not help advance peace. The 
Israeli government has made clear that going forward, its intent is to 
adopt a policy regarding settlement activity that takes the President's 
concerns into consideration. We welcome this.

    Question. Does the administration view its recognition of Israeli 
claims of sovereignty over the Golan Heights as consistent with U.S. 
treaty obligations under the U.N. Charter? Specifically, does the 
administration view Israel's claim of sovereignty over the Golan 
Heights as consistent with its treaty obligation to ``refrain in [its] 
international relations from the threat or use of force against the 
territorial integrity or political independence of any state'' under 
Art. 2(4) of the U.N. Charter? If so, how so?

    Answer. The administration has made clear it, like all 
administrations before it, supports negotiations towards a 
comprehensive peace between Israel and its neighbors. This 
administration is willing to acknowledge the reality that there can be 
no comprehensive peace agreement that does not satisfactorily address 
Israel's security needs in the Golan Heights. The President's statement 
on the Golan reflects his understanding of the unique circumstances 
that makes it appropriate to recognize Israeli sovereignty at this 
time. The Golan is an area vital to Israel's national security. Our 
policy continues to be that no country can change the borders of 
another by force.

    Question. Does the administration view Israel's claim of 
sovereignty over the Golan Heights as consistent with U.N. Security 
Council Resolutions 242 and 497 and Israel's related treaty obligations 
under the U.N. Charter? If so, how so?

    Answer. The administration has made clear it, like all 
administrations before it, supports negotiations towards a 
comprehensive peace between Israel and its neighbors. This 
administration is willing to acknowledge the reality that there can be 
no comprehensive peace agreement that does not satisfactorily address 
Israel's security needs in the Golan Heights. The President's statement 
on the Golan reflects his understanding of the unique circumstances 
that makes it appropriate to recognize Israeli sovereignty at this 
time. The Golan is an area vital to Israel's national security.

    Question. Does the administration view Israel's claim of 
sovereignty over the Golan Heights as consistent with its treaty 
obligation under the Fourth Geneva Convention, most specifically Art. 
47? If so, how so?

    Answer: We expect all states, including our partners and allies, to 
comply with their international legal obligations. I would refer you to 
the Government of Israel for questions regarding Israel's treaty 
obligations.

    Question. Does the administration view its recognition of Israeli 
sovereignty over the Golan Heights as consistent with its obligation 
under Common Article 1 of the Geneva Conventions to ``ensure respect 
for the [Geneva Conventions] in all circumstances?'' If so, how so?

    Answer. The United States does not interpret Common Article 1 of 
the Geneva Conventions to require Parties to police the conduct of 
other states.

    Question. Does the United States continue to view the prohibition 
on ``the threat or use of force against the territorial integrity or 
political independence of any state'' articled in Art. 2(4) of the U.N. 
Charter as a binding obligation on U.N. member states under 
international law? Does the United States view its recognition of 
Israeli sovereignty over the Golan Heights as fitting within a legal 
exception to this obligation? If so, what is the legal basis and scope 
of this exception?

    Answer. There has been no change in U.S. policy in this regard. Our 
policy continues to be that no country can change the borders of 
another by force.

    Question. There has been strong condemnation from you, Ambassador 
Brownback, and Vice President Pence regarding China's crackdown on the 
civil and religious liberties of Uyghurs in the Xinjiang region of 
China. However, Congress has received little information as to what has 
been discussed--if at all--in diplomatic conversations with the Chinese 
about Americans with relatives missing, including family members of six 
journalists (all Virginia residents) working for taxpayer-funded Radio 
Free Asia. These individuals were specifically targeted for their work 
in exposing abuses by the Chinese government. Could you describe in 
detail the inquiries and efforts regarding these individuals--beyond 
public statements--and whether the administration is raising these 
cases with Chinese officials at every opportunity, such as in recent 
trade talks?

    Answer. I share your concerns about China's highly repressive 
campaign in Xinjiang. The Department has regularly raised the case of 
the Radio Free Asia (RFA) journalists with Chinese counterparts. In 
2018, then-Spokesperson Heather Nauert met with the RFA reporters to 
hear about their families. Department officials, including myself, have 
met with Uighur residents in the United States to gather information 
about conditions in Xinjiang. We continue to raise these cases with 
Beijing and insist China provide information about the locations and 
medical conditions of those detained and immediately release them and 
all those arbitrarily detained.

    Question. Are you concerned that Vietnam's overall trajectory on 
human rights is moving in the wrong direction?

    Answer. Yes. While we have seen some positive steps on human rights 
in Vietnam over the past few years--including increased recognition of 
religious organizations and limited legal reforms--we are deeply 
concerned by the growing trend of arrests, convictions, and harsh 
sentences of peaceful activists and members of religious communities, 
as well as increased restrictions on free expression, peaceful 
assembly, and association. We regularly raise our human rights concerns 
with Vietnam and will continue to urge that they reverse the current 
trend.

    Question. What steps has the administration taken to hold Vietnam 
accountable for its failure to meet international norms for human 
rights?

    Answer. We have repeatedly called on Vietnam to release all 
prisoners of conscience immediately, and to allow all individuals in 
Vietnam to peacefully express their political views and exercise their 
freedom of religion without fear of government retribution. We have 
also urged the Vietnamese government to bring its actions and laws, 
including the Penal Code and new Law on Cybersecurity, into compliance 
with the human rights provisions of Vietnam's Constitution and 
Vietnam's international obligations and commitments. We continue to 
raise human rights issues with Vietnam at all levels and will do so at 
our upcoming annual human rights dialogue, which will be held in Hanoi, 
in May.

    Question. President Trump has met with Vietnamese leaders several 
times since 2017--has he discussed human rights issues with senior 
members of the Vietnamese Community Party?

    Answer. During his most recent visit, President Trump recognized 
the importance of protecting and promoting human rights in Vietnam, as 
affirmed in U.S.-Vietnam joint statements. President Trump and 
Vietnamese leaders have supported the frank discussion of human rights, 
including during the U.S.-Vietnam Human Rights Dialogue. The 
administration continues to make clear to Vietnam that the bilateral 
relationship cannot reach its fullest potential absent progress on 
human rights.

    Question. Will the U.S. continue to deepen its military ties with 
Vietnam if the human rights situation in the country continues to 
deteriorate?

    Answer. Our goal is to support the development of a strong, 
prosperous, and independent Vietnam that contributes to international 
security; engages in free, fair, and reciprocal trade; and respects 
human rights and the rule of law. We have made it clear to Vietnam that 
only through sustained progress on human rights can the U.S.-Vietnam 
partnership reach its fullest potential.

    Question. In FY 2018, we provided $9 million in ESF funding to the 
Organization for American States. OAS funding was zeroed out in the 
administration's FY 2019 and FY 2020 budget requests. On March 26, you 
announced the U.S. would cut $210,000 in funding to the OAS. You had 
recently received a letter from nine Republican Senators calling 
attention to statements and actions of OAS organs including the Inter-
American Commission on Human Rights and the Inter-American Commission 
on Women. The Senators expressed concern that the Siljander Amendment, 
which bars the use of federal funds appropriated under the Foreign 
Operations Appropriations Act from being used to lobby for or against 
abortion, is not being properly enforced by the State Department. The 
Senators asked you to stop funding OAS organs that they believe are 
lobbying in support of abortion until they are in compliance with the 
Siljander Amendment. Describe in detail the Department's process for 
evaluating compliance with the Siljander Amendment.

    Answer. Due to concerns regarding certain Inter-American Commission 
on Human Rights activities related to abortion, the Department 
undertook a review of foreign assistance funding provided to OAS. 
Because of concerns regarding these activities, the Department is 
withholding part of the FY 2019 U.S. assessed contribution to the OAS 
regular budget in an amount equivalent to the U.S. proportional share 
of possible OAS costs of the activities.

    Question. In FY 2018, we provided $9 million in ESF funding to the 
Organization for American States. OAS funding was zeroed out in the 
administration's FY 2019 and FY 2020 budget requests. On March 26, you 
announced the U.S. would cut $210,000 in funding to the OAS. You had 
recently received a letter from nine Republican Senators calling 
attention to statements and actions of OAS organs including the Inter-
American Commission on Human Rights and the Inter-American Commission 
on Women. The Senators expressed concern that the Siljander Amendment, 
which bars the use of federal funds appropriated under the Foreign 
Operations Appropriations Act from being used to lobby for or against 
abortion, is not being properly enforced by the State Department. The 
Senators asked you to stop funding OAS organs that they believe are 
lobbying in support of abortion until they are in compliance with the 
Siljander Amendment. Provide all evidence used to justify immediate 
funding reductions for these entities. Describe efforts undertaken to 
ensure that organs actively lobbying against abortion are in compliance 
with the Siljander Amendment.

    Answer. Due to concerns regarding certain Inter-American Commission 
on Human Rights activities related to abortion, the Department is 
withholding part of the FY 2019 U.S. assessed contribution to the OAS 
regular budget in an amount equivalent to the U.S. proportional share 
of possible OAS costs of the activities. The Department is also 
including a standard provision in grants and other foreign assistance 
agreements with OAS, which specifies that none of the funding provided 
by the United States to OAS may be used to lobby for or against 
abortion.

    Question. In your comments on the reduction of funding, you 
suggested that the OAS ``should be focused on addressing crises in 
Cuba, Nicaragua and Venezuela, not advancing the pro-abortion cause.'' 
The OAS has been a critical partner for the bipartisan U.S. support of 
political transition in Venezuela. Our partnership with the OAS and the 
Lima Group gives regional legitimacy and credibility to support for 
Interim President Guaido and to sanctions on Maduro and his inner 
circle. Please provide examples of ways in which the OAS has not been 
focused on addressing the crisis in Venezuela.

    Answer. We are greatly satisfied with the OAS response in 
addressing the crisis in Venezuela. The OAS remains fully focused on 
this issue and continues to demonstrate strong and determined 
leadership in advancing our joint regional efforts in support of the 
legitimate government of interim President Juan Guaido and the 
restoration of Venezuelan democracy, including recognizing Gustavo 
Tarre as the new Venezuelan government's representative. The United 
States remains committed to supporting the vital work of the OAS as the 
premier political multilateral institution committed to the promotion 
and defense of democracy in the region consistent with the principles 
and values articulated in the OAS Charter and the Inter-American 
Democratic Charter.

    Question. In your comments on the reduction of funding, you 
suggested that the OAS ``should be focused on addressing crises in 
Cuba, Nicaragua and Venezuela, not advancing the pro-abortion cause.'' 
The OAS has been a critical partner for the bipartisan U.S. support of 
political transition in Venezuela. Our partnership with the OAS and the 
Lima Group gives regional legitimacy and credibility to support for 
Interim President Guaido and to sanctions on Maduro and his inner 
circle. Please explain the why ESF was zeroed out for the OAS in the 
administration's FY20 budget request. Please detail (fiscal year and 
account) where the $210,000 cuts will come from and any plans to 
redirect that funding.

    Answer. The Department did not request ESF funding for OAS in the 
FY 2020 request consistent with prior-year budget requests, including 
by previous administrations, which did not specify ESF funding for OAS. 
The $210,000 withholding is from FY 2019 funds in the Contributions to 
International Organizations (CIO) account that are available for the 
assessed contribution to the OAS regular budget. No decision has been 
made at this time on allocation of the CIO funds withheld from OAS.

    Question. What is the status of ``Phase II'' discussions between 
the U.S. and Sudan in light of the ongoing political transition? Will 
the U.S. attempt to revive these discussions under a transitional or 
future government?

    Answer. We are assessing the best way forward on Phase II 
engagement. We will continue to calibrate our Sudan policy based on our 
assessment of events on the ground.

    Question. How will the departure of President Bashir affect 
discussions over Sudan's designation as a State Sponsor of Terror?

    Answer. Sudan remains designated as a State Sponsor of Terrorism 
(SST), and a number of foreign assistance and other restrictions remain 
in place. Before rescission of Sudan's designation as an SST will be 
considered, the United States must determine Sudan has made sufficient 
progress on areas of mutual concern and meets all relevant statutory 
criteria for SST rescission. We will continue to calibrate our policies 
based on our assessment of events on the ground.

    Question. The government of Kenya recently announced plans to close 
Dadaab refugee camp, which houses over 230,000 refugees, most Somali, 
despite the Kenyan High Court standing ruling prohibiting this action. 
I am concerned that the administration's drastic reduction in the 
refugee camp, coupled with ``extreme vetting'' procedures, have 
prevented us from being a steadfast partner to Kenya and other African 
nations who host large refugee populations, and have contributed to 
harder-line policies towards refugees in these countries. Please detail 
how the U.S. is engaging with Kenya, either bilaterally or 
multilaterally with other nations and/or international organizations, 
on the specific issue of Dadaab and on the issue of refugees more 
broadly.

    Answer. The United States continues to engage the U.N. Refugee 
Agency (UNHCR) and the Government of Kenya (GOK) on the closure 
directive. UNHCR is leading the discussion and has assured the United 
States that Kenya remains committed to its obligations and seeks to 
transition Dadaab into a sustainable space for refugees. The GOK has 
publicly stated returns to Somalia must be done in safety and dignity, 
and the environment must be conducive for returns. The United States 
leads a core donor group in Nairobi that focuses on solutions for 
refugees in Kenya and supports the GOK's efforts to pass a draft 
refugee bill. If enacted, the bill would facilitate refugee access to 
employment opportunities and national education and health services.

    Question. The government of Kenya recently announced plans to close 
Dadaab refugee camp, which houses over 230,000 refugees, most Somali, 
despite the Kenyan High Court standing ruling prohibiting this action. 
I am concerned that the administration's drastic reduction in the 
refugee cap, coupled with ``extreme vetting'' procedures, have 
prevented us from being a steadfast partner to Kenya and other African 
nations who host large refugee populations, and have contributed to 
harder-line policies towards refugees in these countries. How many 
Somali refugees were resettled in the U.S. in 2018, as compared to 2017 
and 2016?

    Answer. The United States admitted 257 Somali refugees via the U.S. 
Refugee Admissions Program (USRAP) in FY 2018. In FY 2017, the USRAP 
resettled 6,130 Somali refugees to the United States, and in FY 2016, 
the USRAP admitted 9,020 Somali refugees.

    Question. What steps is the State Department taking to emphasize 
the critical importance of a political solution to the crisis in the 
Anglophone regions, support civil society groups to ensure that 
elections are free, credible, and transparent, and offer our assistance 
as mediators?

    Answer. We have urged both sides to forswear further acts of 
violence and to enter into a broad-based dialogue without 
preconditions. The Department is working closely with our diplomatic 
partners including the EU, the U.K., and France to encourage dialogue 
between both sides. The Department continues to urge the Government of 
Cameroon to address citizens' grievances, strengthen its electoral and 
legal frameworks, and increase political plurality and respect for 
fundamental freedoms, particularly the rights to freedom of expression 
and assembly. We continue to support civil society actors in Cameroon 
who reinforce their fellow citizens' constitutional rights and 
encourage non-violent means to prevent further violence.

    Question. What is the current extent of U.S. military cooperation 
with Cameroonian security forces? Is the State Department considering 
whether to impose additional conditions on U.S. security assistance to 
Cameroon?

    Answer. The U.S. government has made it clear to the Government of 
Cameroon (GRC) that U.S. security assistance is contingent upon respect 
for human rights and increased accountability. The Department 
reprogrammed $17.5 million in security assistance due to concerns that 
it could either be diverted to or inadvertently free up other assets 
that could be used in Cameroonian operations in the Northwest and 
Southwest Regions. We anticipate obligating approximately $7 million in 
FY 2019 in military counterterrorism assistance, peacekeeping capacity 
building, and IMET. However, we will consider more reductions if the 
GRC continues pursuing a military-only strategy and continues to reject 
calls for open-ended dialogue without pre-conditions.

    Question. (Diplomatic Security contractor payment disputes) Can you 
please explain why there seem to be so many contractors encountering 
these payments challenges?

    Answer. Several factors have affected the processing of payments, 
including lingering impacts of the ``hiring freeze'' and the recent 
lapse in appropriations. In FY 2018, The Bureau of Diplomatic Security 
processed 10,103 invoices totaling $932 million within Prompt Payment 
Act (PPA) designated timelines, and the Department paid $26,616 in 
interest for late payments on 1,550 invoices (13.3 percent). Thus far 
in FY 2019, DS has processed 5,974 payments totaling $616 million 
within PPA designated timelines, and the Department paid $57,364 in 
interest for late payments on 820 invoices (12 percent).

    Question. How many Requests for Equitable Adjustment (REAs) or 
Contract Disputes Act Claims with a value of more than $10 million is 
State DS currently involved in? What is the status and what is State DS 
doing to resolve these disputes in a timely and equitable manner? How 
long does it take State DS to resolve REAs and contract disputes?

    Answer. The Bureau of Diplomatic Security currently has six formal 
claims for REAs exceeding $10 million, which are under litigation. 
These claims are with the Civilian Board of Contract Appeals (CBCA) or 
the Court of Federal Claims (COFC) for decision. Contract disputes 
require time to adjudicate to ensure the Department pays for costs that 
are fair, reasonable, allowable, and allocable to the contract terms 
and conditions. Contracting Officers adjudicate contract disputes and 
follow the procedures set under the Contract Disputes Act, Federal 
Acquisition Regulation, and Department of State Acquisition Regulation.

    Question. How many security providers did State DS use 10 years ago 
versus in 2019?

    Answer. Currently Diplomatic Security (DS) has approximately 575 
vendors that provide security products and services in support of DS's 
mission, versus 478 from 10 years ago.
                               __________

              Responses of Hon. Mike Pompeo to Questions 
                 Submitted by Senator Edward J. Markey

    Question. During the FY 2020 budget hearing before the Senate 
Foreign Relations Committee, you remarked that the Obama administration 
had made ``no diplomatic effort to create the global coalition'' to 
apply pressure on North Korea. Elsewhere, you have claimed that your 
administration ``forged'' the coalition. On what factual basis did you 
make these statements given that two of five recent United Nations 
Security Council Resolutions enacting global sanctions against North 
Korea date back to 2016?

    Answer. International solidarity and increased pressure on the DPRK 
led by this administration opened the door for U.S. engagement with 
North Korea on denuclearization. The militaries of the North and South, 
together with the U.N. Command and U.S. Forces Korea, have embarked 
upon a number of measures that have lowered the threat level and 
tensions at the Demilitarized Zone.

    Question. During the hearing, you remarked that the previous 
administration made ``no effort to enforce'' North Korea sanctions. Can 
you explain the factual basis for your statement given the 97 North 
Korea-related individuals, entities, and vessels added to the U.S. 
sanctions list in 2016? Can you explain why the Trump administration 
has added only 34 names in the year preceding this hearing?

    Answer. The administration is pressing countries around the world 
for action to pressure the DPRK and fully implement U.N. Security 
Council resolutions. International solidarity and increased pressure on 
the DPRK opened the door for U.S. engagement with North Korea on 
denuclearization. The administration has rolled out 11 tranches of 
North Korea-related sanctions actions, targeting 29 individuals, 50 
entities, and 42 vessels in response to North Korea's ongoing 
development of weapons of mass destruction, continued violation of 
United Nations Security Council resolutions, and serious human rights 
violations abuses, including the continued use of forced labor.

    Question. You told the House Foreign Affairs Committee that you 
needed more time to make a determination on whether atrocities 
committed against the Rohingya people in August 2017 constitute 
genocide and crimes against humanity so as to be ``thoughtful'' in 
making this determination. This decision has been on your desk for many 
months. What additional information is required to make a 
determination?

    Answer. I am concerned about the Burmese military's extensive, 
horrific human rights violations and abuses against the Rohingya. To 
establish a comprehensive understanding of the human rights abuses 
committed in Rakhine State, the Department supported a large-scale 
documentation project in Cox's Bazar, Bangladesh. The report clarified 
the extent and severity of the abuses, and the underlying information 
and findings will help inform our decisions as we seek accountability 
in Burma.

    Question. How is the State Department investing in conflict 
prevention programming in preparation for next year's elections in 
Burma? And how does short-term crisis response and election support fit 
within the broader diplomatic strategy to support Burma in its journey 
to democracy, peace, and prosperity?

    Answer. The State Department is investing in programs and localized 
conflict analysis for appropriate prevention efforts in the lead up to 
Burma's national elections in November 2020. Our programs engage with a 
variety of stakeholders, including political parties, members of 
parliament, government officials, civil society, and community 
religious leaders to foster inclusive campaign processes and a tolerant 
and inclusive political environment. Department and USAID programs also 
work with local partners to improve digital media literacy to combat 
disinformation and historically have worked to strengthen the 
capacities of the Union Election Commission.

    Question. U.N. officials said recently that Facebook's efforts to 
address dangerous speech in Burma were still insufficient, and 
``denigration'' of the Rohingya and other minority groups continued. 
What is the State Department doing to counter the spread of dangerous 
speech online? Please outline specific programs, and any contact that 
you have had with Facebook on this issue.

    Answer. Through a range of programs and working in conjunction with 
media and civil society, the United States continues to support values 
of peace, tolerance, and diversity in Burma. The Department also 
supports programs working with local partners to improve digital media 
literacy to combat disinformation. We have met with Facebook both in 
Burma and in Washington, DC, to share these concerns.

    Question. How does the FY 2020 foreign operations budget for the 
Indo-Pacific reflect funding authorized by the Asia Reassurance 
Initiative Act (ARIA) which includes $1.5 billion each year for fiscal 
years 2019 through 2023, as well as support for cybersecurity, trade, 
and democracy initiatives?

    Answer. ARIA advances a comprehensive, multifaceted, and principled 
U.S. policy that aligns with President Trump's vision for a free and 
open Indo-Pacific. The FY 2020 request includes more than $1.2 billion 
in foreign assistance and $566 million in funding for diplomatic 
engagement. This will support the U.S. Indo-Pacific Strategy to 
strengthen the international rules-based system; promote market-based 
economics; open investment environments; support good governance and 
respect for individual rights; improve digital connectivity and 
cybersecurity; help protect the political and economic sovereignty of 
all Indo-Pacific nations; support embassy operations abroad; and engage 
foreign audiences to strengthen alliances.

    Question. Does the FY 2020 budget reflect the $113 million for 
Southeast Asia announced by Secretary Pompeo in April 2018 for 
``foundational areas of the future, including the digital economy, 
energy, and infrastructure?''

    Answer. The administration launched the economic pillar of the 
Indo-Pacific Strategy on July 30, 2018, at the Indo-Pacific Business 
Forum where I announced $113 million in FY 2018 and prior year funding 
for initiatives foundational to the Indo-Pacific's economic future 
including on high standard infrastructure development, digital 
connectivity and cybersecurity, and energy market development. The $113 
million announcement represented a down payment on the United States' 
commitment to free and open economies in the Indo-Pacific. The FY 2020 
request aims to continue and expand these important initiatives.

    Question. Does the FY 2020 budget include $300 million in security 
assistance for Asia that the State Department announced in August 2018?

    Answer. On August 4, 2018, at the ASEAN Regional Forum in 
Singapore, I outlined the security pillar of the administration's Indo-
Pacific Strategy and announced $300 million focused on areas of 
cooperation critical to ensuring a free, open, and rules-based order in 
the Indo-Pacific: maritime security, humanitarian assistance and 
disaster response, peacekeeping capabilities, and countering 
transnational crime. The FY 2020 request continues to expand security 
sector engagement with Indo-Pacific partners in various areas of 
cooperation to push back on China's encroachment in the South China 
Sea, combat terrorism and violent extremism, support South Asia's 
maritime security and domain awareness, and bolster regional security 
organizations.

    Question. The Indo-Pacific is the most consequential region for 
U.S. interests and for the continued relevance of the rules-based 
international order. Although the U.S. government has made progress in 
recent years in highlighting the challenges and opportunities in the 
region, government investment in American security interests, economic 
interests, and values has been insufficient. Given the importance of 
the [Indo-Pacific] region for U.S. interests, why did the FY 2020 
budget request include reductions in requests (over the FY 2018 
actuals) in areas including the following?

   Diplomatic Programs

   Educational and Cultural Exchanges

   The East-West Center

   Payment to the American Institute in Taiwan

   The Asia Foundation

    Answer. I am confident we have asked for sufficient diplomatic 
engagement resources to support our Indo-Pacific Strategy. The FY 2020 
request includes $565 million in program operations and public 
diplomacy funding, an increase of $39 million above the FY 2019 
request. The FY 2020 request does not include a dedicated appropriation 
for East-West Center or The Asia Foundation. These organizations will 
continue to seek alternative funding sources, to include continuing to 
compete for federal funding and fundraising from non-federal sources, 
as they have done in the past.

    Question. According to the Financial Times, China's government has 
doubled the amount it spends on diplomacy during the 5 years of 
President Xi Jinping's rule. On March 5, 2019, Beijing announced that 
it would spend 62.71 billion RMB (U.S. $9.35 billion) on foreign 
affairs in 2019, a 7.4 percent increase from 2018. How is the State 
Department investing in its own ability to compete with China's 
expanding diplomatic and strategic outreach?

    Answer. Through strategic funding and programming, this FY 2020 
budget request positions the Department of State to advance U.S. 
interests. This means ensuring our nation is fully engaged in regions 
of the world upon which our national security and future prosperity 
depend. In recent years, we have seen China proactively applying its 
power to exert its influence in the Indo-Pacific region and beyond. 
Under President Trump's leadership, the United States has taken 
decisive steps to respond to China's aggressive actions. I am confident 
we have asked for sufficient diplomatic engagement resources to support 
our Indo-Pacific Strategy, which includes competing with China's 
expanding diplomatic and strategic outreach.

    Question. To fulfill its statutory mandate of countering foreign 
state and non-state propaganda efforts aimed at undermining U.S. 
national security interests, how does the Global Engagement Center 
(GEC) identify and prioritize specific issue areas regarding Chinese 
influence on which to allocate its resources?

    Answer. The Global Engagement Center (GEC) is taking a deliberate 
approach to countering Chinese propaganda and disinformation. The GEC's 
China-related priorities are informed by National Security Council 
(NSC) regional strategies, various NSC-led processes on China, and 
through coordination with the State Department's Bureau of East Asian 
and Pacific Affairs, other State Department bureaus, and U.S. 
interagency counterparts. The GEC coordinates with interagency partners 
and overseas missions to identify and execute programs that illuminate 
and forcefully counter the influence of Chinese propaganda and 
disinformation.

    Question. What are the metrics by which the GEC is evaluating its 
effectiveness in countering foreign state and non-state propaganda by 
the Chinese government?

    Answer. The GEC funds programs, in close coordination with the 
Bureau of East Asian and Pacific Affairs, that illuminate and counter 
the influence of Chinese propaganda and disinformation by identifying 
key narratives, information sources, and target audiences of Chinese 
influence activities. Our dedicated monitoring and evaluation team 
works with program partners to develop metrics that are valid and 
useful. Metrics include opinion polling data, news consumption habits, 
media trends, and counter-disinformation training effectiveness. With 
program implementers, we design and execute dissemination plans to 
generate maximum media impact and then monitor audience engagement via 
traditional and social media to evaluate program effectiveness.

    Question. Please explain whether the State Department and the 
Department of Defense intend to utilize the authority provided in the 
FY 2019 National Defense Authorization Act to transfer up to $60 
million in additional funds from DoD to the GEC.

    Answer. Yes. The Department intends to utilize this authority. On 
March 4, the Department took the initial step of requesting up to $60 
million in FY 2019 funds from the Department of Defense (DoD) to 
support new joint initiatives to counter foreign propaganda and 
disinformation by submitting an Executive Secretary Memorandum to DoD. 
The amount of funding that is ultimately transferred to the GEC this 
fiscal year will only be decided once the GEC and DoD agree on which 
specific threats merit focus, to likely include Chinese disinformation 
and propaganda from international terrorist organizations. Those 
agreements will be made by a joint GEC-DoD Senior Coordination Group.

    Question. During your Senate confirmation hearing for CIA Director, 
you stated that the notion of climate change as a top national security 
threat was ``ignorant, dangerous and absolutely unbelievable.'' Do you 
still believe that climate change is not a top national security 
threat? Do you disagree with the Department of Defense that climate 
change is ``a threat multiplier'' and thus a key national security 
challenge?

    Answer. The 2018 Worldwide Threat Assessment of the U.S. 
Intelligence Community identifies the impacts of climate change, among 
other factors, as likely to fuel economic and social discontent and 
notes that extreme weather events in a warmer world have the potential 
for greater impacts and compound with other drivers to raise risks.

    Question. In Brunei, the government recently enacted brutal new 
criminal laws that include death by stoning for sex between men or for 
adultery, and amputation of limbs for theft. What are you and the State 
Department doing to address this new set of laws in Brunei and to 
ensure that the human rights and dignity of all people there are 
protected and respected?

    Answer. I share your concerns about new punishments under Phases 
Two and Three of Brunei's Sharia Penal Code, which are inconsistent 
with international human rights commitments and obligations. The 
Department has raised concerns about these laws with Brunei on numerous 
occasions since the enactment of Phase One in 2014, and we will 
continue to do so, including as part of our bilateral Senior Officials 
Dialogue.

    Question. Given continued threats to LGBTI rights around the world, 
observers and LGBTI rights groups have noted that an LGBTI special 
envoy would demonstrate U.S. leadership and ensure more effective 
intra-department policy coordination in the promotion of LGBTI rights. 
When will you fill the vacancy of special envoy for LGBTI issues?

    Answer. I intend to retain the position of Special Envoy for the 
Human Rights of LGBTI Persons and am working to fill the position with 
a qualified individual as soon as possible.

    Question. The state of LGBTI rights in Egypt and Brazil remain 
particularly concerning, and both heads of state have made troubling 
remarks against the LGBTI community. During President Bolsanaro's and 
President Sisi's visits to Washington, did LGBTI rights come up in your 
or the President's conversations with those heads of state?

    Answer. We regularly raise a wide range of human rights issues and 
concerns with foreign counterparts at all levels. We continue to convey 
privately and publicly the importance of democratic processes, rule of 
law, and respect for human rights and fundamental freedoms to ensuring 
the stability and prosperity we all want to see for Egypt. With respect 
to Brazil, President Bolsonaro has stated his commitment to serve as 
president for all Brazilians and reiterated his allegiance to Brazil's 
constitution and democracy. We take him at his word. The United States 
will continue to stand up and speak out against human rights violations 
and abuses wherever and against whomever they occur.

    Question. Under the Refugee Act of 1980, the President, in 
consultation with Congress, sets an annual ceiling for refugee 
admissions into the United States. Last year, President Trump slashed 
that ceiling to a record-low 30,000 admissions. Given the importance of 
refugee resettlement in our efforts to recruit intelligence assets 
abroad, increase U.S. global influence, counter anti-Western 
propaganda, and promote regional stability in foreign countries hosting 
large numbers of refugees, why is the administration limiting refugee 
admissions?

    Answer. We anticipate resettling up to 30,000 refugees in FY 2019 
under the refugee ceiling, and we also anticipate processing more than 
280,000 asylum-seekers, most of whom have arrived at our southern 
border. They will join hundreds of thousands of asylum seekers who are 
already inside the United States awaiting adjudication of their claims. 
Our refugee admissions program must take into account this operational 
reality.

    Question. On March 12, United States Citizenship & Immigration 
Services (USCIS) announced it was considering closing 23 different 
field offices in over 20 countries around the globe, effectively 
eliminating its entire International Operations Division (IO). Is there 
a plan for how the DOS will manage expanded workloads with the transfer 
of possibly thousands of cases from USCIS to the State Department? Do 
you anticipate this will impact the Department's ability to have fair 
caseloads and provide timely services to Americans and immigrants 
abroad? Do you anticipate that you will need to hire additional staff?

    Answer. The Department, through the Bureau of Consular Affairs, 
provides services on USCIS' behalf at more than 200 posts worldwide. If 
USCIS phases out its overseas offices, we anticipate a smooth 
transition and continued efficient processing of USCIS-related work at 
all of our missions overseas. We will determine our resource needs 
through our on-going discussions with USCIS. Under the provisions of 
the Economy Act, USCIS will continue to reimburse the Department for 
any services it performs on behalf of USCIS.

    Question. Were you consulted by USCIS prior to the announcement 
that USCIS' international operations would close? If so, did you raise 
any concerns about the potential impact to the State Department or its 
staff abroad?

    Answer. Earlier this year, USCIS informed the Department of its 
interest in eliminating international operations. Thereafter, we 
established a working group to discuss and coordinate a smooth 
transition of operations. The Department, through the Bureau of 
Consular Affairs, currently provides services on USCIS' behalf at more 
than 200 posts worldwide. If USCIS phases out its overseas presence we 
anticipate a smooth transition and continued efficient processing of 
USCIS-related work at all of our missions overseas. We will determine 
our resource needs through our on-going discussions with USCIS.

    Question. How is State Department addressing the crackdown in 
Southeast Asia on pro-democracy/free speech advocates? Specifically, 
please update us on the Department's efforts concerning: 1) Truong Duy 
Nhat, a well-known blogger who was reportedly abducted by Vietnamese 
police in Bangkok where he was applying for refugee status before being 
forcibly expatriated back to Vietnam; 2) Maria Ressa, the founder of 
the investigative journalist platform Rappler who has investigated 
President Duterte's drug war; and 3) Leila de Lima, a prominent 
opposition legislator in the Philippines currently being detained by 
the government?

    Answer. We share your concerns about the crackdown on free speech 
advocates in Southeast Asia. We have raised Truong Duy Nhat's case with 
the Government of Vietnam and have repeatedly called on Vietnam to 
release all prisoners of conscience immediately and to allow all 
individuals to express their views freely. In the Philippines, we have 
expressed our concern about the series of apparently politically 
motivated charges against Maria Ressa and Rappler and hope that both 
can continue to operate freely. We are aware of the allegations against 
Senator de Lima, and U.S. Embassy Manila officials are in regular 
contact with her staff. We will continue to raise our human rights 
concerns with Philippine officials both in Washington and Manila.

    Question. What has happened to positions that were taken from 
warzone embassies like Iraq and Afghanistan? What are your plans to 
increase our diplomatic presence with a focus on enhancing our 
leadership, both in the Indo-Pacific itself, and addressing negative 
elements of the Chinese government's influence in other regions?

    Answer. The Department regularly assesses its global staffing needs 
to align with strategic priorities and risks, including the safety and 
security of our personnel. We have empowered bureaus to configure their 
staffing to support our strategic goals. The Department's Foreign 
Service assignment process annually assigns personnel based upon these 
priorities and individuals' career progression needs. As current 
resources support increased Foreign Service staffing levels, the 
Department can fill vacant positions at a variety of locations such as 
in the Indo-Pacific region, including with personnel who previously 
filled positions in Iraq.

    Question. In your written response to a question during your 
confirmation hearing in April 2018, you said you ``will express 
publicly, and at the highest levels of government, that Chinese 
authorities need to engage in meaningful and direct dialogue with the 
Dalai Lama or his representatives, without preconditions, to lower 
tensions and resolve differences.'' Have you raised the issue of 
dialogue on Tibet with Chinese officials? Would you recommend that 
President Trump publicly urge the Chinese President to address the 
grievances of the Tibetan people through dialogue with the Dalai Lama?

    Answer. This administration is committed to raising Tibetan issues 
with Chinese government counterparts at multiple levels. U.S. 
government officials including myself, the Vice President, the 
Ambassador-at-Large for International Religious Freedom, and officials 
from the U.S. Embassy in Beijing and the U.S. Consulate General in 
Chengdu continue to work to establish conditions favorable to the 
facilitation of a direct and meaningful dialogue between Chinese 
authorities and the Dalai Lama or his representatives. This dialogue 
needs to occur without preconditions and is intended to lead to a 
sustainable resolution of longstanding differences.

    Question. As outlined in the State Department's report to Congress 
of March 25, 2019 (mandated by the Reciprocal Access to Tibet Act), 
China has been attempting to isolate Tibet from the rest of the world 
by denying or restricting access to diplomats, journalists and ordinary 
citizens. One concrete way to challenge this Chinese effort is by 
implementing the Tibetan Policy Act's requirement of establishing a 
U.S. consulate in the Tibetan capital Lhasa. Will you take this up with 
the Chinese Foreign Ministry?

    Answer. I will press the Chinese government to allow the opening of 
a U.S. Consulate in Lhasa, consistent with the Tibetan Policy Act. I 
will also implement the Reciprocal Access to Tibet Act. I am committed 
to working closely with Congress in pursuit of our shared goal of 
seeing Americans have full access to China, including the Tibetan 
Autonomous Region and other Tibetan areas.

    Question. On April 7, the head of the Anti-Defamation League 
criticized President Trump for invoking anti-Semitic tropes about the 
loyalty of American Jews in a recent speech. The President also 
suggested that Jewish people are especially influential in trade policy 
during the same speech. You had recently stated, ``This administration 
speaks the truth, and anti-Semitism is unacceptable in any form from 
anyone, but to see it come from one of America's leaders is just 
abhorrent.'' Do you stand by this statement?

    Answer. President Trump has made the fight against anti-Semitism a 
top priority. As I said earlier this year, the United States stands 
with the Jewish people and with Israel in the fight against the world's 
oldest bigotry. Promoting human rights and religious freedom, including 
by combating anti-Semitism everywhere it exists, is a U.S. foreign 
policy priority. We will continue to work to stamp out prejudice in all 
of its forms. As of February 5, 2019, Elan S. Carr is the United States 
Envoy to Monitor and Combat Anti-Semitism. I have full confidence he 
will act as a sentinel against bigotry and prejudice around the world 
and help us continue to lead on this issue.

    Question. Your hearing marked a year to the day that the Anti-
Defamation League released a statement about your ``long, documented 
record of anti-Muslim prejudice.'' The statement said it was 
``essential'' for you to repudiate your past anti-Muslim (and anti-
LGBT) views and to ``renounce any associations with anti-Muslim 
conspiracy-haunted organizations.'' Have you since renounced any such 
views or repudiated your associations with ACT for America and the 
Center for Security Policy?

    Answer. I have spoken clearly and directly that I will treat 
persons of each faith or no faith with the dignity and respect that 
they deserve. I believe in the fundamental freedom to practice religion 
as ones sees fit, whoever one is, whatever one's belief. I have worked 
closely with Muslim leaders and with governments of Muslim-majority 
countries. I also believe that religious leaders, institutions, and 
communities--including Muslim communities--can be critical 
interlocutors on many issues central to U.S. foreign policy. Promoting 
human rights and religious freedom, including by combating religious 
bigotry everywhere it exists, is a U.S. foreign policy priority.

    Question. Approximately how many meetings--at the PCC level or 
above--have State Department officials attended as part of the 
``reviewing'' New START's status and prospects for renewal?

    Answer. The interagency is conducting a thorough review of the New 
START Treaty, including whether extending the Treaty beyond its current 
expiration date of February 5, 2021, is in the national security 
interests of the United States. Department of State officials have been 
present at these meetings.

    Question. Have key experts, from all bureaus with arms control 
equities, such as EUR or L, been allowed to attend all interagency 
discussions on arms control issues? At the PCC level or above? Please 
list the specific bureaus that have participated in meetings at the PCC 
level or above to discuss New START and its potential extension.

    Answer. The Department is properly represented at interagency 
meetings, and relevant bureaus have input into the policy process.

    Question. Your lead arms control official, Assistant Secretary 
Yleem Poblete, has not had any publicly reported bilateral meetings on 
arms control with Russia. Why?

    Answer. Department officials regularly engage with their Russian 
counterparts to discuss arms control matters. I have discussed arms 
control issues directly with Foreign Minister Lavrov, Under Secretary 
of State Andrea Thompson has conducted multiple meetings with Deputy 
Foreign Minister Sergei Ryabkov, and Ambassador Huntsman regularly 
raises arms control issues in interactions with counterparts in Moscow. 
More importantly, working level officials are in regular contact on 
arms control implementation matters. There is no lack of communication 
with Russia on arms control.

    Question. Given the litany of violations and concerns your 
administration has noted vis-a-vis Russia and arms control treaties and 
agreements, why is the compliance report not yet delivered to the 
Congress? When do you plan to make this report available to the 
Congress?

    Answer. The compliance report will be delivered to Congress 
shortly.

    Question. What efforts has the Congress made to address new Russian 
nuclear systems through the New START Treaty?

    Answer. The administration has regularly briefed Congress on the 
status of its implementation of the New START Treaty and will continue 
to do so.

    Question. Given your past experience as CIA Director, if New START 
expires in February 2021 with nothing to replace it and there are no 
constraints on Russia's nuclear forces, in your view would that 
increase or decrease the threat Russia poses to the United States?

    Answer. The administration is currently reviewing whether to seek 
an extension of the Treaty with Russia. Central to that review is 
evaluating whether extension is in the U.S. national interest and how 
the Treaty's expiration would impact U.S. national security in the 
evolving security environment. This includes considerations related to 
Russia's ongoing development of new strategic offensive arms and serial 
noncompliance with its arms control obligations, as well as China's 
continuing nuclear modernization.

    Question. Given your past experience as CIA Director, if we lose 
the New START data exchanges and onsite inspection rights, do you 
believe the Pentagon and the Intelligence Community would have to spend 
more on national technical means of verification to make up for this 
loss? If so, by roughly how much would you estimate?

    Answer. Through its verification regime, the New START Treaty 
mandates that the United States and Russia exchange data detailing the 
numbers, locations, and technical characteristics of all weapons 
systems and facilities subject to the Treaty. The 18 on-site 
inspections that are conducted by the United States each year under the 
terms of the Treaty allow confirmation of Russia's declared data. We 
are continuing to review how the Treaty's extension or expiration would 
impact U.S. national security in the evolving security environment, 
including by evaluating the impact of data exchanges and access through 
on-site inspections to Russian facilities subject to the Treaty.

    Question. Given your past experience as CIA Director, is there any 
way to replace the ``boots on the ground'' inspections provided by New 
START if the treaty did not exist?

    Answer. We are continuing to review how the Treaty's extension or 
expiration would impact U.S. national security in the evolving security 
environment, including by evaluating the impact of access through on-
site inspections to Russian facilities subject to the Treaty.

    Question. Administration officials have raised concerns about new 
strategic-range weapons that Russia is developing, which Russian 
President Vladimir Putin claims would not be subject to any arms 
control treaty. These include nuclear-armed hypersonic glide vehicles; 
globe-circling, nuclear-powered cruise missiles; and very long-range 
nuclear torpedoes for use against U.S. coastal cities. My understanding 
is that New START envisioned the possible development of new kinds of 
strategic offensive arms during the period of implementation of the 
treaty. Article II of the treaty states: ``When a Party believes that a 
new kind of strategic offensive arm is emerging, that Party shall have 
the right to raise the question of such a strategic offensive arm for 
consideration in the Bilateral Consultative Commission.'' Has the State 
Department formally raised Russia's development of these new weapons 
for discussion in the Bilateral Consultative Commission, the treaty's 
implementing body? Yes or no?

    Answer. The United States has engaged Russia on these issues in 
appropriate channels. While the Treaty's confidentiality provisions 
prohibit public discussion of the details of conversations held within 
the Bilateral Consultative Commission, the Department regularly briefs 
the staff of the Senate Foreign Relations Committee on the status and 
content of such discussions.

    Question. Wouldn't extending New START for another 5 years buy us 
additional time to discuss and address our concerns about the new 
weapons with Russia?

    Answer. The Bilateral Consultative Commission, the New START 
Treaty's implementation body, is not the only appropriate forum for 
discussing these systems with Russia. Any decision regarding a 
potential extension of the Treaty will include considerations related 
to Russia's ongoing development of new strategic offensive arms.

    Question. If New START goes away, through what mechanism would the 
United States try to raise its concerns about new Russian nuclear 
weapons?

    Answer. State Department officials regularly meet with Russian 
officials bilaterally and multilaterally to discuss matters relating to 
arms control. The United States government has many channels through 
which it can address concerns related to potential Russian weapon 
systems. We will continue these discussions as appropriate in the 
interest of U.S. national security.

    Question. Secretary Pompeo, during the hearing you suggested that 
we need to take China's nuclear forces into account when weighing the 
future of New START. You stated that ``certainly China . . . has large 
numbers'' of nuclear weapons. Has the administration begun discussions 
with China on including it in New START or otherwise limiting China's 
nuclear forces? Please describe specifically any engagements State 
Department officials have had with China related to nuclear arms 
control.

    Answer. The United States has sought a meaningful dialogue with 
China on our respective nuclear policies, doctrine, and capabilities in 
pursuit of a peaceful security environment and stable relations. 
Following the release of the 2018 Nuclear Posture Review, the United 
States proposed establishing a Strategic Capabilities Working Group 
with China, focused on risk reduction and transparency in the nuclear 
and strategic capabilities arena. China has rebuffed multiple U.S. 
attempts to broach meaningful discussions on these topics.

    Question. How would China be included in New START? Could China be 
included without amending the treaty?

    Answer. The New START Treaty is a bilateral treaty between the 
United States and Russia. The Department has not yet assessed what 
procedural steps would be required in order to bring China into the 
Treaty.

    Question. Which Chinese weapons would be limited if it were a party 
to New START? Would China be allowed to build up to the New START 
limits, which according to open source estimates, are much larger than 
China's current nuclear stockpile?

    Answer. Any discussion about modifying the New START Treaty to 
include China is hypothetical at this time.

    Question. In 2012, then commander of U.S. Strategic Command Gen. 
Kehler stated: ``I do not believe that China has hundreds or thousands 
more nuclear weapons than what the intelligence community has been 
saying, [ . . . ] that the Chinese arsenal is in the range of several 
hundred'' nuclear warheads. Do you agree with this assessment? If not, 
why not?

    Answer. I do not make public comments on U.S. intelligence 
assessments. I would say China invests considerable resources to 
maintain and modernize a survivable nuclear force. China's lack of 
transparency regarding the scope and scale of its nuclear modernization 
program, however, raises questions regarding its future intent and 
current posture as it expands and diversifies its nuclear arsenal.

    Question. How do you assess China would react to the New START 
Treaty's expiration? Do you believe new Start's expiration would make 
it easier or harder to engage in arms control with China?

    Answer. It is unknown how China would react to a hypothetical 
expiration of the New START Treaty. The Chinese Foreign Ministry has 
referred to the New START Treaty as ``an important bilateral nuclear 
disarmament arrangement'' and expressed ``hope that the treaty can be 
extended.'' The United States has sought a meaningful dialogue with 
China on our respective nuclear policies, doctrine, and capabilities in 
pursuit of a peaceful security environment and stable relations. China 
has rebuffed multiple U.S. attempts to broach meaningful discussions on 
these topics.
                               __________
         the foreign service journal article dated april 2019 
                  submitted by senator robert menendez
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
          the foreign service journal article dated may 2019 
                  submitted by senator robert menendez
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                               __________
            [From The National Interest, September 22, 2018]

   Saudi Arabia Already Has a Ballistic Missile Arsenal Courtesy of 
                 China--With a Little Help From the CIA

                         (By Sebastien Roblin)
    You would be hard pressed to find two more determined foes of Iran 
other than Saudi Arabia and Israel. The latter country has long been 
perturbed by bellicose anti-Israeli rhetoric from Tehran, and has 
unleashed hundreds of air strikes and artillery bombardments targeting 
Iran's efforts to arm Hezbollah forces in Lebanon and Syria.
    Meanwhile, Riyadh appear to see itself as engaged in nothing short 
of an epic struggle for dominance of the Middle East, and has oriented 
its foreign policy around combating the perceived Iranian menace, even 
in places its influence is moderate at best.
    Iran hawks are preoccupied by the possibility of an Iranian nuclear 
weapon--a weapon which, given the limitations of Tehran's air and sea 
forces, would need to be delivered by a ballistic missile. Iran's 
continuing development of such missiles has been proposed as a casus 
belli, and was cited to justify the U.S. withdrawal from a nuclear deal 
struck in 2014 (the deal constrained Iran from developing nuclear 
warheads, but not ballistic missiles to carry them in). It's often 
ignored that Israel and Saudi Arabia themselves maintain some of the 
largest ballistic missile arsenals in the region--the latter of which 
is the subject of this article.
    Iran's ballistic missile program began during the `War of the 
Cities' phase of the devastating Iran-Iraq war, when Baghdad rained 
hundreds of Scud missiles on Iranian metropolises. Though Iran managed 
to acquire a few Scuds from Libya with which to retaliate against Iraqi 
cities, it mostly could only strike back with air attacks--which placed 
its steadily diminishing fleet of U.S.-built warplanes at risk.
    Saudi Arabia was also growing nervous of Iraq's evidently huge 
missile arsenal. Denied access to U.S. ballistic missiles, Riyadh 
instead went knocking at the door of Beijing--which had previously 
proven willing to export arms to Iran when Moscow and Washington 
refused to do so.
    In 1987, China transferred between thirty and 120 Dongfeng (`East 
Wind') DF-3A intermediate range ballistic missiles measuring 24 meters 
long and a dozen Transport-Erector-Launcher trucks. Once gassed full of 
liquid fuel, the missiles could strike targets as far as 2,700 miles 
away--though they required special launch pads. Saudi Arabia formed a 
Royal Saudi Strategic Missile Force to operate the weapons, much to 
Washington's annoyance.
    Just 4 years later, Riyadh did end up in a war with Baghdad, and 46 
Iraqi missiles did fall upon Saudi territory. Yet Riyadh never bothered 
flinging missiles back at Baghdad. Why?
    The problem with the DF-3 is that it has a Circular Error Probable 
of at best 300 meters. This means that if you fired a half-dozen at a 
given target, you could expect on average only three to land within the 
length of three football fields of the aim point; with the other three 
most likely falling further afield. Other sources claim the CEP may 
even be as large as one or two miles.
    A weapon that inaccurate is pretty much useless for striking a 
military target--unless equipped with a nuclear warhead, which is what 
the DF-3 was designed to do.
    But China wasn't going to sell nukes to the Saudis. The DF-3s were 
instead modified to carry 3,000 pounds of high explosives. This meant 
the Saudi DF-3s were only `useful' for dropping high explosives on a 
target as large as a city and randomly killing whatever unlucky 
civilians happened to be nearby the point of impact. However, the 
abundant firepower of U.S. war planes during the Gulf War meant the 
Saudis felt little need for such tactics.
    Over a decade later, Riyadh grew interested in acquiring a more 
effective strategic missile deterrence, and again turned to China--this 
time seeking its much more accurate DF-21 IRBM, which has a CEP of only 
30-meters. (China even developed a guided DF-21D model designed to hit 
large ships at sea.) Furthermore, the DF-21's use of solid-fuel rockets 
means it can be launched on very short notice.
    Though possessing a shorter range of 1,100 miles, the 30-ton 
missile is perfectly adequate to hit targets throughout the Middle East 
and would be difficult to intercept as it plunges towards its target at 
10 times the speed of sound. Reportedly Saudi launch sites were 
photographed oriented for firing at Iran and Israel, though given the 
increasingly less discrete alliance between Riyadh and Tel Aviv in 
recent years, that latter part may be more for show.
    In 2014, Newsweek exposed that the CIA had actually helped broker 
the sale of Chinese missile to Riyadh--as long as it was established 
that the DF-21s did not have nuclear warheads. Thus, after a series of 
covert meetings in Washington DC-area diners between spooks and Saudi 
officials, in 2007 two CIA agents were dispatched to inspect the 
missiles in their shipping crates before they were transferred into 
Saudi possession.
    Saudi Arabia has reportedly never test-fired its missile arsenal, 
however, leaving the operational readiness of the RSSMF open to 
question.
    Nonetheless, it has maintained four or five underground facilities 
to house the weapons. Finally, in April 2014, as Riyadh grew fearful of 
U.S. rapprochement with Iran due to the nuclear deal, it paraded the 
gigantic missiles publicly.
    The thing with a `deterrent' weapon system is that, though they 
need to appear to be a credible threat, they only serve their primary 
purpose if they scare a foe into avoiding hostilities. However, that 
deterrence can't happen if the adversary isn't well aware of the extent 
of that threat due to secrecy, which may explain the Saudi decision to 
begin prominently trotting the rockets out in full view.
    There are also persistent rumors that Riyadh has acquired a small 
quantity of nuclear weapons from Pakistan, or has arranged to have some 
transferred in the event of a conflict. Again, the mere existence of 
the rumors is useful for Saudi deterrence, regardless of the truth of 
the matter.
    That Tehran takes the Saudi threat seriously is supported by a 
statement by an Iranian general claiming in September 2018 that Iran 
had earlier tested its Bavar-373 surface-to-air missile system to 
intercept a ballistic missile. As the primary threat to Iran from the 
United States comes from air strikes and cruise missiles, the test is 
likely aimed at Saudi or Israeli missile capabilities. The Bavar-373 
appears to be an attempted domestic copy of the Russian S-300PMU-2 
long-range SAM.
    Ultimately, Washington clearly has fewer objections to the 
possession of ballistic missiles and possible nuclear capabilities in 
its nominal allies. Both Iran and Saudi Arabia, past victims of 
ballistic missile attack, appear to believe that bulking up on such 
weapons will deter each other from overt hostilities--perhaps even if 
they only have conventional warheads. However, the tens of thousands of 
civilians killed during the War of the Cities in the 1980s doesn't 
really support that assumption.

                                  [all]
</pre></body></html>
